<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]




 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2016

                              ----------                              


                         THURSDAY, MAY 7, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:32 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard C. Shelby (Chairman) 
presiding.
    Present: Senators Shelby, Alexander, Murkowski, Collins, 
Kirk, Boozman, Capito, Mikulski, Leahy, Feinstein, Coons, 
Baldwin, and Murphy.

                         DEPARTMENT OF JUSTICE

STATEMENT OF HON. LORETTA E. LYNCH, ATTORNEY GENERAL

             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. The subcommittee will come to order. 
Welcome to today's Commerce, Justice, and Science Subcommittee 
hearing examining the Department of Justice's fiscal year 2016 
budget request.
    First, let me welcome Attorney General Loretta Lynch to her 
first hearing before this subcommittee as she assumes the 
important responsibility of serving as our Nation's chief law 
enforcement officer. Welcome. As you begin your term as 
Attorney General, I believe that it is critical for you to 
return the Office of Attorney General to its constitutional 
purpose, which is to enforce the laws of the land, not the 
decrees and whims of the President.
    The President has a White House counsel and plenty of 
attorneys arguing for his points of view on immigration, 
privacy, environmental regulations and more. The Attorney 
General, I believe, is the servant of the laws and citizens of 
the United States, not the President. I want to encourage you, 
Madam Attorney General, to consider this perspective carefully 
as you begin your service in a job that is critical to our 
democracy and to the rule of law.
    I am deeply troubled by your support of the President's 
unilateral Executive actions, which provide amnesty to millions 
of illegal immigrants. Fortunately, the sweeping policy change 
undertaken without input from Congress has been stayed by the 
courts while a detailed review is conducted through the lens of 
the law and the Constitution. I hope that while this litigation 
is pending, progress will be made on key responsibilities that 
are within the Department's jurisdiction, such as the Executive 
Office for Immigration Review. The President's 2016 budget 
seeks a funding level of $482 million for this office, which is 
$135 million above the current 2015 funding level. That is a 
big increase.
    Significant improvements and reforms I believe are needed 
in our immigration court system in order to address the 
approximately 440,000 pending cases, some of which involve 
unaccompanied children. This backlog equates to a waiting 
period of several years before a case is heard. I believe, and 
I would hope you would agree, that this is unacceptable. While 
the needs are great for immigration courts, I have serious 
reservations about such a large funding increase when 
inefficiencies in management concerns have yet to be addressed 
within this office.
    In your new role as the Attorney General of the United 
States, I am interested in hearing your suggestions and 
recommendations for prioritizing spending for the Department's 
most important and pressing missions involving national 
security, law enforcement, and criminal justice. The 
President's 2016 budget request for the Department of Justice 
totals $29 billion, which is $2 billion above the 2015 enacted 
level. And while funding for the Department of Justice is one 
of the Federal Government's highest priorities, we simply 
cannot afford such an increase in spending while operating 
under our current budget constraints, which puts a lid on all 
of us. I am concerned that even in the midst of the current 
fiscal climate, the President has proposed new grant programs 
and initiatives that would further stretch the Department's 
spending.
    When it comes to law enforcement, your arrival at the 
Department at a critical time of needed leadership is welcomed. 
Since our hearing early this spring with the Department's law 
enforcement chiefs, we have seen the departures of the Bureau 
of Alcohol, Tobacco, Firearms and Explosives (ATF) Director and 
the Drug Enforcement Administration (DEA) Administrator. I hope 
that you will pay particular attention, Madam Attorney General, 
to these law enforcement agencies to ensure that they 
faithfully execute their duties during this time of change.
    As an example, the Bureau of Alcohol, Tobacco, Firearms, 
and Explosives has a rule pending that would impose burdensome 
and, most people believe, unnecessary regulations regarding 
firearms that are lost or stolen in transit. However, the ATF's 
own statistics indicate that this number is insignificant and 
should not be a cause for concern. It certainly does not 
warrant, I believe, such encumbering regulations.
    Oversight and accountability remain a top priority for this 
subcommittee. I have consistently expressed my displeasure to 
your predecessor regarding the Department's resistance to 
cooperating with the Department of Justice's Inspector General. 
I continue to hear from the Inspector General that this 
office--his office is having difficulties in obtaining the 
documents needed to do their job. I urge you to work with the 
Inspector General to make sure that he and his staff can 
successfully complete their reviews and audits of the 
Department of Justice.
    I have outlined that the Department faces many challenges 
that will require fiscal support. The path for making 
meaningful progress runs through this subcommittee. I know 
that. As you begin your tenure, Madam Attorney General, I want 
to express the subcommittee's hope that we will have a 
productive and constructive working relationship. Thank you, 
Madam.
    Senator Mikulski.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you, Mr. Chairman, and I want to 
welcome the Attorney General. We are so glad that you were 
finally, finally, finally confirmed, and we could get beyond 
the petty politics that were the obstruction to that 
confirmation.
    Before I go into my statement, though, I want to remind the 
subcommittee that yesterday was Senator Shelby's birthday, so 
could we join in a round of applause and wish him good health 
and blessings?
    Senator Shelby. Thank you.
    Senator Mikulski. Let us hope that is not the high point of 
the hearing.
    Madam Attorney General, you have had an eventful first 2 
weeks in office. I know this is your very first congressional 
hearing since you have been confirmed, and we are looking 
forward to your testimony in terms of the Justice Department's 
needs for its 2016 budget. We are eager to hear from you about 
the many ongoing efforts at the many Justice Department 
agencies.
    We want to, first of all, thank you, Madam Attorney 
General, for your work in coming to Baltimore and you were keen 
to coming into Baltimore. It was tremendously helpful to the 
mayor, to our police department, and, most of all, to the 
citizens to have the presence of the Justice Department. I 
personally want to thank you on behalf of the entire Maryland 
delegation for the professionalism of your team and, of course, 
yourself. I want to particularly acknowledge the Deputy 
Attorney General, Ms. Gupta, Mr. Ron Davis, the Director of the 
COPS Program, Mr. Grande Lum and your outstanding community 
relations team that came in and provided very crucial technical 
assistance during troubling times.
    We were in Baltimore on Tuesday together as you listened to 
faith-based community leaders. You met with local officials, 
and even reached out to the Freddie Gray family. I will not be 
asking you any questions about the Freddie Gray investigation 
because we know it is an ongoing investigation.
    You have gotten a request from the mayor about asking the 
Department of Justice to open a pattern and practice 
investigation into our police department. Later on this 
afternoon you will be getting a letter from the Maryland 
delegation supporting that request. That will go forward.
    But I want to say this. In many cities throughout the 
country, and including my own town of Baltimore, and in 
communities primarily that have significant populations of 
color, there has been now a tattered, worn, and even broken 
trust between the community and the police department. We have 
got to restore that trust. We need the police department. We 
want to express our condolences to the people in the police 
department of Queens about the death of Officer Brian Moore, 
who was gunned down so brutally. But we also do need criminal 
justice reform, and we need it with an urgency of now.
    I intend to ask questions about what you need in the way of 
resources to do the job that needs to be done, and also what 
reforms that are needed that are specific and are targeted. We 
are also joined today by an outstanding appropriator, but also 
the chair of the--I mean, the ranking member--of the 
authorizing committee on the Judiciary Committee, who has a 
long history in this. We are here to show that the American 
people have a Government on their side and to have a 
constitutional focus to what we do.
    We have put money in the Federal checkbook--$2.3 billion--
for grant programs, targeted resources for police, local 
government, and communities. They range from more cops on the 
beat, to dealing with the rape kit backlog, to child abuse. 
Mayors have told us they need help getting more cops on the 
beat. We had $180 million in doing that. We also wanted to help 
them be able to have the equipment that they needed, and there 
is $376 million in grant programs.
    Now we have to look at what does that mean. Some are crying 
out for body cameras. Is this just yet one more gimmick, or is 
it a crucial tool? Communities and non-profits want to help our 
young people, and this is why we will look for your thoughts 
either today or in the ongoing discussion on our juvenile 
justice programs, prevention, of intervention, who are helping 
with everything from delinquency prevention to the ongoing 
mentoring that we need.
    As you know, many of our civil rights groups and community 
leaders have called out for criminal justice reform. We are 
looking forward to your advice to that, and we know that the 
Judiciary Committee will also be doing it. But I am going to 
have questions related to money and also training, that in 
other words, if you get the money, should you get training. I 
look forward to asking questions on whether if you get COPS 
money, Byrne grant money, and others, should there be required 
training on how to deal with racial and ethnic bias? What about 
the use of force? Should there be national standards that every 
department meets? What about body cameras? There are privacy 
concerns, there are storage concerns, many concerns. What 
should we do about it?
    And last but not at all least, I do hope again for both 
this conversation and ongoing the examination of the so-called 
broken window policy. When the broken window policy was 
initiated by or talked about by an imminent sociologist, John 
Q. Wilson. I supported that policy, and I supported it as 
somebody who started her career as a social worker, that if you 
fix the broken window, that if you intervene with youth when 
they were doing minor offenses, we could intervene in a way 
that prevented them from growing up doing major offenses.
    But while we were looking at the so-called minor criminals, 
we were going to fix the broken windows. We were going to deal 
with vacant houses. We were going to deal with the truancy 
problem. We were going to do this. But now what seems to happen 
is the policy has deteriorated to where we have stopped fixing 
the broken window and we have escalated the frisking. No more 
fixing, but lots of frisking, and that is what our folks feel. 
Last year, 120,000 police stops occurred in Baltimore. We are a 
population of 610,000. That is a lot. I do not know what the 
appropriateness of that is, but I think we need to look at it.
    So today I sit here as the ranking member of the 
subcommittee that will fund your Department, and I assume my 
national responsibility. But I am also here for the 85,000 
kids, all of whom that day of the disturbance went home 
peacefully. What can we do to help them? The 610,000 law 
abiding people in Baltimore who obeyed the law and helped to do 
that. So we look forward to working with you on what are the 
tools to restore confidence between our police and our 
community, but also put our arms around our young people and 
see what we can do to help them. And maybe when we fix a broken 
window, we have to fix the broken political process, and we 
have to get the job done.
    Thank you, and I look forward to your testimony.
    Senator Shelby. Madam Attorney General, welcome to the 
subcommittee. Your written testimony will be made part of the 
record in its entirety. You proceed as you wish.

               SUMMARY STATEMENT OF HON. LORETTA E. LYNCH

    Attorney General Lynch. Thank you, sir. Thank you, Mr. 
Chairman, and remind me to come around on your birthday another 
time. It is quite a celebration.
    Well, good morning, Chairman Shelby, Vice Chairman 
Mikulski, and the other distinguished members of the 
subcommittee. It is indeed an honor to appear in front of you 
for the first time as the Attorney General. I look forward to 
working collaboratively with all of you today and in the days 
ahead as we seek to protect and to serve the American people 
together.
    But I want to take a moment to extend a special thank you 
to Senator Mikulski for your leadership in the United States 
Senate over the last three decades, for your support of the 
Department of Justice and its employees, and for the 
extraordinary example of public service you have provided to 
all Americans, and especially to women. And I am honored to 
have the opportunity to work with you during your final 2 years 
in office.
    Senators, as we approach National Police Week, which begins 
next week, it is fitting that we take a moment to consider the 
contributions and the needs of law enforcement----
    Senator Shelby. Madam Attorney General, would you mind 
pulling your mic just a little closer?
    Attorney General Lynch. Thank you, sir. Actually, sir, it 
seems to be fixed. Thank you, Mr. Chairman.
    Senators, as I noted, National Police Week will begin next 
week, and at this particular time in history it is important 
that we take a moment to consider the contributions and the 
needs of our law enforcement officers across the country. Law 
enforcement is a difficult profession, but a noble one. And 
over the course of my career as a Federal prosecutor and as 
U.S. attorney for the Eastern District of New York, I have been 
privileged to work closely with truly outstanding public safety 
officials, and I have seen up close the dangers that they face 
every day.
    As mentioned by Senator Mikulski, earlier this week Officer 
Brian Moore, a 25-year-old New York City police officer, died 
after being shot while trying to question a man in Queens. And 
just 2 days ago, Sergeant Greg Moore of Coeur d'Alene, Idaho 
was tragically gunned down, also while interacting with a 
suspicious individual. The tragic loss of these brave 
individuals serves as a devastating reminder that our Nation's 
public safety officials put their lives on the line every day 
to protect people they have often never met. Their exemplary 
work is the foundation of the trust that must exist between law 
enforcement officers and the communities that we all serve. And 
that is why when there are allegations of wrongdoing made 
against individual officers and police departments, the 
Department of Justice has a responsibility to examine the 
evidence and, if necessary, to help them implement change.
    While I was in Baltimore on Tuesday, I met with the mayor, 
law enforcement officials, and community, faith, and youth 
leaders. I spoke with an officer who was injured amidst the 
violence, and I heard a number of ideas regarding ways in which 
the Justice Department can continue assisting Baltimore as they 
work to recover from recent unrest. Although the city has made 
significant strides in their collaborative reform efforts with 
the Community-Oriented Policing Services Office, I have not 
ruled out the possibility that more may need to be done. And I 
assure you, Senators, that I am listening to all voices.
    We are currently in the process of considering the request 
from city officials and community and police leaders for an 
investigation into whether the Baltimore City Police Department 
engaged in a pattern or practice of civil rights violations. 
And I intend to have a decision in the coming days.
    Now, the situation in Baltimore involves a core 
responsibility of the Department of Justice, not only to combat 
illegal conduct when it occurs, but to help prevent the 
circumstances that give rise to it in the first place. Going 
forward, your support of the Department and of our funding in 
the fiscal year 2016 President's budget will enable us to build 
on our successes and make further progress in the mission with 
which we are entrusted.
    I am pleased to say that this budget request is in line 
with my highest priorities as Attorney General: safeguarding 
our national security, defending the most vulnerable among us, 
and strengthening relationships of trust and collaboration 
between law enforcement officers and the communities that we 
service. Now, of course, our most important objective must 
continue to be protecting the American people from terrorism 
and other threats to our national security.
    As you know, under my predecessor, Attorney General Eric 
Holder, the Department of Justice engaged in essential efforts 
to counter violent extremism and domestic radicalization, to 
strengthen counterterrorism measures, to promote information 
sharing and collaboration with the intelligence community, and 
to provide training and technical assistance to our foreign 
partners. We must advance this progress on all fronts. We must 
prepare to meet new and emerging threats and vigorously defend 
American citizens at home and abroad.
    The President's budget will strengthen our national 
security efforts by investing a total of $4.6 billion in the 
Department's cutting edge counterterrorism and national 
security programs. This total includes $775 million, an 
increase of $27 million, for addressing cyber crimes and 
enhancing the security of information networks. In an age in 
which criminals have the ability to threaten our national 
security and our economic wellbeing from far beyond our 
borders, it is critical that we expand our focus and strengthen 
our defenses to protect all Americans from exploitation and 
abuse.
    I firmly believe that cybersecurity must be among the top 
priorities for the Department of Justice. This important 
funding will allow us to build on the outstanding work of the 
Department in identifying new threats, thwarting attempted 
intrusions, and bringing the perpetrators of wrongdoing, 
wherever they may hide, to justice.
    As the Department works to safeguard American security, we 
are equally committed to upholding American values, including 
the protection of our most vulnerable populations. The fiscal 
year 2016 budget would provide $103 million in new civil rights 
investments to address hate crimes, sexual violence, and human 
trafficking, an area that warrants our renewed focus and 
redoubled effort. It would allocate $124 million to improve the 
efficiency of our immigration court system by supporting 
additional immigration judge teams and Board of Immigration 
Appeals attorneys, by expanding the successful Legal 
Orientation Program, and by allowing for additional legal 
representation for unaccompanied children.
    And it would deliver $247 million in program increases for 
the Smart on Crime Initiative, which was designed to address 
America's overreliance on incarceration while reducing 
recidivism, and deploying law enforcement resources more 
effectively. By all available evidence, this program has been a 
major success as well as an area of bipartisan cooperation and 
agreement. The requested funds in this year's budget will allow 
us to extend this critical work and to amplify our shared 
commitment to a fair, efficient, and effective criminal justice 
system.
    The Department has made it clear, and I firmly support, 
that this innovative approach does not in any way lessen our 
resolve to combat violent crime, drug trafficking, and other 
violations of Federal law. We remain determined to vigorously 
investigate and prosecute criminal activity. The President's 
budget supports our goals in that regard by appropriating an 
additional $43 million for us to investigate and hold 
accountable those who break Federal laws and harm innocent 
citizens, from illegal firearms and drug traffickers, to 
perpetrators of healthcare scams and financial fraud.
    In all our efforts, we intend to work closely not only with 
this distinguished body, but also with our law enforcement 
partners on the front lines across the country. And that is why 
the President's budget allocates an additional $154 million to 
support our State, local, and tribal partners in their own 
efforts to counter violent extremism, to hire and retain 
officers, to serve the victims of crime, to research best 
practices, improve indigent defense, and expand reentry 
programs. This appropriation includes nearly $95.5 million for 
the Community-Oriented Policing Services Hiring Program, $35 
million for tribal law enforcement, and $20 million for the 
Collaborative Reform Initiative, a recently developed program 
that facilitates collaborations between the COPS Office and law 
enforcement agencies seeking assistance on a wide variety of 
criminal justice issues, from use of force practices and the 
deployment of crisis intervention teams, to building trust with 
the members of their communities.
    As we have seen even in recent days, programs that 
establish trust and improve collaboration are essential to 
carrying out our law enforcement duties effectively and to the 
overall safety of the American people. In the days ahead, I 
hope and I fully intend to bolster our efforts in that area. I 
am eager to work with this subcommittee and with Congress to 
build on the many achievements of the Department of Justice and 
to secure the timely passage of the President's budget, which 
provides $28.7 billion in discretionary resources for the 
Department, including $26.3 billion for vital Federal programs 
and $2.4 billion for State, local, and tribal assistance 
programs.
    As a former United States attorney who saw firsthand, who 
lived through the unsustainability of sequester, I can tell you 
that this level of support is necessary to ensure that we can 
continue to protect the American people and effectively serve 
the priorities of the United States of America.
    Mr. Chairman, ranking member of the subcommittee, I thank 
you once again for the opportunity to meet with you here today 
and to discuss the work of the Department, and I am happy to 
answer questions that you may have. Thank you for your time.
    [The statement follows:]
              Prepared Statement of Hon. Loretta E. Lynch
    Good morning, Chairman Shelby, Vice Chairwoman Mikulski, and other 
distinguished members of the subcommittee. It is an honor for me to 
appear before you today for the first time as Attorney General of the 
United States. I want to thank you for the trust you have placed in me 
through your confirmation of my nomination. Throughout my tenure as 
Attorney General, I will strive to uphold that trust to protect and 
defend our Constitution, to safeguard our people, and to stand as the 
leader and public servant that they deserve. I look forward to working 
with this subcommittee, the United States Senate, and the entire United 
States Congress to protect and serve the American people. Vice 
Chairwoman Mikulski, I am particularly honored to work with you in your 
last 2 years as a Senator. I would like to thank you personally for 
your leadership, example, and support to the Department of Justice and 
the Nation.
    In my new role as Attorney General, I am here to highlight the 
President's fiscal year 2016 budget request for the U.S. Department of 
Justice (the Department or DOJ). While this budget pre-dates my arrival 
as Attorney General, I am pleased to say that it is in line with my 
highest priorities for the agency: the safety of our citizens and our 
national security; protection of the most vulnerable among us; and 
strengthened relationships between America's brave law enforcement 
officers and the communities they are entrusted to serve.
    Continuing our focus on the Smart on Crime initiative is critical 
to achieving these priorities because, while the aggressive enforcement 
of Federal criminal statutes remains necessary, we cannot prosecute and 
incarcerate our way to a safer Nation. We must reduce our prison 
populations by better preventing and deterring crime, improving 
charging and sentencing, and enhancing rehabilitation and reentry 
programs that reduce recidivism. We must also invest in improving 
relationships between communities and the criminal justice system in 
order to restore faith in our systems.
    As we convene this morning, I know we're all still mindful of the 
situation in Baltimore. I assure you that in the days ahead, the 
Justice Department will continue to work to ensure justice, restore 
calm, and resolve unrest.
    This budget will further these important goals and allow the 
dedicated employees of the Department to continue the great work they 
do every day to reduce crime, reform our criminal justice system, and 
ensure our safety and security.
    Thankfully, as a result of bipartisan efforts, DOJ has been able to 
implement a process to backfill critical vacant positions resulting 
from the Department-wide hiring freeze between 2011 and 2014. DOJ 
brought on approximately 2,500 staff in fiscal year 2014 and we hope to 
bring on 1,500 more in fiscal year 2015. The fiscal year 2016 budget 
provides funding to both sustain these employees and provide for an 
additional 1,600 positions.
    The fiscal year 2016 budget requests $28.7 billion in discretionary 
resources for the Department, including $26.3 billion for Federal 
programs and $2.4 billion for State, local, and tribal assistance 
programs. This represents a 4.8 percent increase over the comparable 
fiscal year 2015 enacted funding level. The key funding priorities 
include:
  --Defending U.S. citizens from national security threats.--The budget 
        invests an additional $107 million to develop the Department's 
        capacity in critical national security areas including: 
        countering violent extremism and domestic radicalization to 
        violence; counterterrorism; cybersecurity; information sharing 
        and collaboration with the Intelligence Community; and training 
        and technical assistance for our foreign partners.
  --Upholding civil and constitutional rights.--The budget includes 
        $103 million in new investments to better address human 
        trafficking, hate crimes, and sexual violence in our primary 
        and secondary schools as well as higher education. The 
        additional funds would expand civil and criminal enforcement 
        efforts to ensure the rights of our Nation's most vulnerable 
        populations.
  --Investing in improvements to our criminal justice system.--The 
        budget invests $247 million in the Smart on Crime initiative to 
        better deter crime and protect the public. The initiative 
        focuses resources on the most important law enforcement 
        priorities, reduces disparate impacts of the criminal justice 
        system on vulnerable communities, and considers alternatives to 
        incarceration for low-level, non-violent offenses in order to 
        reduce taxpayer expense and prevent recidivism.
  --Maintaining safe and secure Federal prisons.--In addition to $146 
        million for the Bureau of Prison (BOP) included in the Smart on 
        Crime initiative above, the budget invests an additional $71 
        million to increase staffing at high security prisons to 
        improve officer and inmate safety; increase medical beds for 
        severely ill inmates; and undertake essential rehabilitation, 
        modernization, and renovation of aging BOP facilities.
  --Improving the efficiency of the immigration court system.--The 
        budget invests $126 million to support additional Immigration 
        Judge Teams and Board of Immigration Appeals attorneys, to 
        expand the successful Legal Orientation Program, to allow for 
        greater representation of unaccompanied children, to modernize 
        information and data sharing systems to improve the efficiency 
        of processing case materials, and to keep pace with workload 
        demands associated with civil cases.
  --Improving responses to violent crime, illicit drugs, and healthcare 
        fraud.--Simply maintaining existing capacity is not sufficient. 
        The budget requests $43 million in additional investments to 
        investigate and punish those who break Federal laws and harm 
        innocent citizens. This includes preventing the illegal use and 
        trafficking of firearms, addressing the increase in heroin and 
        other emerging drug trends, thwarting international drug 
        trafficking organizations, addressing international piracy of 
        intellectual property, and combating healthcare fraud and 
        wildlife trafficking.
  --Enhancing State, local, and tribal law enforcement programs.--The 
        budget requests $154 million in net discretionary program 
        increases to support the ability of our State, local, and 
        tribal partners to counter violent extremism, hire officers, 
        better serve victims of crimes, conduct research to build 
        evidence on best practices, improve indigent defense, and 
        expand re-entry programs.
  --Addressing gaps in critical Department infrastructure.--The budget 
        invests $27 million in the renovation and repair of prisoner 
        holding spaces in Federal courthouses, Department-wide 
        information technology improvements, and oversight of 
        Department policies and procedures.
   protecting the american people from terrorism and other national 
                            security threats
    Defending U.S. citizens from both internal and external threats 
remains the Department's highest priority. The Department made 
significant achievements in this area in fiscal year 2014. The 
Department's counterterrorism investigations disrupted 214 terrorist 
threats and the FBI investigated approximately 14,000 national security 
cases. The FBI, DEA, ATF, Department of Homeland Security, U.S. Secret 
Service, and the U.S. Postal Inspection Service successfully 
coordinated on many efforts, including the arrest of multiple vendors 
involved in online forums, such as Silk Road 2.0, which were 
trafficking counterfeit currency, narcotics, firearms, explosives, and 
illicit documents.
    The fiscal year 2016 budget will enable the Department to continue 
meeting the challenging and ever-changing threats to our national 
security by providing a total of $4.6 billion in resources, including 
$107 million in program increases for four critical national security 
issues: (1) countering violent extremism and domestic radicalization to 
violence; (2) cybersecurity; (3) information sharing and collaboration 
with the Intelligence Community; and (4) training and technical 
assistance for our foreign partners.
    To counter violent extremism and domestic radicalization to 
violence, the fiscal year 2016 request provides $15 million to allow 
the Department to foster community-led efforts through funding from the 
Office of Justice Programs (OJP) and the Community Oriented Policing 
Services (COPS) to State, local, and tribal law enforcement agencies 
and community organizations nationwide. At the National Security 
Division (NSD), $1 million in additional resources would support its 
investigative and prosecutorial efforts focused on homegrown violent 
extremists intent on attacking the United States.
    The fiscal year 2016 budget request also includes $775 million in 
total for cyber-related activities that address cybercrimes and defend 
the security of critical information networks. This request includes 
increases of $27 million for key program enhancements to the FBI, NSD, 
U.S. Attorneys, and the Criminal Division. The FBI will continue 
improving its cyber collection and analysis, while extending its 
centralized cyber capabilities to the field through its Next Generation 
Cyber initiative. NSD will bring on additional attorneys to help with 
prevention, detection, investigation and prosecution, and vulnerability 
management, as well as policy development and program oversight related 
to cyber threats to national security. To prosecute increased 
cybercrimes across the country, the U.S. Attorneys require additional 
attorneys that specialize in cybercrimes, as well as increased training 
on digital evidence. Enhancements to the Criminal Division would 
increase the Division's capacity in six key areas: training for 
attorneys on cybercrime and digital evidence; enhancing digital 
forensic capacity; providing technical and legal expertise; improving 
information sharing efforts with the private sector; building and 
strengthening relationships with foreign law enforcement partners, and 
developing cyber policy. Finally, in order to protect the Department 
from increased cyber threats and intrusions, the fiscal year 2016 
budget invests in additional cybersecurity tools and IT infrastructure 
maintenance and improvements.
    Information sharing and collaboration with the Intelligence 
Community is critical for the success of the Department's efforts to 
ensure our national security. A program increase of $3.2 million for 
NSD will enhance its court-authorized intelligence collection efforts 
and increase its oversight of information used during national security 
investigations and prosecutions. Increases for the FBI and DEA will 
allow both agencies to improve their information technology systems.
    Because crime increasingly transcends national borders, the United 
States must improve its coordination with foreign partners. The Mutual 
Legal Assistance Treaty (MLAT) is the mechanism that enables the 
provision of evidence and extradition of persons across borders. 
Improvements are still needed to reduce the backlog in MLAT requests 
from our foreign partners and improve MLAT response time. As of January 
2015, the Office of International Affairs (OIA) in the Criminal 
Division had a backlog of over 11,500 pending cases. The Department is 
working to fully replace its existing, antiquated IT system with an 
anticipated completion date of mid-2016. The Department has also begun 
to gather better data from its existing case management tool, such as 
timelines for the processing of requests, which will generate useful 
metrics to evaluate the execution of MLAT requests. OIA has made 
significant progress in filling attorney vacancies that accumulated 
during the Department's hiring freeze. However, without the $32 million 
investment for personnel and technological resources requested in the 
fiscal year 2016 budget, OIA will not be able to accomplish its plans 
for centralization or process improvement.
    Finally, the fiscal year 2016 budget also invests additional 
resources for the International Criminal Investigative Training 
Assistance Program (ICITAP) and the Office of Overseas Prosecutorial 
Development Assistance and Training (OPDAT). Both agencies further U.S. 
national security interests by helping stop terrorism and crime before 
it can reach our shores. ICITAP and OPDAT costs have been generally 
funded by the State Department, however, as the issues to be addressed 
grow, so has the need for steady base resources within the Department's 
budget.
                        protecting civil rights
    The Department must protect not only American citizens but also 
American values. Accomplishing the Department's mission to uphold the 
civil and constitutional rights of all Americans, particularly the most 
vulnerable, requires resources to investigate, litigate, and conduct 
outreach and technical assistance. As such, the Department is 
requesting program increases totaling $103 million across several 
components. For the Civil Rights Division (CRT), the fiscal year 2016 
request includes total enhancements of $16 million to expand efforts 
associated with human trafficking, voting rights, and enforcement of 
Title IX and other laws that address discrimination against students on 
the basis of sex. The request for CRT also includes additional 
resources to protect servicemembers and individuals in institutions, 
and to expand efforts to ensure that all communities have effective and 
democratically accountable policing. An enhancement of $7 million would 
allow for new Assistant U.S. Attorneys to focus exclusively on civil 
rights law enforcement and work in tandem with CRT on the more 
complicated and time consuming cases, such as sex and labor trafficking 
cases.
    The Community Relations Service (CRS) has been engaged in forging 
constructive partnerships to prevent and relieve tensions between law 
enforcement and communities around the country, including Ferguson, New 
York City, and most recently Baltimore. The fiscal year 2016 request 
includes an increase in funding for CRS to help prevent hate crimes and 
engage local communities and law enforcement departments in dispute 
resolution activities. Funding will also support the goals of the 
President's My Brother's Keeper Initiative, which seeks to address 
persistent opportunity gaps faced by boys and young men of color to 
ensure that all young people in this country can reach their full 
potential. The Department requests $78 million in grant program 
increases to: improve the public's access to counsel and legal 
assistance in State, local, and tribal courts and juvenile justice 
systems; implement the recommendations of the White House Task Force to 
Protect Students from Sexual Assault; and assist law enforcement 
agencies on criminal justice issues, including use of force practices 
and the deployment of crisis intervention teams.
                       becoming smarter on crime
    In early 2013, the Justice Department launched a comprehensive 
review of the criminal justice system in order to identify reforms that 
would ensure Federal laws are enforced fairly and, in an era of reduced 
budgets, efficiently. As part of this review, the Department studied 
all phases of the criminal justice system, including charging, 
sentencing, incarceration, and reentry, to identify the practices that 
are successful at deterring crime and protecting the public. The Smart 
on Crime initiative was created to focus Federal resources and place 
the harshest sentences on the most violent offenders rather than 
prioritizing the sheer number of prosecutions. Considering alternatives 
to incarceration for low-level, non-violent offenses strengthens our 
justice system and places a lower financial burden on the budget so 
that funds can be spent on essential public safety priorities. The 
Smart on Crime initiative will also help contain incarceration costs 
over the long term by facilitating inmates' successful transition back 
into society.
    Of the $247 million requested in program increases for the Smart on 
Crime initiative in fiscal year 2016, $146 million is dedicated to re-
entry and recidivism reducing programs at the Bureau of Prisons (BOP). 
More specifically, the funding would expand sex offender management 
programs, mental health staff, cognitive behavioral treatment, 
vocational programs, as well as medically assisted treatment programs 
for individuals in the justice system dependent on opioids. The request 
also includes funding for a new, broader reentry program that reaches 
out to offenders' children and families to strengthen familial bonds, 
which are critical for helping inmates transitioning back home. At U.S. 
Attorneys' Offices, $25 million would support dedicated prevention and 
reentry coordinators in all 94 districts. OJP will add new resources to 
its Residential Substance Abuse Treatment program and Second Chance Act 
Program so that State, local, and tribal governments can address the 
critical needs of the sub-population of offenders who most need the 
services and drive most jurisdictions' recidivism rates. Enhancements 
to OJP's Smart Policing and Smart Prosecution programs encourage the 
development of data-driven strategies by local law enforcement and 
prosecutors to address specific crime problems more effectively and 
economically in their jurisdictions.
      maintaining safe and secure prison and detention facilities
    To increase safety for officers and inmates, the fiscal year 2016 
budget requests $71 million in program enhancements. For BOP's 17 high 
security institutions, $32 million would ensure that there are two 
correctional officers on duty in each housing unit at all times. The 
Department is requesting $5 million to convert Federal Correctional 
Institution Fort Worth to a Medical Referral Center that will house and 
treat severely ill inmates currently housed in community hospitals. 
Finally, the request increases funding for BOP to undertake essential 
rehabilitation, modernization, and renovation of BOP institutions, one 
third of which are 50 years old or older. This maintenance and repair 
will preserve our capital investments and ensure sufficient security 
within these aging institutions.
                       enforcing immigration laws
    The Department plays an integral role in the immigration system by 
ensuring the fair, expeditious, and uniform application of the Nation's 
immigration laws. The Department's Executive Office for Immigration 
Review (EOIR) oversees the immigration court and Board of Immigrant 
Appeals. In recent years, EOIR has sought to keep pace with the rising 
number of immigration cases, in order to maintain the efficiency and 
effectiveness of its immigration enforcement, adjudication, and 
detention programs.
    To process the increasing workload and improve the efficiency of 
the immigration court system, the Department requests an increase of 
$124 million to support an additional 55 Immigration Judge (IJ) Teams 
and 28 Board of Immigration Appeals attorneys and provide for other 
improvements to the immigration system. This enhancement will help IJ 
Teams and attorneys adjudicate rising immigration caseloads resulting 
from the increase in Southwest Border crossings. Also included in this 
program increase is $50 million to expand legal representation for 
unaccompanied children and $10 million to improve efficiencies in 
immigration court proceedings by expanding the Legal Orientation 
Program.
    The Department's Civil Division, Office of Immigration Litigation 
(OIL), also plays a crucial role in upholding the immigration 
enforcement actions of DHS and EOIR. OIL defends the Government in 
district court cases and challenges to removal orders filed in circuit 
courts. The Department requests an increase of $1 million to address 
the growth in class-action immigration cases.
 improving responses to violent crime, illicit drugs, and health care 
                                 fraud
    The Department's mission and responsibility is to investigate and 
punish those who break Federal laws and harm innocent citizens. 
Continued investments are needed to strengthen the Department's ability 
to uphold those commitments and obligations. Simply maintaining 
existing law enforcement capacity is not sufficient. For fiscal year 
2016, the Department requests $43 million in additional investments to 
address violent crime, illicit drugs, and healthcare fraud.
    Investments to combat violent crime include resources for the 
United States Marshals Service (USMS) to investigate violations of the 
Adam Walsh Act and assists State, local, tribal, and territorial 
jurisdictions in locating and apprehending an estimated 100,000 non-
compliant sex offenders. Funding is also requested to expand officer 
safety training for USMS operational officers and task force officers.
    The budget supports a strong response to the increase in heroin 
abuse and other emerging drug trends. This includes additional 
resources for DEA's information sharing efforts to thwart international 
drug trafficking organizations as they seek to exploit financial 
markets, intellectual property, the energy sector, as well as other 
legitimate sectors and markets. The request also includes resources to 
pay for State and local clandestine laboratory cleanup program.
    For the Department's litigating divisions, the budget requests 
additional resources to enforce laws that address international piracy 
of intellectual property), healthcare and financial fraud, as well as 
fraud against the military. Each year, industry loses hundreds of 
billions of dollars due to counterfeiting and global trade of 
illegitimate goods. In recent years, the Criminal Division has returned 
billions of dollars to the Federal Government from its efforts to 
combat fraud. The Civil Division not only recovers billions of dollars 
for taxpayers; it also saves billions by defending the U.S. against 
lawsuits. In fiscal year 2014 alone, the Civil Division defended 
against suits in which approximately $100 billion was at issue. To 
continue successfully safeguarding taxpayer dollars and protecting the 
healthy, safety and economic security of the American people, the Civil 
Division needs additional staff to handle the increasing number of 
cases they receive. Finally, $2 million would support the multi-
national efforts of the Environment and Natural Resources Division to 
combat wildlife trafficking and related transnational organized crime 
activities.
   investing in state, local and tribal assistance programs that work
    Crime and the ability to respond effectively to it continue to be 
major challenges for many communities across the country. The fiscal 
year 2016 budget maintains the Department's commitments to State, 
local, and tribal partners without reducing the Department's Federal 
operational role. The fiscal year 2016 discretionary a request for 
State, local, and tribal law enforcement assistance is $2.4 billion 
with a net discretionary increase of $154 million. This includes a 
program increase of $15 million to implement the administration's 
Countering Violent Extremism Initiative that will address domestic 
terror incidents and the emergence of groups attempting to recruit 
Americans to take part in ongoing conflicts in foreign countries. The 
budget also targets $97 million for the President's new Community 
Policing Initiative to build and sustain trust between law enforcement 
and the people they serve. Both the COPS and OJP budgets include 
enhancements to support these two initiatives.
    The fiscal year 2016 request for OJP supports a net increase of $30 
million in grant funding for indigent defense, Second Chance Prisoner 
Reentry, Justice Reinvestment, and juvenile justice programs. The 
budget includes the mandatory grants of $1 billion for the Crime 
Victims Fund and $100 million for the Public Safety Officer's Death 
Benefits.
    The fiscal year 2016 request for COPS provides an increase of $95.5 
million, including $69.5 million for the COPS Hiring Program, with $5 
million targeted towards improving diversity in law enforcement, and 
$35 million for Tribal Law Enforcement. The request includes $20 
million as a separate line-item for the Collaborative Reform Initiative 
which enables the COPS Office to partner with law enforcement agencies 
that may need assistance on a wide variety of criminal justice issues 
that range from use-of-force practices and the deployment of crisis 
intervention teams, to building trust with the communities served. 
Again, it is efforts like these that may help to prevent situations 
like those in Ferguson and Baltimore.
    The fiscal year 2016 request for the Office on Violence Against 
Women (OVW) includes a total of $50 million in enhancements. Protecting 
students from sexual assault is a top priority for this administration, 
and the budget reflects this by including a $14 million increase to the 
Campus Violence Program to better meet the need on college campuses. 
Other increases include $5 million for a new Tribal Jurisdiction 
program, $21 million for a new program to improve law enforcement and 
prosecutorial response to sexual assault, and $10 million for 
enhancements to the Legal Assistance to Victims Program.
         addressing gaps in critical department infrastructure
    In order to maintain an effective and efficient organization, the 
Department must invest in its physical and non-physical infrastructure. 
The infrastructure resources requested for fiscal year 2016 are focused 
in three categories: information technology (IT) improvements; facility 
construction and maintenance; and oversight functions.
    The resources requested for facility construction and maintenance 
total $5 million to renovate and repair USMS prisoner holding cells in 
Federal courthouses. This funding will significantly reduce the repair 
backlog so the USMS can better provide for the safety and security of 
judges, court personnel, and others in Federal court facilities.
    For IT improvements, $15 million is requested for the Department to 
continue its data center consolidation efforts, provide the public 
greater access to the Department's data, and increase automated 
litigation services. With every passing year, a healthy IT 
infrastructure becomes more critical to ensuring that DOJ operations 
remain effective. Consolidation of data centers is one of the ways the 
Department is saving and avoiding costs while increasing data security.
    Finally, $10 million is requested to enhance oversight functions 
such as increased funding for contract oversight by the Inspector 
General and increased staff for Department leadership to strengthen 
policy analysis and compliance efforts.
                               conclusion
    Chairman Shelby, Vice Chairwoman Mikulski, and members of the 
subcommittee, it is my pleasure to highlight recent DOJ successes as 
well as the resources identified for fiscal year 2016 to maintain and 
build upon such successes. The Department clearly understands the need 
for fiscal restraint and has achieved as many cost savings as possible 
without jeopardizing its mission. The increases requested in the 
President's budget are those necessary to address the most pressing 
criminal justice needs of our country. As my father always reminded me, 
we all gain the most when we act in service to others. It will be my 
honor to work together with each of you in service to the American 
people and in the spirit of mutual respect and Constitutional balance. 
I would be happy to answer any questions you may have.

                              IMMIGRATION

    Senator Shelby. Thank you, Madam Attorney General. In 
November of 2014, the President expanded immigration amnesty 
through Executive order in furtherance of his 2012 Executive 
order to people over the age of 30 and to new arrivals. It also 
allows about 4 million additional illegal immigrants, who have 
been in the country for 5 years and who are parents of U.S. 
citizens and legal residents, to apply every 3 years for 
deportation deferrals. In January this year, you testified 
during your confirmation hearing that you believe that the 
President's Executive actions are legal and constitutional, 
even though the President stated on record many times that he 
did not believe he had the constitutional power to grant 
amnesty without authority from the Congress.
    Why do you believe that the President's Executive actions 
granting amnesty to millions of illegal immigrants are legal 
and constitutional?
    Attorney General Lynch. Mr. Chairman, you certainly are 
focused on one of the most challenging issues facing our 
country today, how to deal with the immigration issue. As I 
indicated during my January testimony, as a career prosecutor 
and former U.S. attorney, I particularly focused on the 
prioritization of the removal of the most dangerous illegal 
immigrants from our country. With respect to that issue, I 
found that to be an imminently reasonable exercise of 
administrative and prosecutorial discretion.
    With respect to the actions involving the issuance of 
deferrals to new members who would apply for that, I believe 
that matter is a subject that is under consideration by the 
courts. As you have noted, those actions have been enjoined. As 
I stated during those proceedings, I am committed to abiding by 
the injunction and certainly working with the Department of 
Homeland Security to ensure that the injunction is supported 
while it is pending.
    Senator Shelby. As you assume, and you have, the position 
of Attorney General, how will you, Madam Attorney General, 
enforce current immigration laws given your belief that the 
recent Executive actions trump existing laws? In other words, 
do all the Executive actions and presumptions there trump the 
laws of Congress? How do you rationalize that?
    Attorney General Lynch. Senator, I believe that our 
existing laws are a vital resource in dealing with the problem 
of both illegal immigration and as well as criminal activity 
that results from illegal immigration. In particular, the 
Department's own Executive Office of Immigration Review (EOIR) 
is charged with adjudicating various types of immigration 
violations. As you have noted, EOIR has suffered from a backlog 
of cases and inefficiencies that have delayed actions separate 
and apart from the President's new policies that has delayed 
actions for far too long. Within the new budget request, the 
Department would seek to hire additional immigration judges, 55 
in total, to reduce this backlog.
    But also, Senator, recognizing that we simply cannot wait 
for additional money, we are taking steps already to try and 
make the Executive Office of Immigration Review more efficient. 
Previous to my testimony, the judges have already worked to 
triage, so to speak, the types of cases that need to be 
adjudicated quickly. Judges have been reassigned and redeployed 
to handle the backlog of cases because we recognize that that 
is unsustainable. Separate and apart, of course, from the 
Executive Office of Immigration Review, as I am sure the 
subcommittee is aware, approximately 30 percent of Federal 
criminal cases that are brought by our U.S. attorneys across 
the country relate to immigration offenses.
    So, Senator, separate and apart from the legal result or 
the court result of the November policies, the Department of 
Justice is moving forward both to prosecute criminal activity 
resulting from illegal immigration and to support the work of 
its Executive Office of Immigration Review, which we believe is 
vital.

                            FINANCIAL FRAUD

    Senator Shelby. I want to shift into another area of 
financial fraud. In one of your previous jobs, you were 
directly involved in several high profile financial fraud 
settlements during your tenure as the U.S. attorney for the 
Eastern District of New York. However, it is my understanding 
that not one of those settlements also involved a criminal 
prosecution. Why did you and the Department--I know you were 
not the Attorney General then; you were the U.S. attorney--not 
pursue criminal charges, and how could you enter into billion 
settlements sometimes with firms guilty of fraud, and yet never 
see fit to prosecute not one person for mortgage or financial 
fraud? And will that change now since you are the Attorney 
General? In other words, are people buying justice by 
settlement?
    Attorney General Lynch. Senator, with respect to the work 
with which I was proud to conduct as U.S. attorney regarding 
the Residential Mortgage-Backed Securities Initiative, my 
office was involved in two of the major settlements of that as 
well as other outstanding U.S. attorney's offices across the 
country. Throughout those investigations, the message from the 
leadership at the time, from all the U.S. attorneys working on 
that, and from myself to my team, the direction was that no 
entity is above the law, no individual is above the law, no one 
is too big or too powerful to jail or to fail.
    But what the Department of Justice does in every case, 
Senator, is follow the evidence. We ascertain the best way of 
achieving legal compliance when there have been violations and 
providing redress to victims. We look carefully in every case, 
not just the residential mortgage-backed securities (RMBS) 
cases, but every case involving a financial institution where 
American citizens have lost hard-earned money to determine the 
best way to bring those wrongdoers to justice. And where the 
evidence leads us to find that we can prove beyond a reasonable 
doubt that there has been a criminal violation, we go in that 
direction.
    And I would point you to the number of criminal fraud 
prosecutions brought by my office on behalf of the victims of 
Ponzi schemes, mortgage fraud schemes, and real estate schemes 
over the years involving hard-working Americans who were 
defrauded of their life savings. Where we find evidence that 
points toward civil liability, we pursue that. But I can assure 
you, Senator, that both in my prior position and going forward, 
I take very seriously the obligation to protect the American 
citizens from fraud of all types, and it is one of my highest 
priorities as Attorney General.
    Senator Shelby. But the standard threshold for a civil case 
is not as high as a criminal case, and neither should it be. Is 
that correct?
    Attorney General Lynch. That is correct. There is a 
different burden of proof on the Government, and where we have 
evidence that meets the criminal burden of proof, we do 
proceed. And there are several people who are sitting in 
Federal prison contemplating the results of their actions now 
who can provide proof of that.
    Senator Shelby. Okay. Senator Mikulski.
    Senator Mikulski. Thank you, Mr. Chairman. Madam Attorney 
General, there are many programs you have functioning at the 
local level, certainly in Baltimore. We have a top notch U.S. 
attorney's office, an outstanding Baltimore FBI field office, 
joint task forces working with local government going against 
everything--dealing with everything from human trafficking--
such a violent, despicable thing--to Medicare fraud, which we 
know, for example, in Florida, is already to $3 billion 
defrauding our Government of money that should be in the trust 
fund helping sick people. So we thank you for what you are 
doing.

                             GRANT PROGRAMS

    The issue, though, is also focusing on criminal justice 
reform because of our grant program, particularly in COPS, 
Byrne, others, that go directly to local law enforcement. Do 
you think that there should be mandatory training in the areas 
of ethnic and racial bias as well as also on the use of force, 
and that there should be a national standard? In other words, 
in order to get the money, you have to take the training so 
that behavior will not tatter or wear out or even break the 
trust that the community must feel.
    Attorney General Lynch. Senator, I think as we administer 
our grant programs to our local law enforcement partners, all 
of those issues are on the table and are under consideration. 
Currently, I will say that our view is that the grant program 
is a very important tool in bringing offices into compliance 
with not only Federal standards, but also community standards. 
So we would not use that as a barrier to the grant program, but 
rather as an incentive to work with us and gain training on use 
of force policies.
    We have grants that are specifically targeted towards that. 
Through the COPS Office, whether there is a collaborative 
reform effort or not, we provide specific training on best 
practices involving use of force. Not only do we provide the 
training, we also attempt to link local law enforcement with 
other local law enforcement offices that themselves have either 
received training for the COPS----
    Senator Mikulski. But, Madam Attorney General, I mean, we 
will get lost in collaborative reform and all this, and I do 
not mean lost. First of all, we do know that Baltimore City 
through its both mayor, and police commissioner, and the 
concurrence of other elected officials have initiated a 
collaborative reform effort in Baltimore. That is a voluntary 
effort where police departments reach out to you, meaning the 
Attorney General, and his or her offices to evaluate the 
Department on how to better improve police community relations. 
That is under way, but that is voluntary.
    Attorney General Lynch. Yes.
    Senator Mikulski. That is voluntary. Then, of course, there 
is the pattern and practice investigation. We know we have 
asked for that. You will make your determination later on 
whether you will initiate it.
    But what about where they have not asked for collaborative 
reform, but they have asked for money? There is a lot of let us 
gets the money, you know, and we supported more cops on the 
beat. We supported the Byrne grants so that our law enforcement 
would have the tools that they needed, whether it is other 
technology or whatever. But, again, they took the money, but we 
see that there are other issues that community-based leaders, 
faith and grassroots and others, are saying the relationship is 
worn. And my question is if you get the money, should there be 
training, whether it is latent bias, deliberate bias, and also 
the use of force?
    Attorney General Lynch. Yes, Senator, and I certainly 
agree----
    Senator Mikulski. So do you think that apart from whether 
they have a collaborative reform effort underway or not?
    Attorney General Lynch. Yes, Senator. Separate and apart 
from whether there is a collaborative reform effort, in a pure 
grant situation we do seek to provide training. My only point 
was, and I actually do not want to disagree with you on that 
because it is such an important point. My only point was we do 
not use that as a barrier to obtaining the grant, but rather as 
an incentive to work with us and obtain training from a variety 
of different sources. Some of that training will come as a 
result of the grants. Some of the training comes as a result of 
us connecting police departments with others.
    Senator Mikulski. I understand that, but the community 
feels they get a lot of money from the Feds, and we do not have 
the necessary things. So I would like to have ongoing 
conversation with you about it.
    Attorney General Lynch. Yes, and those issues are under 
consideration because, as you indicate, they are very, very 
important and essential to the----
    Senator Mikulski. What other tools do you feel that you 
have on criminal justice reform to help restore this trust that 
exists that we need to restore on our communities?
    Attorney General Lynch. Well, Senator, we have touched a 
little bit on the collaborative reform process, but, again, as 
we have seen, without community trust in that, it may not be as 
effective as we would wish. Certainly we then have other tools 
to consider.
    Within our programs we do provide training on use of force. 
We do provide training on building community trust. We also, as 
you mentioned earlier in your statement, through our Community 
Relations Service worked directly with the community to attempt 
to empower them to engage with their local leaders, with the 
police department, and to hold them accountable as well, 
because we do think that community accountability is an 
important part of that relationship.
    Senator Mikulski. Well, we have more to ask. If there is a 
second round, I want to focus then on juvenile justice.
    Attorney General Lynch. Yes.
    Senator Mikulski. Thank you very much.
    Senator Shelby. Senator Kirk.
    Senator Kirk. Madam Attorney General, I want to raise 
questions about Racketeer Influenced and Corrupt Organizations 
(RICO) prosecutions. I understand that countrywide we have 
about 1,517 under the RICO statutes. Assuming that Illinois is 
about 5 percent of the United States, that would mean we would 
have had over 60 RICO prosecutions in our area. Right now it is 
about zero. I want to encourage you very strongly to work with 
Zach Fardon, our U.S. attorney there, to make sure that the 
RICO prosecutions that we have underway, that we can prosecute 
gangs of national significance that then Chairwoman Mikulski 
backed me on to take on the issue of crime gangs, which are 
taking over some of our cities. I think RICO is the particular 
statute that we should go with.
    Attorney General Lynch. Senator, I could not agree with you 
more on the efficacy of the RICO statute in targeting----
    Senator Kirk. Let me just follow up on one other thing.
    Attorney General Lynch. Certainly.

                             GANG VIOLENCE

    Senator Kirk. This subcommittee has added $18,500,000 to 
the U.S. Marshals to combat these gangs. My understanding is 
the new task force of Chicago has arrested about 344 people in 
relation to this effort. Is that your understanding?
    Attorney General Lynch. Sir, I do not have that exact 
number. I would have to get back to you, but I know that it is 
very active in the Chicago area.
    [The information follows:]

    As of July, there have been 695 arrests made in Chicago in relation 
to this effort.

    Senator Kirk. Thank you.
    Attorney General Lynch. Senator, just to follow up on your 
previous point, I could not agree with you more on the efficacy 
of the RICO statute as a tool to target violent crime, 
particularly gang violence. The importance of taking out the 
leadership of a gang, both from a law enforcement perspective 
and from a community perspective, cannot be overstated. I thank 
you for the discussions that you and I had during my courtesy 
visits with you, and, in fact, I have had discussions with the 
U.S. attorney in Chicago as well as with the head of our 
Criminal Division here in Washington about finding ways to 
bolster those efforts, and both have assured me that they are 
also committed to using this important tool.
    Senator Kirk. I want to make sure we get the word down to 
Leslie Caldwell and Doug Crow and make sure they follow up.
    Attorney General Lynch. Yes, sir. I have spoken with them, 
and they are committed to this as well.
    Senator Kirk. Thank you.
    Attorney General Lynch. Thank you, sir.
    Senator Kirk. Thank you, Mr. Chairman.
    Senator Shelby. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. Madam Attorney 
General, it is nice to see you again.
    Attorney General Lynch. Thank you, sir.
    Senator Leahy. Thank you for being here. And I agree with 
what Senator Mikulski said about your presence in Baltimore, 
and that sort of thing is not only important for the community, 
which you would understand far better than I, but it is 
important to the country. And I understand that as you did in 
your hearing before the Judiciary Committee, you were asked a 
number of questions on immigration, and questions on something 
that since I have been here every President has done, Executive 
actions on immigration. I think probably the most extensive 
were by President Reagan. But I would also point out if--an 
Executive action is usually done, it is when Congress does not 
act.
    Now, we spent hundreds of hours putting together an 
immigration bill in the U.S. Senate. It passed a couple of 
years ago. Two-thirds of senators voted for it, Republicans and 
Democrats alike. Huge bipartisan effort. Even though by all 
analyses the immigration bill would have passed the House of 
Representatives, the Republican leadership in the House refused 
to take it up.
    So I have a little trouble hearing criticisms of the 
President finally acting when the Congress would not. If the 
Congress does not like what the President has done on 
immigration, pass an immigration bill. We did it in the Senate. 
Again, Republicans and Democrats came together. However, the 
Republican leadership refused to bring it up in the House. Had 
they, we would not even be having this question. So I would 
just say that if we do not like it, then the Congress must pass 
a bill.
    I also think we ought to reform our Federal sentencing 
laws. The Bureau of Prisons is consuming nearly a third of the 
Department's budget, and we talked about what we should be 
doing on law enforcement and other priorities. A third of your 
budget is going into the Bureau of Prisons. Excessive mandatory 
minimum sentences are wasting money that could be spent 
otherwise.
    One of the proposals under consideration by the Senate 
Judiciary Committee, the Modern Sentencing Act, would reduce 
mandatory minimums for non-violent drug offenses. In your law 
career as a Federal prosecutor, you prosecuted many drug cases. 
I prosecuted many drug cases. Do you think we can reduce those 
mandatory minimums, and still keep our communities--excuse me--
and still keep our communities safe?

                           SENTENCING REFORM

    Attorney General Lynch. Senator, I think we absolutely can 
have sentencing reform that enables us to reduce the mandatory 
minimums and keeps our communities safe. It is important to 
note that the recent efforts at sentencing reform that seek to 
reduce mandatory minimums do not eliminate them. They still 
recognize the need to provide serious punishment for the most 
serious offenders. In fact, what we have seen with the Smart on 
Crime initiative is that while overall drug cases may have gone 
down, the longer sentences have actually gone up. We are now 
focusing on those larger offenders, the large-scale traffickers 
who are flooding our communities with poison as opposed to the 
lower level offenders, who did need to be punished, but at a 
different scale. So I think sentencing reform is an excellent 
way to make sure that these efforts continue.
    Senator Leahy. I think also we sometimes think we can do a 
one-size-fits-all. California did that with three strikes you 
are out, and it darn near bankrupted the State. I worry about 
what is happening when we are taking money from law enforcement 
to lock up people. Some people should be in prison. I am all 
for that. Others we are wasting time and money, and that money 
could be used in other areas of the criminal justice system.

                                 HEROIN

    I am also worried about the increase in heroin use and 
overdose. It has become a health crisis. Even in my home State 
of Vermont we have not been spared. Between 2000 and 2012, 
treatment for opioid addiction in Vermont rose by more than 770 
percent. Just last week, the Vermont State Police issued a 
warning about the dangers of heroin laced with the drug 
fentanyl, after it was linked to a number of multiple overdose 
deaths in our State.
    Interdiction alone is never going to solve the issues, but 
the law enforcement agencies, particularly in small and rural 
States or small rural areas, which every State has, need some 
help. I pushed last year to create a new grant program to 
support an anti-heroin task force. I understand the grant 
program is getting under way. Last year, the Justice Department 
was instructed to create a multi-agency task force to address 
the rising number of heroin uses. Can you tell me how that is 
going and what you might be able to do to help with----
    Attorney General Lynch. Yes, Senator.
    Senator Leahy [continuing]. This public health crisis?
    Attorney General Lynch. Yes, Senator. It certainly is the 
intersection of law enforcement and a public health issue. Our 
budget does request additional funds to deal with this uptick 
in heroin abuse and other emerging drug areas.
    As you noted, there is a Senate-mandated heroin task force. 
They held their first meeting just last week. The Deputy 
Attorney General is actively involved in that, and it deals not 
only with law enforcement, but the public health issues of 
that. It is also led and supplemented by several of our U.S. 
attorneys who over the past several years have themselves 
worked with public health officials and local communities to 
deal with this as a public health crisis. So we are bringing 
all voices to the table in an attempt to get the policies that 
have been effective at a local level promulgated nationwide and 
make them available to other communities as well.
    As I mentioned, the President's budget does call for 
increases that would support our law enforcement efforts in 
heroin as well as opioid addiction in general because, of 
course, we still have the prescription drug crisis that is tied 
to this as well.
    Senator Leahy. Thank you. Thank you, Mr. Chairman and 
Senator Mikulski.
    Senator Shelby. Thank you. Senator Collins.

                            FISA SECTION 215

    Senator Collins. Thank you, Mr. Chairman. Attorney General 
Lynch, just this morning the 2nd Circuit Court of Appeals held 
that Section 215 of the Foreign Intelligence Surveillance Act 
does not authorize Government to engage in the bulk collection 
of phone numbers under the metadata program. One of the 
President's independent review groups which looked at this law, 
Mike Morrell, the former deputy director of the CIA, as well as 
the former director of the FBI, Robert Mueller, have said that 
had this program been in place prior to the terrorist attacks 
on our country on 9/11/01, it likely would have prevented those 
attacks. So we have a very serious question here of balancing 
security with privacy rights and the clarity of the law, which 
is set to expire. That provision expires June 1.
    Since January of last year, this section of the Foreign 
Intelligence Surveillance Act (FISA) has been conducted 
pursuant to new procedures that were instituted by the 
President. Now, the AG provides a semi-annual report on privacy 
violations associated with the law. The new procedure provides 
that except in emergencies, the FISA Court is now required to 
approve ahead of time any queries of phone records database 
because of the changes made by the President.
    Two questions. One, are you aware of any significant 
privacy violations that have occurred since the President 
instituted these reforms? And second, has the Justice 
Department made a decision yet on appealing this decision by 
the 2nd Circuit? I realize it just came down.
    Attorney General Lynch. Yes. Thank you, Senator. Section 
215 has been a vital tool in our national security arsenal, but 
the Department has, as you note, been operating under the new 
directives by the President with a view towards modifying the 
program to keep its efficacy, but preserve privacy interests. I 
am not aware at this time of any violations that have come to 
light. I will certainly seek a briefing on that, and should I 
learn of any, I will advise the subcommittee of that if my 
knowledge changes on that. But as of now, I have not been 
informed of any violations under the new policy.
    With respect to the decision from the 2nd Circuit, my home 
circuit actually, we are reviewing that decision this morning. 
But given the time issues involving the expiration of it, we 
are and have been working with this body and others to look for 
ways to reauthorize Section 215 in a way that does preserve its 
efficacy and protect privacy.

                              ELDER FRAUD

    Senator Collins. Thank you. I want to turn to an issue that 
you and I discussed when we met at my office, and that is the 
tremendous increase in the number of scams that are targeting 
our Nation's seniors. They range from the Jamaican lottery 
scam, the grandparents scam, and most recently the IRS imposter 
scam. What we have learned is that these scammers typically 
operate offshore, and they rely upon advanced communication and 
payment technologies. And the losses suffered by individual 
victims are devastating and they aggregate in the billions, yet 
the Federal Government has been extraordinarily lax in its 
approach to actually going after these criminals. And only the 
Federal Government can realistically tackle the international 
crime networks behind many of these scams.
    I also want to bring to your attention that under your 
predecessor, and I want to make it very clear it was before 
your time, that the Department refused to send to the 
subcommittee a witness to testify on the Department's efforts. 
That was appalling to both the ranking member, Senator Claire 
McCaskill, and to me. What can the Department do to be more 
aggressive in prosecuting these scams which aggregate in the 
billions of dollars, and will you pledge that from now on the 
Department will cooperate with our investigations?
    Attorney General Lynch. Well, Senator, with respect to the 
very, very important role that this subcommittee plays in 
gathering information about the Department's priorities, I will 
always strive to cooperate and provide either a witness or 
information, whatever is best, for the subcommittee to receive 
so that we can help you learn not only about our priorities and 
issues, but also to do the important work of this subcommittee. 
I am not aware of the circumstances that were around that 
previous request, but certainly I will always commit to 
providing this subcommittee with the assistance that it needs 
either before the subcommittee or at the staff level.
    With respect to the very important matter that you raise--
many of them are overseas based fraud schemes. The other 
troubling factor to me is that many of them target our elderly 
population, and that is a particularly vulnerable population to 
telemarketing schemes be they based locally or be they based 
overseas. So that is very troubling to me, and the protection 
of our vulnerable population is one of our priorities.
    I am not aware right now of the cases that we may have in 
our pipeline. I certainly will ask for a review of this 
important issue. Our budget does, of course, ask for funding to 
continue the fight against fraud, and I know that all of the 
agencies that are involved in this, you mentioned, for example, 
the IRS scam calls, are very concerned about that.
    As someone who actually received one of those calls myself, 
I can tell you that if one is not aware of the fraudulent 
nature of them, they can be very disturbing. And it is easy to 
see how our seniors in particular, but other people, can get 
pulled into that.
    Senator Collins. Thank you.
    Senator Shelby. Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman and Vice 
Chairwoman Mikulski, for holding this hearing, and welcome, 
Madam Attorney General. It is so great to see you again this 
time in your now official capacity leading the Department of 
Justice.

                            VA INVESTIGATION

    I was pleased to hear a few minutes ago your giving voice 
to the seriousness with which you take issues of over 
prescription, addiction, and abuse, and diversion of opioid 
drugs. And I want to call your attention to a situation in my 
State of Wisconsin at the Tomah VA medical facility where there 
are a number of investigations ongoing, all relating to these 
very pressing issues.
    I called on your predecessor, Attorney General Holder, to 
investigate potential criminal activity at this facility. My 
request and communication to your predecessor was based on 
multiple sources, including published investigative journalism 
reports, numerous whistleblowers and citizens who have 
contacted my office conveying information that in my mind 
raises serious questions about potential criminal activity. 
Currently the VA is conducting an investigation as is the VA 
Inspector General, and the DEA is engaged in an investigation 
of allegations of drug diversions at the facility.
    But I remain convinced that there are additional elements 
that warrant further criminal investigation. And my letter to 
your predecessor outlined some of those, including an alarming 
number of 9-1-1 calls made from the facility over the past 
several years--over 2,000--reports of 24 unexplained deaths, 
allegations of illegal access to confidential patient 
information and law enforcement records, et cetera.
    Now, I understand you cannot get into any details of 
ongoing criminal investigations, so as a consequence I would 
simply ask if you will evaluate these allegations and 
coordinate with the existing three Federal investigations to 
determine if there are additional criminal investigations that 
are warranted and appropriate in this particular case?
    Attorney General Lynch. Well, Senator, I thank you for 
raising this important issue because I think that the safety 
and security of those who use our Veterans Administration's 
hospitals is foremost a priority, not just for my tenure as 
Attorney General, but for our country. As someone whose family 
has used those hospitals, I am well aware of how vital a 
resource they are to the families and to those who are ill. And 
certainly, I am aware of the situation. I have not yet had a 
briefing on the matter, but I will commit to you that I will 
request a briefing on this matter and make sure that all 
efforts to coordinate are being undertaken.
    Senator Baldwin. I thank you for that. And one additional 
matter, again, given the urgency with which we respond to the 
opioid abuse problems that we have throughout our Nation, I 
want to make you aware of some impediments in the DEA 
investigation into drug diversion at the Tomah VA. The DEA and 
the VA have differing interpretations of the scope of a VA 
specific patient privacy law, which may be limiting the ability 
of VA personnel to fully participate in interviews if they are 
told that they cannot reveal particular information about 
patients. It certainly would be an incredible obstacle to a 
thorough investigation if not fully resolved.
    And so, if you have previously been briefed, I would ask 
you what is the status of the Department's effort to resolve 
the confusion? If you need authorization language from the 
Congress to resolve this issue, I would appreciate it if you 
would provide that to me and my staff.
    Attorney General Lynch. Thank you, Senator. As I indicated, 
I have not yet been briefed on this matter, although I am aware 
of the DEA's investigation into the situation, and of course 
fully support it. And we will also look into whether or not 
there are impediments to DEA being able to view this as a 
criminal matter.
    Senator Baldwin. Thank you.
    Attorney General Lynch. Thank you.
    Senator Shelby. Senator Alexander.
    Senator Alexander. Madam Attorney General, welcome. I was 
in New York City for my law school reunion at New York 
University (NYU) this past weekend, and many of my classmates 
knew you and were very complimentary of you.
    Attorney General Lynch. Thank you, sir.
    Senator Alexander. I want to begin by thanking you and the 
Department for something. It is my understanding that sometime 
today the Drug Enforcement Administration will approve the 
State of Tennessee's application to import certified industrial 
hemp seeds for research purposes. That may seem like a small 
matter, but it was important to our State agricultural 
department, and there was a practical issue. The seeds had to 
be planted in May, so I thank you for moving that along.

               PRESCRIPTION DRUG WHOLESALER REQUIREMENTS

    Second, on the Drug Enforcement Administration, I would 
like to call something to your attention that has been called 
to my attention. I do not have a solution for it, but I think 
it deserves really the attention of the Attorney General and 
the management, and it has to do with prescription drug abuse 
and the relationship between the Drug Enforcement 
Administration and the wholesalers or pharmacies who distribute 
controlled substances.
    Now, here is what seems to be the problem. DEA requires 
wholesalers to track and report on ``suspicious orders.'' These 
would be orders from local drug stores I guess. And it 
restricts how those orders can be filled if they are flagged as 
suspicious. Well, there is no guidance or clarity about what is 
a ``suspicious order,'' and as we both know in the law, 
whenever the law gets too vague, sometimes there are risks and 
problems associated with that.
    One risk, of course, if a wholesaler refuses to send a 
controlled substance to a drug store, then someone with a 
broken arm goes to the drug store, and that person is out of 
luck. The other risk is that there develops an adversarial 
relationship between the Drug Enforcement Administration and 
the wholesalers over this issue.
    So my request is simply this. Would you please take a look 
at the words ``suspicious orders'' and the relationship between 
the DEA and wholesalers and pharmacies, and see if there needs 
to be additional guidance so that we do not have an adversarial 
relationship between people who really should be in a 
partnership to make sure controlled substances are not sent to 
the wrong people at the corner drugstore?
    Attorney General Lynch. Certainly, Senator, I can commit to 
that. I also echo your concern that in a desire to protect 
people, we may be, in fact, inhibiting the ability of people 
who have legitimate needs for pain medications to obtain them, 
which is not our intention. And it certainly is something that 
I will undertake to review.

                           METH LAB CLEAN UP

    Senator Alexander. Thank you very much. And my final 
question also is just to put a spotlight on something. Our 
State, Tennessee, is third in the Nation in meth lab seizures. 
It is a big problem, especially in rural areas and because the 
demand for enforcement exceeds the funding. Our State developed 
what they call a central storage container program. They found 
a way to clean up meth labs for $500 per lab instead of $2,500 
per lab. Now, that is progress if you can do something for 20 
percent of what you used to do it for.
    So we were pleased to see the budget of $4 million more for 
the meth lab cleanup program this year, but disappointed that 
the Department decided not to include funding for the 
competitive grant program for State anti-meth task forces. 
Given that the meth epidemic is one of the most urgent drug 
problems that we face, especially in rural areas, what was the 
thinking, especially as it affects rural communities with less 
resources, in not expanding or continuing the competitive grant 
program for States?
    Attorney General Lynch. Thank you, Senator. My 
understanding of that competitive program, the COPS Anti-
Methamphetamine Program, is that the funding that exists is 2-
year funding, and so there was not a need to request funding 
for this year because the program as enacted last year would 
cover this fiscal year. It is, believe me, not a desire to end 
or in any way diminish the program.
    And it is also my understanding that the solicitation for 
this fiscal year will be released very soon, later this month 
in May. So I regret the appearance that the Department may have 
pulled back or withdrawn from that, but it is my understanding 
that because we have 2-year funding for that, that we will then 
have to come back in the next fiscal year to request additional 
funding.
    Senator Alexander. Well, that would be very encouraging. 
Thank you for that explanation. Thank you, Mr. Chairman.
    Senator Shelby. Senator Murphy.

                              FCI DANBURY

    Senator Murphy. Thank you very much, Mr. Chairman. Welcome, 
Attorney General Lynch. Congratulations on your confirmation. I 
had a few broader questions to ask, but I wanted to begin with 
a rather specific one to the Northeast region and to 
Connecticut. We have historically had a women's correctional 
facility in Danbury, Connecticut, and in July of 2013, the 
Federal Bureau of Prisons announced it was going to close that 
facility, which would essentially be the only--was the only 
facility for women in the Northeast. We had a number of really 
positive discussions with the Department of Justice and with 
the Bureau of Prisons, and they reversed that decision, 
understanding that it would be incredibly detrimental to women 
who are incarcerated in the Northeast if they had to be 
transported hundreds, if not thousands, of miles to other 
facilities.
    The solution was to build a new facility, a low security 
facility for women in Danbury. And the initial schedule was for 
that facility to be completed by this month actually. And in 
the interim, all these women are being spread amongst jails in 
the Northeast, jails that really are not equipped to be able to 
handle the things that these women need, especially drug 
counseling in the long run.
    So I just wanted to ask you if you had an update on 
progress of the construction of that facility and whether we 
can expect that construction will be completed as soon as 
practicably possible so that we can transition these women who 
are now in places like Brooklyn and Philadelphia back to a more 
long-term suitable facility.
    Attorney General Lynch. Certainly, Senator, and I share 
your concern over that important issue. When I began my career 
as a young assistant U.S. attorney (AUSA) in the early 1990s, 
Federal Correctional Institution (FCI) Danbury was not yet a 
total women's facility, and most women who were prosecuted in 
the Federal system ultimately ended up being housed in West 
Virginia. And the facility actually was fine, but for women 
from the Northeast it presented a significant negative impact 
on their ability to stay connected with their families. It 
harmed their relationships with their children. Those 
collateral consequences are the types of things that we seek to 
avoid. And so, having FCI Danbury in the Northeast has 
certainly been a positive law enforcement step for all of who 
work in that area.
    My understanding is that the environmental impact studies 
were completed quite recently, and that there are additional 
matters. In fact, I believe that there are pricing materials 
being resolved this month, and I am told by my team that 
construction should begin this summer. I do not have an 
anticipated completion date for you, and I regret to say that I 
am hesitant to offer one having seen several government 
construction projects in my day. But I am told that 
construction should begin this summer on the new facility, and 
I share your concern and view that it is an important law 
enforcement resource for the Northeast.
    Senator Murphy. Thank you for your personal attention to 
this. I look forward to talking with you about it as we move 
towards the construction schedule. Again, this is really a 
development of a really positive series of conversations. Not 
easy to reverse course on something like this, and I really 
thank the Bureau of Prisons for considering the impact of 
shuttling women prisoners to the far reaches of the Northeast.

                    NATIONAL BACKGROUND CHECK SYSTEM

    Just one other query. I represent Newtown, Connecticut, 
Sandy Hook. It is a community that is still grieving dealing 
with the ripples of trauma that still exist there. I understand 
the realities of this place that we are not likely to get a 
bill expanding background checks, though 90 percent of 
Americans support the notion that everyone should have to prove 
they are not a criminal before they buy a gun. But as Senator 
Shelby noted in his opening comments, the ATF position is open, 
a very important position, for the enforcement of existing 
laws.
    And the existing national background check system can be 
made much better to make sure that all of the data is being 
uploaded into it, making sure that that information is 
distributed. A hundred thousand individuals every year are 
prohibited from buying guns because of the background check 
system. It works.
    And so, I just I would ask for your commitment to work with 
us to make sure that the ATF has the resources that they need 
in order to carry out existing laws, and your commitment, as 
your predecessor did, to work with us on making sure that our 
national background check system has the resources it needs to 
continue to do the good work that it has for decades.
    Attorney General Lynch. Certainly, Senator. I am committed 
to that important goal of supporting and strengthening the ATF, 
as well as making sure that their processes and the existing 
systems are as efficient as possible because that is how we 
protect our citizens.
    Senator Murphy. Great. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Shelby. Thank you. Senator Murkowski.

                         TRIBAL LAW ENFORCEMENT

    Senator Murkowski. Thank you, Mr. Chairman. Madam Attorney 
General, welcome and thank you. I want to point out the aspects 
of your budget that focus on tribal law enforcement. This is an 
issue, of course, that is very important in my State. We had an 
opportunity to discuss it in your pre-confirmation meeting that 
we had, and I know that you have recently had a conversation 
with Julie Kitka, who is the president of the Alaska Federation 
of Natives.
    The public safety challenges that face Alaska Native 
villages run the gamut, everything from the absence of full-
time law enforcement officers in some villages, inadequate 
resources devoted towards community-based prevention, and 
restorative justice efforts. We have a tribal court system that 
is struggling because it is just really in an embryonic stage. 
We have human trafficking of our native women. The heroin 
issues that you have heard discussed here today are not just 
limited to the cities. They are out in our villages.
    I know that you have got a lot on your plate. It is clear 
from the discussions here this morning. But I would like your 
commitment that you will work with me, you will work with the 
Alaska Federation of Natives (AFN) to really be involved to a 
personal extent and degree with some of these challenges that 
we are facing as they relate to rural justice in our native 
areas--in our rural areas. I have been asked by AFN, and I am 
actually going to be speaking to their board by video or by 
teleconference this afternoon, for an opportunity to sit with 
you and some of the native leadership to discuss some of these 
issues that are just so very troubling to us right now.
    So I would like your commitment that we can have that 
meeting and perhaps very quickly your observations based on 
your conversations with not only me, but Ms. Kitka, about some 
of the substantive issues that we have with rural justice in 
Alaska.
    Attorney General Lynch. Senator, I would look forward to 
such a meeting, and I would welcome it.
    Senator Murkowski. Thank you.
    Attorney General Lynch. I think that the commitment that 
the Department of Justice and our Nation have made to Indian 
Country over the last several years has shown great promise, 
but it is one that must be sustained, maintained, and improved 
upon. We have several requests in the budget that go directly 
to the issues of tribal justice, the Office of Violence Against 
Women, for example.
    And because it such an important issue to me, I am just 
going to outline them briefly because we are asking for an 
increase of $100 million, but part of that money would go for 
tribal grant set asides. Twenty million would go for the Crime 
Victims Fund Tribal Assistance Program. Five million would go 
for the Office of Violence Against Women Domestic Violence 
Jurisdiction Program.
    As I know you are well aware, we recently had great success 
in enabling tribal courts to deal with offenders who commit 
violence against women and children on native lands when the 
offenders are non-Natives. That had been a bar for some time. 
It has been tremendously helpful to have given that 
jurisdiction to the tribal courts.
    We also are asking for money to address environmental 
problems in Indian Country as well as to maintain current 
positions. I firmly believe that this commitment must be not 
only maintained, but expanded upon else we really do risk 
sliding backwards, Senator, with all the issues faced by tribal 
lands, particularly, as you and I discussed with Alaska, having 
such a large land mass and dealing with the law enforcement 
challenges there. We have to set in place systems that will 
work, but that will also be maintained.

                                 HEROIN

    Senator Murkowski. Well, I agree with you. We have got a 
lot of work to do, and I look forward to those conversations 
with you and your team. On the heroin issue, you have heard it 
repeated several times here today, but I will reiterate that in 
our very remote rural areas, areas that are islands, areas that 
are not accessible by road, we are seeing the impact of heroin, 
whether it is in Dillingham, whether it is in Kodiak. And 
actually we have got meth issues in the community of Kodiak, 
and law enforcement is focusing on that, so they are not able 
to focus on some of the smaller villages that are out there.
    So you mentioned the heroin task force that is in place. I 
would ask that you not forget the smaller communities where we 
see--we see an addiction and a devastation truly just taking 
our communities, just wiping them out. And it is a frightening 
thought that the resources may be there and available for the 
cities, but that our smaller communities where losing a few 
young people can be so significant to just health, morale, and 
safety. So I would ask that you work with us on that.
    And, Mr. Chairman, I do have other questions that I would 
like submitted for the record, most specifically with the 
codification of the Brady obligation in statute. We have talked 
about that, but I would like further follow up on that.
    Thank you, Mr. Chairman.
    Attorney General Lynch. Thank you, Senator.
    Senator Shelby. Senator Coons.
    Senator Coons. Thank you Chairman Shelby, and thank you, 
Attorney General Lynch, for your service and for your testimony 
before us today. I want to congratulate you as you being your 
important service in the interest of our Nation.
    Last year, Congress demonstrated its commitment to the 
Victims of Child Abuse Act by unanimously reauthorizing the 
programs in both chambers. Children's advocacy centers funded 
under this law conduct forensic interviews in a way that is 
both effective in serving law enforcement needs and respectful 
of the delicate needs of child victims of abuse.

                      CHILDREN'S ADVOCACY CENTERS

    I was frankly very disappointed to see the President's 
fiscal year 2016 budget request once again only asked for half 
of the amount needed to fund these crucial programs. We are 
talking a modest amount, $11 million out of the $20 million 
authorization. What has your experience been with children's 
advocacy centers in your law enforcement role, and do you 
expect to be an advocate for them within the Department in 2016 
and beyond?
    Attorney General Lynch. Well, Senator, my experience has 
been based primarily with my experience as a U.S. attorney in 
the Eastern District of New York, and we have found children's 
advocacy centers to be extremely powerful partners. And for us 
it has been in dealing with children who may be related to the 
victims of human trafficking. That has been a huge problem that 
we have seen in the New York area. And so, I know that there 
are other issues that are in other parts of the country, and I 
look forward to learning more about those. It is definitely a 
program that I feel is extremely important.
    The overall budget includes our request for Juvenile 
Justice Programs, and it is our hope that the panoply of 
programs that we offer will, in fact, help provide a valuable 
safety net for those children in need.
    Senator Coons. Thank you. I look forward to working with 
you on these valuable programs that I think are under 
resourced, but there are many challenges in our budget 
environment.

                       VIOLENCE REDUCTION NETWORK

    Let me next reference the Violence Reduction Network, which 
is an effective program for cities like my hometown of 
Wilmington to address violent crime and connect local law 
enforcement with cutting-edge law enforcement resources, mostly 
Federal resources. I want to thank the very hard-working team 
in the Office of Justice Programs (OJP's) Bureau of Justice 
Assistance and the Wilmington team that is led by John Skinner.
    I hope you commit to ensuring the Violence Reduction 
Network (VRN) Program is maintained and supported with 
necessary resources so that it can continue to serve as a 
valuable connection between the Department of Justice (DOJ) and 
a number of communities that have seen dramatic increases in 
violent crime. Is that something you are inclined to support?
    Attorney General Lynch. Senator, I support it 
wholeheartedly. Certainly Wilmington has been one of the 
flagship cities in this, not a distinction that you sought, but 
one which came upon you, I understand. But Wilmington has been 
an excellent model frankly for the level of cooperation between 
the Wilmington Police Department and the FBI, and the State and 
local and other Federal law enforcement agencies as well.
    My understanding is we actually have identified five 
additional cities for the next fiscal year to be involved in 
this program. Again, not a distinction that they would seek, 
but one which we think is an area in which we think we can 
provide assistance. Beyond just the VRN, of course, we do have 
other resources for violent crime for our cities that may not 
have such extreme, and we are fully committed to those programs 
as well.
    Senator Coons. Thank you. I look forward to continuing to 
work on Federal, State, and local law enforcement partnerships 
that can reduce violent crime.

                    COLLABORATIVE REFORM INITIATIVE

    Let us turn to the Collaborative Reform Initiative. As we 
all know, we have strained relationships between law 
enforcement and communities in cities across the Nation, most 
recently and tragically Baltimore, but this has occurred in 
many other places. I am particularly interested in the 
Collaborative Reform Initiative efforts that are underway in 
Baltimore, and would be interested in hearing more about what 
is on the table for the project, and how it is going to be 
sustained, and whether recent events in Baltimore have affected 
the CRI timeline.
    Attorney General Lynch. Well, with respect to the situation 
in Baltimore, the Collaborative Reform Initiative was begun 
last fall actually at the request of the Baltimore Police 
Department. And our COPS Office went into Baltimore and has 
been very, very active in working with both the police and the 
community to work on ways to improve the Baltimore Police 
Department. As we have discussed in this chamber earlier today 
and throughout my most recent visit to Baltimore, recent events 
have certainly made us cognizant of concerns that both city, 
the police, and the community have about the efficacy of a 
collaborative reform process. And we are listening to all those 
voices, and we are certainly considering the best as we move 
forward to help the Baltimore Police Department.
    It is important to note, I think, that collaborative reform 
has been a very successful tool throughout the country. We not 
only provide technical assistance and training to police 
departments around the country, but we connect them with other 
police departments who have themselves either been through the 
process or who themselves have very positive law enforcement 
practices. So we try and make it a peer-to-peer relationship in 
terms of work and training as well. It is a tool, very, very 
important tool. And as you will note, our budget does request 
an increase of about $20 million to support these important 
reforms.
    Senator Coons. Thank you, Madam Attorney General. I will 
submit a question for the record about forensic hair analysis. 
I was very concerned to see reports that FBI forensic experts 
may have overstated the strength of evidence, and I look 
forward to hearing what DOJ will be doing to provide meaningful 
relief to those convicted on the strength of misstated or 
inaccurate testimony.
    Attorney General Lynch. Thank you, sir. That is, in fact, 
an ongoing process, and we are very committed to working on 
that issue.
    Senator Coons. Thank you. Thank you, Mr. Chairman.
    Senator Shelby. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman. I apologize for 
running back and forth to you and our Attorney General.
    There are two things that are really important to Arkansas, 
the sense of combatting violent crime and the other things that 
we are dealing with, but also reauthorizing the child nutrition 
programs. And so, we have a subcommittee going on in that 
regard, too, which both of those things go together, you know. 
If you have hungry kids, then, again, it all--it all flows 
together.
    In the Smart Crime Initiative, I know that you have talked 
a lot about that and how important it is, and that in your 
request you state the initiative will spend $247 million to 
focus resources on reducing disparate impacts of the criminal 
justice system on vulnerable communities. Certainly that is 
important to Arkansas. But my understanding that I am hearing 
from attorneys general throughout the country that the reality 
is that there seems to be a directive coming down that 
terrorism and cybercrime, it is kind of the number one--
terrorism and cybercrime are the number one things that they 
are to devote their resources to. Can you talk a little bit 
about that? I know that is so important, and yet, you know, we 
have so many communities now that are experiencing violent 
crime and that it is increasing.
    Attorney General Lynch. Senator, thank you for the 
opportunity to address that issue. Obviously national security 
and cybercrime are important areas, as I have noted. They 
represent not only ongoing threats to public safety and to 
American citizens, but new and emerging threats. And so, our 
budget does ask for funding for that.

                             VIOLENT CRIME

    With respect to violent crime, however, I will reiterate 
the Department's commitment and my own commitment to that issue 
has not wavered. One of the things I think that is very 
important as a former U.S. attorney myself has been to 
recognize that every prosecutor knows best the crime problems 
of their area. What we try and do in the Department as I look 
at policies and interact with not just people here in 
Washington, but also in the field, is to make sure that we 
maintain the flexibility that allows U.S. attorneys working in 
conjunction with their State and local counterparts to identify 
the crime problems in their area and focus their resources on 
them. For example, my former office, the Eastern District of 
New York, has both a strong national security practice and a 
large violent crime program. Every office is not going to be 
similarly situated, so it is my goal to give my prosecutors the 
flexibility that they need to deploy their resources to best 
address the crime problems at hand.
    With respect to violent crime, the Department's anti-
violent strategies for several years have been focused on three 
main issues. Law enforcement, effective, vigorous, strong, is 
the core of that and the first part of that. But we are also 
attempting to look at prevention as well as reentry programs, 
and it has been very gratifying to see members of this body 
also address those issues at the statutory level as well.
    As you mentioned, with respect to the food services 
program, not a DOJ program, but one that certainly impacts the 
crime rate of an area because it impacts the poverty rate of an 
area, and the health of the children, and the opportunities 
that they have, so it is interdisciplinary. It is holistic, and 
I can assure you that there is not an over emphasis on one type 
of priority over others. If a U.S. attorney feels that the 
largest problem in their area is one of violent crime, we have 
a number of ways in which we deal with that. We will 
concentrate resources for them. We will provide assistance from 
other offices and main Justice for them. I myself have in the 
past detailed attorneys from my office to others to help out on 
cases, capital cases and the like. And so, you will find a 
very, very strong commitment to violent crime prevention and 
enforcement within the Department.

                                 HEROIN

    Senator Boozman. Thank you. Another huge issue going on 
throughout the country, not only in Arkansas, is opiates and 
heroin, and there are reports of doubling, tripling, things in 
that nature. Can you talk a little bit about addressing that 
problem? And then the other thing that I think is so important 
are the drug courts, and I think, for the first time, you have 
actually something in your budget for that.
    Attorney General Lynch. Yes.
    Senator Boozman. Are you an advocate or lukewarm or 
whatever? I really feel like that is--if there is a solution, 
that that is one of the key components to it.
    Attorney General Lynch. One of the key components certainly 
in the reduction of over incarceration as well as crime 
prevention have been drug courts. At the Federal level, not 
only are we focused on drug courts, we are focused on expanding 
our network of veterans drug courts because what we have seen 
also is that our veterans are returning with a number of 
problems for which the criminal justice system may not be the 
best method to treat them, for lack of a better phrase. And so, 
we are trying to expand opportunities to provide treatment as 
well as crime prevention for our veterans, as well as other 
low-level drug offenders.
    They have been tremendously successful. My former district, 
the Eastern District of New York, has a very strong pre-trial 
diversion program as well as a pre-trial opportunity program. 
We try and pair those with reentry programs also, so I think 
that that is a very, very important tool.
    I would add, however, that it really has been the States 
who have been showing us by example how effective drug courts 
can be in reducing crime, reducing recidivism. And the real 
goal is to make productive members of society out of those 
individuals whom we otherwise might have incarcerated for way 
too long.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Shelby. Thank you. Senator Mikulski.

                           PRISON POPULATION

    Senator Mikulski. Mr. Chairman, I know the House is late. I 
just have a few comments for ongoing efforts. First of all, I 
want to associate myself with the remarks of Senator Leahy, the 
gentleman from Vermont, about the need for reviewing sentencing 
reform. But the prison population, you know, your 
appropriations request for prisons is $7 billion. It is a 
significant amount of money because it constitutes almost one-
third of your appropriations.
    I would hope because there is bipartisan effort in this 
area in terms of looking at what we need to do to safely reduce 
the prison population. We have an excellent facility in 
Maryland in Cumberland, but our concerns would be the public--
safety for the public. Second and parallel, safety for the 
correction officers because you have got significant challenges 
in the prisons with overcrowding, and I worry about their 
safety.
    And then third, what are the issues where prisoners who are 
either really old or really sick? In other words, how can we 
begin to do an evaluation of who is in prison and should they 
be in prison? And, Madam Attorney General, I would hope as you 
begin your term here that you look also at those of a 
significant age or significantly ill where they would pose no 
threat to the general public. So let us have an ongoing 
conversation about it, and we look forward to your 
recommendations.

                                 HEROIN

    Heroin. It has come up just about from all of us, both side 
of the aisle. My Governor, a Republican Governor, a 90 percent 
congressional--Democratic congressional delegation. We are Team 
Maryland and wanting to deal with this, so we ask that your 
task force, which I initiated when I was chair with the support 
of Senator Shelby, is that it not only be internal to the 
Justice Department, but it be across the board involving the 
Department of Education, the Department of Human Services, the 
Department of Homeland Security. Is that the nature of the task 
force, or is it internal to the Justice Department?
    Attorney General Lynch. Senator, the task force had its 
first meeting last week, and I have not been fully briefed on 
that, but I will confirm the level of participation to you. 
Even if it is, however, focused on the Department of Justice, 
that does not preclude us from, as you noted, reaching across 
the street to those agencies and pulling them into the debate.
    Senator Mikulski. We think this is a big issue. It is a big 
issue in our State. The third point that I want to make is 
juvenile justice. There are several grant programs here in the 
area of juvenile justice. I would hope in the days ahead we 
could work with your Department on what you feel would have, as 
we work with our mayor and our community-based groups, what 
would be the effective juvenile justice programs that we could 
either bring additional resources in or appeal for or apply for 
these grants.
    I know speaking for the delegation and speaking for the 
leadership of our city, not only government, but our private 
sector as well as our community-based, faith-based leaders, we 
see this as a situation in which there could be an opportunity 
to really do something very significant in terms of our young 
people so that for those that are on track, we help them stay 
there. For those who need to get back on track, help them get 
there. And for those who really constitute significant risk to 
our community, we also do the right intervention. So we look 
forward to ongoing conversation. You are always welcome back in 
our hometown, but we also appreciate the availability, and the 
accessibility, and the professionalism of your staff.
    Attorney General Lynch. Thank you, ma'am.
    Senator Shelby. Thank you. Senator Collins.

                              DRUG COURTS

    Senator Collins. Thank you very much, Mr. Chairman. I want 
to associate myself with the remarks of the Senator from 
Arkansas about the value of drug courts and the special 
veterans courts. I have seen firsthand in Maine the difference 
that these courts can make in helping people straighten out 
their lives, avoid imprisonment, and really change the 
direction of their lives. I know that does not happen in every 
case, but I have got to believe that these are cost effective.
    And that is why I am disappointed that the administration's 
budget cuts $5 million from the drug courts program compared to 
last year when it was funded at about $41 million, and also 
cuts a million dollars from the veteran treatment courts. I 
hope our subcommittee will take a look at that, but I wonder if 
the Department has done any sort of cost benefit analysis 
because this is a case where I think we are being penny wise 
and pound foolish.
    Attorney General Lynch. Ma'am, I am not aware of any cost 
benefit analysis to that, but I will see. I will ask if that 
was done, and so I do not know the basis for that particular 
allocation of funding there, but I certainly share your 
commitment to the efficacy of drug courts and the veterans 
treatment courts. And like you, I have seen them literally 
change lives.
    Senator Collins. Well, I have seen it firsthand because I 
actually several years ago hired someone who had gone through 
the drug court program successfully. I will admit that I was 
somewhat apprehensive, but she turned out to be a wonderful 
employee, and I wanted to give her a chance. And but for drug 
court, her life would have gone in a very different direction.
    I have also spoken at a graduation ceremony for a drug 
court in Portland, and it was really inspiring to see largely 
younger people being reunited with their significant others or 
spouses and children, and know that they really were committed 
to turning their lives around. I have also heard of the cases 
that were not successful, but that is the beauty of the drug 
court. And I just think this is something that deserves our 
support.
    Attorney General Lynch. I agree. Thank you, ma'am.

                  REGIONAL INFORMATION SHARING SYSTEM

    Senator Collins. Let me just end with one other very 
successful program in my State that also unfortunately is cut 
quite severely in the administration's budget. And I realize 
you have not been on the job very long and were not involved in 
formulating this budget, so I am not certain whether you are 
familiar with this program. But it is called the Regional 
Information Sharing System (RISS). And I hear repeatedly from 
police officers, detectives, sheriffs, law enforcement at all 
levels in Maine, State, local, county, about how essential the 
RISS Program is in their efforts to fight violent crime, drug 
activity, human trafficking, and a host of other criminal 
enterprises.
    I want to give you a specific example. A detective in 
Franklin County, a rural part of our State, told me recently 
about a fascinating case involving counterfeit silver dollars 
from China. He used the RISS databases to discover that the 
suspect was committing this crime throughout the State of 
Maine. He was also able to determine whether the same crime was 
occurring in other States. What was at first just a one 
incident case became a statewide investigation with the help of 
the RISS network and tools, which are especially vital in a 
rural State like Maine.
    And that is why I am disappointed that the President's 
budget has slashed funding for this program. It is such an 
important tool for rural law enforcement to use. So I hope 
looking forward that you will take a look at programs that 
encourage that kind of collaboration at all levels of 
government, and allow a local sheriff who has arrested someone, 
to find out that this person has been committing crimes not 
only throughout his or her State, but in other States as well, 
and thus build a stronger case.
    Attorney General Lynch. Yes, ma'am. I share your view that 
that system is particularly efficacious. My understanding of 
that is that the request in the budget this year mirrors the 
request last year, which was increased by $5 million, so that 
it was not viewed as cutting that program, but maintaining it 
because we do feel it is so important.
    Senator Collins. Well, it is my understanding that we 
plussed up the program in the Appropriations Committee because 
it was so successful, has bipartisan support, but then the 
administration in its budget request went back to the previous 
level. I may be mistaken about that, and I would certainly 
welcome any additional information.
    Attorney General Lynch. We will provide you additional 
information on that issue.
    [The information follows:]

    The fiscal year 2016 President's budget request includes $25 
million for the Regional Information Sharing System (RISS), which 
matches the fiscal year 2015 request.

    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Senator Shelby. Thank you, Senator Collins. Attorney 
General Lynch, thank you for appearing here today and being 
patient with all of us and our questions. We look forward to 
working with you to make sure that the Justice Department is 
properly funded.

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are no further questions here this afternoon, 
Senators may submit additional questions for the subcommittee's 
official hearing record. And we request that the Department of 
Justice's responses to those questions come back within 30 
days, Madam Attorney General.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted to Hon. Loretta E. Lynch
           Questions Submitted by Senator Barbara A. Mikulski
               stopping human trafficking and pedophiles
    Question. What efforts is the Justice Department taking to stop 
human and sex trafficking in the U.S.? What additional resources are 
needed by Justice agencies to put traffickers out of business?
    Answer. The Department aggressively prosecutes human trafficking 
cases. The Department has worked with its community and law enforcement 
partners to increase reporting and identification and to provide 
services to stabilize and support victims, in order to both facilitate 
victims' recovery and prosecute the offenders. Some cases are 
prosecuted federally while others are referred to State or local 
authorities for prosecution. In others, the case might result in the 
defendant being convicted of a criminal offense other than trafficking. 
The Department also collaborates closely with our interagency partners 
on innovative anti-trafficking initiatives, including the Anti-
Trafficking Coordination Team (ACTeam) Initiative and the U.S.-Mexico 
Bilateral Human Trafficking Enforcement Initiative. In addition, the 
FBI leads or participates in 51 Human Trafficking Task Forces and 65 
Human Trafficking Working Groups across the country.
    The Department also continues to respond to dynamic threats 
involving the commercial sexual exploitation of children, such as gang-
related child sex trafficking and the use of Web sites to facilitate 
prostitution. The FBI's Violent Crimes Against Children Section (VCACS) 
leads 71 Child Exploitation Task Forces across the country and partners 
with 400 local, State, and Federal agencies in targeting those who 
victimize children through commercial sex trafficking. The Department, 
through the FBI, Civil Rights Division, Criminal Division, Office of 
Justice Programs, and other components, has also provided training on 
all forms of human trafficking to investigators, prosecutors, judges, 
Federal employees, non-government organizations, and others throughout 
the United States and in dozens of countries abroad.
    In sum, the Department's trafficking programs continue to grow in 
scope, complexity, and impact. The $2.8 million enhancement in the 
fiscal year 2016 budget request for the Civil Rights Division would 
allow the Department to further build on this momentum.
    Question. What kind of connections are agencies like the FBI seeing 
with gangs and human trafficking and sex trafficking?
    Answer. Gang involvement in human trafficking and commercial sex 
operations is another area in which the FBI can work to disrupt and 
dismantle criminal organizations that use the exploitation of adults 
and juveniles for profit. Historically, gangs had limited involvement 
in human trafficking, but that level of involvement has increased due 
to the potential for profit from these crimes and the perception of a 
lower risk of detection and punishment.
    The FBI works with other Federal, State, local, and tribal law 
enforcement agencies and victim-based advocacy groups to target human 
trafficking activity, including gangs that perpetrate the activity, and 
to rescue the victims of these crimes. The National Gang Intelligence 
Center and multiple law enforcement agency reports indicate that some 
gangs derive their income through human trafficking of adults and 
juveniles. Some gangs recruit, as well as exploit, affiliated female 
gang members for sex trafficking. Prostitution and human trafficking 
provide a significant source of income for a growing number of gangs. 
Street gangs and Outlaw Motorcycle Gangs have expanded their criminal 
scope into commercial sex. Gangs involved in prostitution and human 
trafficking employ control techniques, including: the use of drugs, 
violence, sexual assault, rape, branding or tattooing, and manipulation 
of victims to commit other crimes in furtherance of the gang. Similar 
to traditional pimp-and-prostitute relationships, gang members provide 
security, transport victims to dates, and schedule appointments.
                           combatting heroin
    Question. In the fiscal year 2015 omnibus, we requested that the 
Department of Justice convene a task force to come up with a 
comprehensive Federal solution covering law enforcement, healthcare and 
treatment, and prevention efforts. I was disappointed to hear that the 
task force had not even convened at our law enforcement hearing in 
March. What can you tell us about the status of the task force? Who is 
participating?
    Answer. DOJ continues to increase support for drug abuse education, 
prevention, and treatment through partnerships with doctors, educators, 
community leaders, and police officials. As directed by Congress, the 
Department has joined with the Office of National Drug Control Policy 
to convene an interagency Heroin Task Force to confront this challenge. 
This Task Force is co-chaired by the U.S. Attorney for the Western 
District of Pennsylvania and the Office of National Drug Control Policy 
Deputy Director for State, Local and Tribal Affairs. The Department, 
Drug Enforcement Administration (DEA), and more than 28 Federal 
agencies and their components are actively participating on the Task 
Force. As noted in more detail below, other participants include 
medical community, enforcement, public health, and education experts. 
The Task Force is taking an evidence-based approach to reducing the 
public health and safety consequences caused by heroin and prescription 
opioids. We expect the Task Force to submit its comprehensive Strategic 
Plan to the President and Congress by the end of 2015.
    The Task Force has convened three times as of July 28, 2015. Deputy 
Attorney General Sally Yates and the Director of the Office of National 
Drug Control Policy (ONDCP), Michael Botticelli, opened the first 
meeting. DEA Administrator Chuck Rosenberg and Centers for Disease 
Control and Prevention Director Thomas Frieden opened the second 
meeting. Four committees have been established to develop solutions to 
the heroin crisis. The committees include Prevention and Education, Law 
Enforcement, Treatment and Recovery, and Coordinated Community 
Response. The committees have met on multiple occasions to receive 
evidence, evaluate the problem, and begin developing recommendations.
    Participating agencies include: the Bureau of Justice Assistance, 
Bureau of Justice Statistics, Centers for Disease Control and 
Prevention, Substance Abuse Mental Health Services Administration, 
Centers for Medicare and Medicaid Services, Criminal Division, 
Community Oriented Policing Services, Drug Enforcement Administration, 
Department of Homeland Security, Department of Energy, Federal Bureau 
of Investigation, Food and Drug Administration, Federal Bureau of 
Prisons, Health Resources and Services Administration, Office of HIV/
AIDS and Infectious Disease, Homeland Security Investigations, Justice 
Management Division, National Institute of Justice, National Institute 
of Drug Abuse, National Security Council, Office of the Deputy Attorney 
General, Office of National AIDS Policy, Office of National Drug 
Control Policy, Office of Urban Affairs, Justice and Opportunity, 
Organized Crime Drug Enforcement Task Force, Public Housing Support 
Services, and the United States Attorney's Office.
    Question. Will the subcommittee receive a complete and 
comprehensive final report by December 2015?
    Answer. The Task Force expects to complete and submit its full 
report to the subcommittee by the end of 2015.
    Question. This subcommittee added funding of $7 million in the COPS 
Office for State and local enforcement combatting heroin in communities 
across the United States. Why was this program eliminated in the 
Justice Department's fiscal year 2016 budget request?
    Answer. The Department of Justice and the administration have other 
resources available through the Drug Enforcement Administration and 
Office of National Drug Control Policy and, based on other budgetary 
needs, did not request funding for the heroin program in fiscal year 
2016. Additionally, the fiscal year 2015 funding provided will support 
the task forces for 2 years.
                              body cameras
    Question. Fiscal year 2016 budget request includes $30 million for 
body cameras. The fiscal year 2015 budget had $20 million for body 
cameras as a Byrne-JAG program. How many cameras are expected to be 
purchased with each of these of amounts?
    Answer. The Bureau of Justice Assistance plans to deploy over 
11,000 cameras in fiscal year 2015 and over 15,000 cameras in fiscal 
year 2016. This funding also creates a national service provider to 
offer training and technical support to all agencies, thereby ensuring 
federally and non-federally funded programs have the greatest chance at 
success.
    Question. What is the Department's cost estimate to put a body 
camera on every police officer? What costs come with data storage?
    Answer. The Bureau of Justice Assistance has worked to create a 
per-camera, 2-year program cost of approximately $3,000. This funding 
metric is used in the Body-Worn Camera Pilot Implementation Program 
where the award maximum is $1,500 per camera to be deployed and is to 
be matched with State and local funds. A 100-camera program maximum 
award is $150,000 for a total 2-year program cost of $300,000.
    Storage costs vary based on tangential considerations such as in-
house versus cloud, security requirements, bandwidth needs, retention 
guidelines, scalability and redundancy. Current market trends for 
hosted solutions range from $20 to $100 per month, per camera. Similar 
scalable cost could be associated to in-house managed storage solutions 
though the quality of tangential considerations will also vary.
    Ongoing annual costs, primarily storage, are estimated at $150 
million per year, an estimate that could be reduced with rapid 
development of storage technologies and economies of scale.
    The Bureau of Justice Statistics estimates that there are 477,000 
sworn officers in America and that 65 percent of officers (310,000) 
perform a patrol function. This can vary between police agencies and 
sheriff's offices where the role of corrections is more prevalent. 
Given these considerations, if every patrol officer needed to be issued 
a new body camera, OJP estimates the total Federal cost to be $465 
million, to be matched by State and local jurisdictions for a total 2 
year program cost of $930 million. This is inclusive of policy 
development, training, implementation and estimated storage costs. 
Ongoing annual costs (year 3 and out) are estimated at $150 million per 
year, an estimate that could be reduced with rapid development of 
storage technologies and economies of scale.
    Question. What are the privacy implications of body cameras? What 
is the Justice Department doing to study and publish best practices on 
body camera usage?
    Answer. The Bureau of Justice Assistance (BJA) fiscal year 2015 
body-worn camera solicitation requires agencies to perform an extensive 
review of all identified aspects of the body-worn camera program, 
including privacy considerations. BJA is also funding a national 
training and technical assistance provider to support all law 
enforcement agencies in policy development and implementation. This 
national provider will work with Department components to further 
develop policy, best practices, and research.
    BJA has also developed the Web-based National Body-Worn Camera 
Toolkit, which represents a broad collection of the topics pertinent to 
developing and implementing body-worn camera programs, including 
privacy issues. As a clearinghouse of reference material, policies, 
lessons learned and other resources, this website received over 30,000 
visits in its first month alone. Examples of the resources that are 
already available through the toolkit are the Office of Community 
Oriented Policing Services 2014 Implementation Guide, the National 
Institute of Justice (NIJ)-funded Primer on Body-Worn Cameras for Law 
Enforcement and the Office of Justice Programs Diagnostic Center review 
of research on body-worn cameras. The Toolkit site also offers 
multimedia testimony from active practitioners to provide valuable 
insights into the efforts required to establish successful body-worn 
camera programs.
    NIJ is providing funding for two research projects currently being 
conducted to examine the impact of body-worn cameras on policing.
  --Researchers in the Las Vegas Metropolitan Police Department are 
        currently examining the use of body-worn cameras by 
        approximately 400 police officers in Las Vegas, Nevada. Outcome 
        measures will include officer compliance with department 
        policies, changes in police-citizen behaviors, and decisions by 
        officers to use force in police-citizen encounters.
  --Researchers are also evaluating body-worn cameras in the Los 
        Angeles Police Department to examine their impact on privacy 
        issues, police legitimacy and changes in police services, and 
        reductions in crime.
    In fiscal year 2015, BJA transferred $1 million to BJS so it could 
begin collecting data and generating statistics on this issue for a two 
part multi-year project. Of those funds, $500,000 was used to fund a 
2015 survey. The first body-worn camera survey will be conducted this 
summer and fall (2015), in which BJS will survey local law enforcement 
agencies about their use of body worn cameras. The survey will address 
the following topics:
  --When an agency obtained body-worn cameras;
  --An estimate of the number of body-worn cameras in use;
  --The level of deployment of body-worn cameras;
  --Reasons for acquiring body-worn cameras (for those agencies that 
        have them);
  --Reasons for not acquiring them (for those agencies that did not 
        acquire them);
  --Collaboration with other entities in relation to body-worn cameras; 
        and
  --Formal body-worn cameras policies related to:
    --General operations (when to turn them on/off, recording 
            effectively, informing citizens);
    --Transfer, storage, disposal of body-worn cameras video;
    --Frequency of upload and off-loading video;
    --Responding to external requests for video footage;
    --Retention and disposal of body-worn cameras video; and
    --Restrictions on internal/external access to body-worn cameras 
            video.
    BJS expects to have results from this survey by the end of 2015/
early 2016.
    The remaining $500,000 will support a second survey to be conducted 
in 2017. By repeating the survey 2 years later, BJS will be able to 
assess change in use and policies.
    Body-worn cameras are intended to produce benefits to law 
enforcement and the residents of the places they serve. Among the 
potential benefits to law enforcement are improvements in evidence that 
can be used to clear crimes and the lessening of conflict that could 
result in officer or citizen injury or death. To study whether there is 
a relationship between the adoption of body-worn cameras and clearance 
rates or assaults (on officers or by officers), BJS will link its Law 
Enforcement, Management & Administrative Statistics data with the FBI's 
Uniform Crime Reports data on clearances by arrests, and the FBI's Law 
Enforcement Officers Killed or Assaulted and data from its body-worn 
cameras surveys to study the relationship between body-worn cameras and 
these outcomes. As additional data on body-worn cameras become 
available in future years, BJS would replicate this analysis with new 
data.
                          crime data reporting
    Question. How many States report National Incident-Based Reporting 
System (NIBRS) data to the FBI?
    Answer. The FBI has certified 33 State Uniform Crime Reporting 
(UCR) Programs as NIBRS-certified. These 33 States are divided into two 
groups:
  --In the first group of 16 States, labeled ``complete reporting 
        States,'' all the State's law enforcement agencies that have an 
        associated population report NIBRS data to the State's NIBRS-
        certified UCR program. Actual reporting rates by these agencies 
        vary over time.
  --In the second group of 17 States, the State UCR program is 
        certified to report data to NIBRS, but not all of the State's 
        local law enforcement agencies submit incident-based data.
    The remaining 17 States and the District of Columbia do not have a 
NIBRS-certified component to their State-level UCR program. Fifteen of 
the 17 States report only to the FBI's Summary Reporting System (SRS), 
and two of the 17 have no State-level UCR program at all (Indiana and 
Mississippi). https://www.fbi.gov/about-us/cjis/ucr/nibrs/2013/
resources/nibrs-participation-by-state.
    While currently more than 6,500 local law enforcement agencies 
participate in NIBRS, these agencies cover about 31 percent of the 
resident population in the United States.
    Question. What is the average annual IT operation and maintenance 
cost for States to submit Uniform Crime Report (UCR) data to the FBI? 
What is the estimated cost for a State to also submit NIBRS data to the 
FBI?
    Answer. BJS is not aware of any estimates for the costs for States 
to submit UCR data. The costs vary by State based on their collection 
and reporting levels as well as their population size. Each State also 
pays for the costs in different ways.
    While there are costs to the States, the majority of the costs 
associated with collecting, coding, analyzing, and submitting NIBRS 
data to UCR State programs fall to the local law enforcement agencies 
that collect and submit their crime data to the State.
    It is not necessary for each State to submit NIBRS data in order 
for BJS to generate nationally representative incident-based data. BJS 
and the FBI created the NCS-X program to recruit the scientifically 
determined sample of 400 additional law enforcement agencies into NIBRS 
which, combined with the currently participating NIBRS agencies' data, 
will produce nationally representative crime estimates. Currently more 
than 6,500 law enforcement agencies submit NIBRS data to the FBI, which 
is approximately 40 percent of the Nation's law enforcement agencies. 
When completed, nationally representative NIBRS data will increase our 
Nation's ability to monitor, respond to, and prevent crime by allowing 
NIBRS to produce timely, detailed, and accurate national measures of 
crime incidents.
    The costs for the States are small by comparison to the costs to 
the local law enforcement agencies. Below is a chart outlining the 
total estimated costs of $112 million for the NCS-X program:

----------------------------------------------------------------------------------------------------------------
            Project Component                      Total Cost                     Deliverable/Outcome
----------------------------------------------------------------------------------------------------------------
State UCR Program Support...............  $11.4 million..............  Establishing new NIBRS-certified
                                                                        reporting components in 17 States;
                                                                        expanding capacity for receiving and
                                                                        processing NIBRS data in 16 States.
                                                                        Costs for States may range from less
                                                                        than $100,000 to over $1 million
                                                                        depending on their needs.
Training support for local agencies.....  $11.0 million..............  Funding to support agency-specific
                                                                        training on data entry, coding, and
                                                                        quality assurance--cost per agency often
                                                                        dependent on volume of incidents
                                                                        handled, type of RMS data structure,
                                                                        point of entry for data, and agency-
                                                                        specific review processes.
Training on NIBRS.......................  $4.0 million...............  Funding to support the development of
                                                                        NIBRS training, for use by both local
                                                                        agencies and State UCR programs--this
                                                                        training would build on training already
                                                                        conducted by the FBI CJIS UCR staff, and
                                                                        would include a Web-based component.
Support to the 400 local law enforcement  $85.6 million..............  Conversion of the sample of 400 agencies
 agencies in the NCS-X sample.                                          to NIBRS reporting; generation of
                                                                        nationally representative estimates of
                                                                        crime based on the attributes of the
                                                                        offenses It is possible that some funds
                                                                        may be allocated for crime analysis
                                                                        training needs as well as for Web tool
                                                                        updates (e.g. with socio-economic data,
                                                                        NIBRS, and other data). Costs for law
                                                                        enforcement may also range from less
                                                                        than $100,000 to over $1 million
                                                                        depending on their needs.
----------------------------------------------------------------------------------------------------------------

    These costs were estimated based on information gathered from State 
UCR programs, from the 400 sampled agencies via a survey about 
reporting capacity conducted in 2014, and feedback from service 
providers who implement and support record management systems for local 
law enforcement agencies and State UCR programs.
    The amount of hardware or software needed to support a local agency 
in reporting incident-based data in the NIBRS format varies by agency 
and across States, depending on the incident-based data structure 
required by the State (if any), the volume of incidents handled by the 
local agency, the type of record management systems and other databases 
used by the agency, the point of entry for the data, and other agency-
specific factors.
    Question. What is the Justice Department doing to get more State 
and local law enforcement to report on data like officer related 
shootings?
    Answer. The Department of Justice's only current source of such 
data is the FBI's Supplementary Homicide Report (SHR), which:
  --captures only voluntary reports by law enforcement of the deaths 
        they deem to be ``justifiable homicides.''
  --does not capture arrest-related deaths attributed to suicide, 
        intoxication, accidents, or natural causes, or homicides that 
        were not deemed ``justifiable.''
  --does not capture additional details about the incident, such as 
        actions taken by both the decedent and law enforcement during 
        the event that caused the death.
  --reports data only annually with a 2-year lag.
  --is prone to significant error because many agencies do not 
        volunteer to participate.
    The FBI Uniform Crime Reporting (UCR) Program recently received 
approval from the Criminal Justice Information Services (CJIS) Advisory 
Policy Board (APB) to expand their current voluntary data collection to 
include fatal and nonfatal officer-involved shootings. The current 
collection of justifiable force by law enforcement is limited to 
homicide, so this would represent an opportunity to provide a more 
complete picture for the Nation. At present, the UCR Program is working 
with representatives from the law enforcement community--including 
major organizations such as the International Chiefs of Police, 
National Sheriffs' Association, Major City Chiefs Association, Major 
County Sheriffs' Association, and the Police Executive Research Forum--
to refine the definition and content of this collection.
    The work with law enforcement representatives continues to focus on 
opportunities to improve the amount of information available for 
officer-involved shootings, as well as increase participation in the 
existing data collection of justifiable homicide. This information is 
vital to both law enforcement in order to inform policies and training 
on use of force, and to the communities that they serve in order to 
increase transparency and demonstrate the principle of procedural 
justice.
    BJS is undertaking methodological research to improve the 
collection of data under its Arrest Related Deaths (ARD) Program, 
through which it aims to capture data on all deaths in the process of 
arrest and respond to the Deaths in Custody Reporting Act (Public Law 
113-242) request for such data.
    BJS collected data on deaths in the process of arrest under its ARD 
program beginning in 2003 but temporarily suspended data collection in 
2014 because BJS did not have the necessary resources to ensure the 
accuracy and reliability of the data.\1\ At that time, BJS evaluated 
the extent to which ARD and the FBI's Supplementary Homicide Report 
obtained data on all justifiable homicides and homicides by law 
enforcement officers. In March 2015, BJS reported that both the ARD and 
the FBI's Supplementary Homicide Report were undercounting arrest-
related deaths by half of the expected number. The BJS reports can be 
found at: http://www.bjs.gov/content/pub/pdf/ardpatr.pdf and http://
www.bjs.gov/content/pub/pdf/ardpdqp.pdf.
---------------------------------------------------------------------------
    \1\ BJS was using approximately $250,000 per year to operate the 
program during that time.
---------------------------------------------------------------------------
    BJS has been testing new methodologies to improve the collection of 
ARD data and will have results by early 2016. The methodologies involve 
a combination of ``open source'' (such as Web searches, news accounts, 
etc.) for cases of deaths to be investigated further and direct survey 
of law enforcement agencies, medical examiners offices, and other 
State-level offices that investigate officer related shootings, to 
obtain data to confirm the facts surrounding a death. The methodology 
also provides a basis for auditing the completeness of the records 
submitted to BJS by law enforcement. BJS has started collecting data, 
will evaluate the quality (coverage and accuracy) of the data it 
collects, and use the results of this methodological research to 
implement improvements to its ARD Program.
    These new methodologies will be used to implement an ongoing, 
continuous data collection that identifies and validates eligible cases 
of arrest-related deaths and minimizes the number of such deaths that 
are not reported to the program.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
                        guantanamo bay detainees
    Question. If Gitmo were closed, what is the administration's plan 
for dealing with detainees who fit in this category?
    Lead-in information from original document.--
          The administration has said that there are 37 detainees held 
        at Guantanamo Bay who are in preventive detention because they 
        are too dangerous to release, but who will not be tried in a 
        military tribunal or an Article III court. The President's plan 
        to close Guantanamo Bay is unlikely to succeed without a plan 
        to deal with these detainees.

    Answer. The closing of the Guantanamo Bay detention facility 
remains a top administration priority and a national security 
imperative. The facility's continued operation undermines our standing 
in the world, damages our relationship with key allies and partners, 
and emboldens violent extremists while at the same time draining 
hundreds of millions of dollars each year that could be better spent on 
other national security priorities. Accordingly, the administration is 
currently finalizing a draft plan to close the Guantanamo Bay facility, 
which will include addressing detainees who remain too dangerous to 
transfer or release but who will not be tried. Those detainees will 
remain eligible for review by the Periodic Review Board, which brings 
together representatives from the Department of Defense, Department of 
Homeland Security, Department of Justice, Department of State, Office 
of the Joint Chiefs of Staff, and Office of the Director of National 
Intelligence to examine whether, given current intelligence and other 
information, continued detention remains necessary to protect against a 
continuing significant threat to the security of the United States.
                     transfer of foreign detainees
    Question. If the administration's plan is to transfer foreign 
detainees in preventive detention to the United States, does the 
administration believe it has sufficient legal authority to 
indefinitely detain foreign nationals in the United States under the 
law of war without jeopardizing the lawfulness of their detention?
    Answer. Current statutory bars exist on the expenditure of funds 
for purposes of detaining Guantanamo detainees in the United States. In 
Hamdi v. Rumsfeld, however, the Supreme Court held that the 
Authorization for the Use of Military Force of 2001 authorizes the 
indefinite detention of enemy combatants in the United States, while 
active hostilities under the AUMF continue. As periodically reported to 
Congress consistently with the War Powers Resolution, the United States 
is engaged in active hostilities under the AUMF in various countries.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
                         cell phones in prison
    Question. In 2013, 2,916 contraband cell phones were recovered in 
Bureau of Prisons facilities, including 1,083 recoveries from secured 
facilities. What is the Department of Justice's (DOJ) strategy to 
achieve a total communications blackout in Federal prisons to stop 
incarcerated gang members from communicating with outside criminal 
organizations? What resources are necessary to achieve such a blackout, 
and what legal hurdles, if any, should Congress consider in addressing 
this issue?
    Answer. The financial resources necessary for DOJ to achieve such a 
total communications blackout are significant. As of May 2015, BOP 
conducted a cost estimate for implementing a cellphone detection 
solution at a ``representative BOP facility.'' While no two sites are 
exactly the same, there are three general location classifications for 
testing: an institution in a rural location, an institution in a light 
urban area, and finally, an institution in a metropolitan location. 
Each context has its own unique set of challenges and concerns. By 
grouping sites in this manner, and using Managed Access Systems (MAS) 
as the technology solution, BOP can provide a gross estimate of the 
required pre-deployment efforts to modify the facility infrastructure, 
deploy system electronics, and sustain the capability with a focus on 
efficacy, affordability, and maintainability. The current estimated 
cost to implement a viable cell phone detection technology in these 
three contexts ranges from $795,000 for a rural site to $3,080,000 for 
a metropolitan site.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Rural Sites Surveys and Deployments.....  $795,000-$1,795,000/Site
Light Urban Sites Surveys and             $1,050,000-$2,050,000/Site
 Deployments.
Metropolitan Sites Surveys and            $2,080,000-$3,080,000/Site
 Deployments.
------------------------------------------------------------------------

    The BOP emphasizes that any MAS solution should augment existing 
sound correctional procedures and physical security technologies 
already in operational daily use. There are 121 individual correctional 
institutions in the Bureau of Prisons; a rough order of magnitude 
estimate to deploy an enterprise-wide communications cellular device 
blackout using a managed access solution would be at least $118 million 
to $239 million or potentially more. It is important to note that it is 
premature to provide a definitive estimate for the required funding 
because an RFQ has not been completed and the technology continues to 
evolve and improve.
    The legal hurdles Congress should consider in addressing this issue 
would be ensuring that legislative barriers to the implementation of 
such technology do not exist. (For example, laws relating to cellphone 
monitoring and interception should exclude prison environments.)
                new technology to disrupt gang networks
    Question. Computer programs like Palantir have been successful in 
mapping terrorist networks in Afghanistan and human trafficking rings 
in the United States. How do you plan to direct the Department to 
incorporate new technology into its investigations to map, track and 
disrupt criminal gang networks in the United States?
    Answer. The Department of Justice utilizes a wide array of 
technologies and techniques to disrupt criminal and gang networks 
across the Nation, some of which cannot be disclosed in an open 
setting. One technology that the FBI's Criminal Investigative 
Division's Violent Crime and Gang Section (VCGS) and the Criminal 
Intelligence Section (CIS) actively utilize are geospatial platforms to 
map and plot the density of gang members, their affiliations and track 
violent crime statistics.
    Geospatial maps are further utilized to assist in interpreting 
cellular data and geospatially plotting the movements of perpetrators 
and victims of crime. New technologies are also being explored to 
assist our task forces in exploiting all avenues of criminal behavior, 
including social media, which is utilized by gangs for recruitment and 
communication purposes.
    Specific advances in technology have been made to enhance 
surveillance activities by rapidly acquiring GPS and pertinent 
telephonic information, pen register data, and directly feeding this 
data to operational field surveillance agents to track and disrupt gang 
activity. The FBI will continue to explore all avenues, including the 
acquisition of new technologies, to assist efforts to combat the gang 
threat.
                            combatting gangs
    Question. Numerous neighborhoods in Chicago, including the Kenwood 
and Pullman areas, have been economically stifled by the presence of 
gangs like the Gangster Disciples. How will you lead the DOJ effort to 
remove gangs of national significance from these communities?
    Answer. The Department is committed to rooting out criminal 
organizations, including gangs like the Gangster Disciples, from 
communities that have suffered at their hands, whether through 
violence, intimidation, addiction, or economic depression. United 
States Attorneys' Offices around the country work with the Criminal 
Division's Organized Crime & Gang Section (OCGS) prosecutors who bring 
specialized knowledge about both the targeted criminal enterprises and 
a toolbox of laws, tactics, and strategies to dismantle the most 
nefarious gangs in the United States. These prosecutors have brought 
sweeping RICO indictments and successful prosecutions against gangs 
across the country, including MS-13, Latin Kings, Imperial Gangsters, 
Aryan Brotherhood and others.
    The U.S. Attorney's Office (USAO) for the Northern District of 
Illinois is similarly experienced and committed to using all available 
tools and strategies to eradicate gang violence. The USAO recently 
created a Violent Crimes section, comprised of prosecutors dedicated to 
the sole mission of combatting violent crime in the District. The USAO 
is working closely with State and local prosecutors and law enforcement 
agencies, including the Cook County State's Attorney and Chicago Police 
Department, to ensure a coordinated approach to target gang violence, 
including through its Organized Crime and Drug Enforcement Task Force 
strike force. Recently, the USAO charged the patriarch of a Gangster 
Disciples faction and 34 other defendants who allegedly sold heroin and 
crack cocaine on Chicago's west side. The USAO has also brought a 
racketeering conspiracy prosecution that alleges murders, attempted 
murders, solicitation to commit murder, robberies and the operation of 
a drug trafficking organization against nine members of the Hobos 
Street Gang, a tight-knit, violent crew who banded together from 
factions of the Gangster Disciples and Black Disciples street gangs. 
Moreover, the USAO has obtained strong sentences against high ranking 
gang leaders in Chicago including: in April 2015, against a high-
ranking Black Disciples leader sentenced to 15 years in prison; in 
September 2014, against a high-ranking Traveling Vice Lords leader 
sentenced to 35 years in prison; and in 2012, against the highest-
ranking leader nationwide of the Latin Kings sentenced to 60 years in 
prison, the statutory maximum, after being convicted at trial under 
RICO and other charges. The Department will continue its efforts to 
stem violence in Chicago and elsewhere through such vigorous 
prosecutions using all the tools at our disposal.
    The Violence Reduction Network (VRN) has been working with the City 
of Chicago extensively since the VRN was launched in September 2014 by 
former Attorney General Eric Holder. The VRN is a partnership across 
the Department of Justice that seeks to leverage programmatic and 
Federal law enforcement training and technical assistance resources to 
support cities with sustained high rates of violence.
    Although the City of Chicago has not requested assistance with gang 
intervention or prevention, we are available to assist. The VRN can 
support advanced gang training for the Chicago Police Department. We 
can work with the Federal Bureau of Investigation (FBI) National Gang 
Intelligence Center (NGIC) to provide gang training on investigative 
and prosecution strategies to include creation of a regional gang 
threat assessment that would describe the gangs that are active in 
Chicago, their behaviors, size, organization structure, etc. FBI is a 
critical partner in VRN efforts to enhance public safety in our sites.
                  monitoring social media for threats
    Question. Recently, social media accounts claiming to be associated 
with the terror group ISIS posted threats against targeted locations in 
Chicago, including the Old Republic Building on North Michigan Avenue. 
Will you direct the Federal Bureau of Investigation to hire more 
Arabic-speaking investigators to effectively monitor social media for 
threats against U.S. cities?
    Answer. In an effort to address the Arabic language needs of the 
FBI, the Bureau's Foreign Language Program pursues a number of 
initiatives to recruit from ethnic Arabic and heritage speaker 
communities. The FBI continues to provide training for special agents 
in Arabic, and has recently renewed an incentive program for foreign 
language use to develop in-house capacity.
    Additional information is classified. The Department will work with 
the subcommittee to ensure that a response is provided in an 
appropriate manner.
               shutting down human trafficking web sites
    Question. Online classified Web sites like backpage.com continue to 
facilitate prostitution and human trafficking. How will the Department 
of Justice shut down these Web sites and prosecute individuals that 
aide and abet sex traffickers?
    Answer. The Department shares Congress' grave concerns about the 
role of Web sites in the commercial sexual exploitation of minors. The 
Department has vigorously pursued sex traffickers, including those who 
use the Internet to illegally exploit minors, and thoroughly 
investigates Web sites that may be aiding and abetting child sex 
trafficking.
    As a general matter, any prosecution of an online classified Web 
site operator specifically for advertising child sex trafficking would 
require the Government to prove beyond a reasonable doubt that the Web 
site operators actually knew that a particular advertisement that they 
accepted offered sex with a child. Sufficient evidence of a crime 
against children is not indicated, however, where an advertisement on 
its face is for a legal service offered by someone who appears to be an 
adult.
    Where evidence of criminality exists, the Department will 
aggressively investigate and prosecute using all appropriate statutes. 
The recent prosecution of the owner and operator of myRedBook.com and 
sfRedBook.com exemplifies the Department's determination in this 
regard. In June 2014, the FBI seized the Web sites. Eric Omuro, the 
owner of the sites, and one of his employees were arrested. Both 
pleaded guilty to using a facility of interstate commerce with the 
intent to facilitate prostitution. On May 21, 2015, Omuro was sentenced 
to 13 months in prison. As part of his plea agreement, Omuro agreed to 
forfeit more than $1.28 million in cash and property as well as the 
sfRedBook.com and myRedBook.com domain names.
    While the myRedbook.com Web site purported to provide legal 
services such as ``Escort, Massage, and Strip Club Reviews,'' the 
evidence showed that it was used to host advertisements for 
prostitutes, complete with explicit photos, menus of sexual services, 
hourly and nightly rates, and customer reviews of sex workers' 
services. Evidence demonstrated that the Web site defined acronyms for 
sex acts in graphic detail in a ``Terms and Acronyms'' section and 
provided a section to review and rate prostitution services, offering 
special access to the reviews for a fee. If a customer purchased a 
membership with myRedbook, they received benefits such as early and 
enhanced access to sex worker reviews, enhanced sex worker review 
search options, and access to additional VIP forums, among other 
things. According to an affidavit submitted in connection with the 
sentencing hearing, the FBI identified more than 50 juveniles who were 
also advertised on myRedBook for the purpose of prostitution. 
Furthermore, despite being contacted by the National Center for Missing 
and Exploited Children (NCMEC) in 2010, myRedBook never registered to 
participate in the center's CyberTipline, which receives leads and tips 
regarding suspected crimes of sexual exploitation committed against 
children, and never communicated with NCMEC.
    The prosecution of the operators of myRedbook.com and the 
shuttering of the Web site demonstrate that the Department will pursue 
viable prosecutions using existing legal tools, when the elements of 
the statutes have been met and can be proven in court beyond a 
reasonable doubt.
        using innovative technology to combat human trafficking
    Question. How is the DOJ incorporating the use of new innovative 
technologies in its strategy to combat human trafficking? How will the 
Department partner with local law enforcement to deploy these types of 
technologies and ensure their use?
    Lead-in information from original document.--
          It is critical that local law enforcement agencies be 
        equipped with the latest innovative technologies to combat 
        trafficking and rescue victims. The Web-based software called 
        Memex, which was developed by the Defense Advanced Research 
        Projects Agency (DARPA) and recently used in New York City, is 
        one such example.

    Answer. Through the Bureau of Justice Assistance (BJA)-funded Human 
Trafficking Advanced Investigators training, human trafficking 
investigators are exposed to a variety of technological tools and 
resources that can be used in their efforts to combat human 
trafficking. Human Trafficking Law Enforcement Task Force grantees are 
permitted to purchase investigative tools and technology with grant 
funds and use grant funds to attend trainings on the use of such 
investigative tools. BJA will ensure that the new Human Trafficking Law 
Enforcement Training and Technical Assistance provider (being funded 
with fiscal year 2015 funds) promotes the use of Web-based software for 
human trafficking investigative purposes in the technical assistance 
provided to task forces.
    The Office of Juvenile Justice and Delinquency Prevention (OJJDP) 
funds the Internet Crimes Against Children (ICAC) Task Force Program. 
The 61 ICAC task forces focus on all forms of technology-facilitated 
crimes against children, including child sex trafficking. Through its 
regularly scheduled meetings with the ICAC task forces (generally three 
times a year), OJJDP demonstrates promising investigative tools that 
each task force can deploy within their own jurisdictions. For example, 
last fall OJJDP brought in Emily Kennedy (Carnegie Mellon University) 
to provide a demonstration on her tool ``Traffic Jam'' (funded in part 
by DARPA) which mines the deep Web and helps law enforcement identify 
offenders and rescue victims. OJJDP will continue to ensure that its 
ICAC task forces are exposed to promising tools and resources that can 
assist them in their efforts to protect children from online 
exploitation.
    The FBI leads 71 Child Exploitation Task Forces and is associated 
with over 100 human trafficking task forces and working groups. These 
task forces and working groups, and vetted technologies, are available 
to address various forms of human trafficking. In an effort to support 
law enforcement entities throughout the country, the FBI is currently 
engaged in a process to enhance the Innocence Lost Database (ILD) to 
automate the analysis of various governmental, non-governmental, and 
open source data sets in an effort to identify enterprises responsible 
for the commercial sex trafficking of children. Additionally, the ILD 
project will incorporate biometric capabilities to more efficiently and 
effectively identify and recover child victims. In regards to the Memex 
Project, DARPA has sponsored this initiative in an effort to develop 
capabilities which identify online indicators of human trafficking. 
Understanding that technical needs vary from agency to agency, DARPA 
has designed the Memex Project so that agencies can utilize the 
independent technical solutions developed by the Memex Project team. 
The FBI collaborates with the Memex Project team to share best 
practices associated with this sophisticated technical development.
                                 ______
                                 
              Questions Submitted by Senator John Boozman
                             citizen safety
    Question. Please explain how you plan to provide our citizens with 
adequate security when the Department is seemingly focused on 
implementing our President's unconstitutional immigration directive?
    Lead-in information from original document.--
          Your prepared remarks state that your top two priorities are 
        ``the safety of our citizens and our national security.'' In 
        looking at the overall budget request, it's obvious that the 
        Department's priority is immigration, with a 40 percent 
        increase from fiscal year 2015. In comparison, your lowest 
        request for fiscal year 2016, is a 1 percent increase for law 
        enforcement components such as investigating violent crime, 
        trafficking of firearms, international drug trafficking 
        organizations, piracy of intellectual property, and healthcare 
        fraud.

    Answer. While the fiscal year 2016 president's budget does include 
a 38.8 percent increase for the Executive Office for Immigration Review 
(EOIR), this is predominantly to address the current caseload pending 
before the immigration courts, which ended fiscal year 2015 with just 
over 456,500 pending cases. These requested additional resources for 
EOIR are not tied to the President's immigration executive action from 
November 2014. The additional funding requested for EOIR in fiscal year 
2016 is critical to moving the current caseload through the immigration 
courts in a timely and efficient manner.
    Furthermore, the Department's 2016 request for immigration-related 
activities is 8.6 percent below the fiscal year 2015 enacted level due 
to significant decreases to the Bureau of Prisons and the Office of 
Justice Programs. The President's 2016 budget proposes only slight to 
moderate increases for immigration activities for Civil Division, 
Criminal Division, U.S. Marshals Service and Federal Prisoner 
Detention, and no increase for the U.S. Attorneys for immigration 
activities.
    The Department of Justice's fiscal year 2016 budget request does 
continue to prioritize resources for national security and cyber 
security, with increases of $106.8 million to develop the Department's 
capacity in a number of critical areas including: countering violent 
extremism and domestic radicalization; counterterrorism; cybersecurity, 
both domestic and abroad; information sharing and collaboration with 
the Intelligence Community; and training and technical assistance for 
our foreign partners. In addition, enhancements of $23 million will 
support the Drug Enforcement Administration's efforts to combat illicit 
drugs like heroin and other emerging drug trends. Additional violent 
crime initiatives that tackle gang violence, crimes against children, 
and promote gun safety also see increases over fiscal year 2015 enacted 
levels.
                    violence reduction network sites
    Question. Is this a program you plan to continue to offer and 
support? If so, what will you do within the U.S. Attorney's Office to 
compliment the work of the local and Federal agencies there?
    Lead-in information from original document.--
          As a response to the violent crime in Little Rock and West 
        Memphis, Arkansas, I understand that both are being considered 
        as VRN (Violence Reduction Network) sites, however, I do not 
        see any funding going to the VRN program.

    Answer. Launched in 2014, the Violence Reduction Network (VRN) 
Initiative synthesizes existing resources from across Department of 
Justice (DOJ) law enforcement agencies (Bureau of Alcohol, Tobacco, 
Firearms and Explosives (ATF); Drug Enforcement Administration (DEA); 
Federal Bureau of Investigation (FBI); United States Marshals Service 
(USMS)); and grant program offices (Office of Justice Programs (OJP), 
Office of Community Oriented Policing Services (COPS), and Office on 
Violence Against Women (OVW)), with subject-matter expertise from the 
criminal justice, local government, advocacy, and academic communities; 
lessons learned from evidence-based violence reduction initiatives; and 
key data from organizations representing other disciplines, increasing 
the capacity of local communities to implement data-driven solutions to 
increase public safety. In addition, the United States Attorneys' 
Offices are critical partners in the VRN.
    The organization and structure of the VRN sites are designed to 
convene Federal, State, and local law enforcement and key stakeholders 
in the selected sites around the issue of violence reduction and 
includes the following:
  --United States Attorneys' Offices and local law enforcement 
        leadership serve as the local points of contact and coordinate 
        activities and services for the VRN sites.
  --A Strategic Site Liaison (SSL) works with each site to coordinate 
        project services and support enhancement of the site's violence 
        reduction efforts (paid with OJP's training and technical 
        assistance funds).
  --A DOJ Program Office Champion from OJP, COPS, or OVW serves as the 
        point of contact for the site to effectively navigate access to 
        DOJ programmatic resources.
  --A DOJ Law Enforcement Champion from ATF, DEA, FBI, or USMS serves 
        as the point of contact for the site to effectively navigate 
        access to DOJ law enforcement resources.
  --A VRN Analyst, provided by BJA's training and technical assistance 
        (TTA) provider, supports the site's violence reduction efforts 
        (paid with OJP's training and technical assistance funds).
  --DOJ law enforcement agencies (ATF, DEA, FBI, USMS) support local 
        violence reduction efforts through their field offices.
    Camden, New Jersey, Chicago, Illinois, Detroit, Michigan, Oakland/
Richmond, California, and Wilmington, Delaware were the first cities 
selected to participate in the VRN. In fiscal year 2015, five 
additional cities were selected to join the VRN, including Little Rock 
and West Memphis. OJP is working closely with the U.S. Attorneys to 
discuss the VRN and how it can leverage Federal resources to support 
Little Rock and West Memphis's efforts to address violent crime.
    Although the VRN does not provide direct funding to participating 
sites, the resources and expertise dedicated to selected communities 
through this partnership opportunity are substantial. Within the past 6 
months, and with the 10 current VRN sites, VRN has successfully 
delivered on (or is currently coordinating) over 118 resource and 
training and technical assistance requests; reaching 722 individuals 
representing over 5,585 training hours.
    The VRN complements DOJ's Smart on Crime Initiative. The VRN 
leverages lessons learned and the vast array of existing resources 
across DOJ law enforcement and grant-making agencies to deliver 
strategic, intensive, training and technical assistance in an ``all-
hands'' approach to reduce violence in select cities. Sites identified 
as candidates for the VRN are cities that have experienced precipitous 
increases in violent crime and have violent crime rates that exceed the 
national average. They also represent jurisdictions in different 
geographic regions with distinctive characteristics, such as multiple 
Federal initiatives or a unique law enforcement structure. DOJ makes a 
2-year commitment to cities selected to join the VRN.
    Over the next 2 years, the goal of VRN is to deliver the following 
to the VRN sites:
  --Resources, training, and technical assistance targeted to the 
        sites' most urgent needs.
  --A comprehensive and collective understanding of drivers of violent 
        crime within a jurisdiction.
  --An in-depth review of technical, legal, and policy-based obstacles 
        to improve information sharing.
  --Performance metrics and a sustainability plan to measure success 
        and ensure continued progress through improved operational 
        strategies, training, and policy enhancement.
  --A committed focus at the Federal, State, and local levels on the 
        identification of violent offenders and an all-hands approach 
        towards holding them accountable through evidence-based 
        practices and constitutionally based policing.
  --A national community of practice around violence reduction.
  --A training and technical assistance delivery model for violence 
        reduction to cities across the Nation.
                             drug addiction
    Question. What are your enforcement and treatment strategies, such 
as drug diversion programs, for the growing epidemic of heroin abuse, 
and do you plan to accomplish these through the 1 percent funding 
increase you have requested?
    Lead-in information from original document.--
          Not only in Arkansas, but throughout the Nation, we are 
        seeing a very dangerous addiction become a growing epidemic. 
        This country is now dealing with individuals, from all walks of 
        life and economic groups, who are turning to heroin and other 
        opiates to feed their addiction that was often initiated from 
        an addiction to prescription medicine. Many statistics I have 
        seen discuss the doubling or tripling of heroin users over the 
        past couple years.

    Answer. We share the Committee's concerns about the serious threat 
to our communities posed by prescription drug abuse, addiction, and 
diversion. The fiscal year 2016 President's budget includes over $8.2 
billion for the Department's drug enforcement, prosecution, diversion 
and treatment efforts, a 5 percent increase over the fiscal year 2015 
enacted level. The budget supports a strong response to the uptick in 
heroin abuse and other emerging drug trends, including additional 
resources for the Drug Enforcement Administration's (DEA) deconfliction 
and information sharing to attack the full range of drug trafficking 
threats. The Department's request also provides increases to thwart 
international drug trafficking organizations, and supports drug abuse 
education, prevention, and treatment.
    The rise of heroin use and abuse of prescription opioids in the 
United States are some of the biggest challenges to public health and 
safety that we are currently facing. With DEA as the lead, and 
implemented in part through/in conjunction with the Organized Crime 
Drug Enforcement Task Forces (OCDETF) National Heroin Initiative, DOJ 
is working to dismantle the heroin supply chain and prevent the 
diversion of controlled substances. The uptick in heroin use and 
overdose coincides with the rise of prescription drug abuse.
    Law enforcement plays a significant role in combatting the Nation's 
heroin problem. Heroin availability in the United States has steadily 
increased over the last few years as Mexican Drug Trafficking 
Organizations (DTO) have increased their production and trafficking of 
heroin to the United States. The Southwest Border (SWB) remains a 
particular concern as it is the most trafficked region in the United 
States. Based on the 2014 National Drug Threat Assessment, seizures at 
the SWB are up 160 percent from 2009 to 2013. DEA estimates that South 
America and Mexico accounted for approximately 96 percent of the heroin 
in the United States in 2012. DEA also estimates that Mexico's share 
has been steadily increasing from under 5 percent in 2003 to about 45 
percent in 2012.
    DEA has opened more than 7,300 Domestic and Foreign investigations 
related to heroin since 2009. The number of heroin cases opened in 
fiscal year 2014 accounted for over 13 percent of all cases over that 
same timeframe. Heroin cases have increased 141 percent from fiscal 
year 2007 to fiscal year 2014, and 30 percent from fiscal year 2013 to 
fiscal year 2014. Heroin arrests accounted for more than 16 percent of 
all DEA arrests in fiscal year 2014, ranking third behind cocaine and 
methamphetamine. Heroin arrests have increased 96 percent from fiscal 
year 2007, and increased 15 percent from fiscal year 2013 to fiscal 
year 2014. fiscal year 2014 was the first year heroin arrests surpassed 
marijuana arrests.
    OCDETF data, which includes many DEA investigations but also 
investigations led by other Federal law enforcement agencies such as 
ATF and FBI, also shows an increasing trend of investigations involving 
heroin, which has recently been on the rise quarterly, and a similar 
trend in indictments with heroin charges annually. OCDETF 
investigations involving heroin increased by approximately 20 percent 
from the fourth quarter of fiscal year 2013 to the third quarter of 
fiscal year 2015, rising from 1,211 to 1,440. At the end of fiscal year 
2010, 10 percent of OCDETF indictments contained heroin charges, as 
compared with 15 percent at the end of fiscal year 2015. Currently, 
16--or 40 percent--of the Consolidated Priority Organization Targets, 
the highest level targets in interagency drug enforcement, are involved 
in heroin trafficking. To combat this serious nationwide threat, OCDETF 
has adjusted its resources to target these investigations in an attempt 
to reduce the supply.
    In addition to supporting the large volume of traditional OCDETF 
cases focusing on disrupting and dismantling high-level criminal 
networks responsible for distribution of heroin in the United States, 
in fiscal year 2015 OCDETF developed a new national initiative designed 
to combat the rise in heroin overdoses and deaths in a new way. The 
OCDETF National Heroin Initiative has two major components: (1) 
national coordination of, and information sharing in, heroin 
investigations and prosecutions; and (2) a funding mechanism to support 
local and regional ``outside-the-box'' initiatives designed to fill in 
existing gaps in the development of significant heroin cases.
    OCDETF is uniquely situated through its coalition of U.S. 
Attorneys, Federal agencies, and State and local task force partners to 
actively engage in the fight against the heroin and opioid epidemics 
through promoting the goals of collaboration, communication, and 
interdependent, real-time reporting of cooperation and progress in its 
ranks. Toward that end, OCDETF worked with the United States Attorney 
community to designate and fund a full-time Assistant United States 
Attorney with current expertise in heroin investigations and 
prosecutions to act as OCDETF's National Heroin Coordinator, detailed 
to the OCDETF Executive Office since May 17, 2015. Since the 
appointment of the National Heroin Coordinator, nationwide coordination 
efforts include:
  --Sixteen strategic initiatives have been approved for districts and 
        regions under acute attack from the heroin and opioid 
        epidemics, including Baltimore, Boston, Cleveland, St. Louis, 
        Northern Illinois, Pennsylvania, Virginia, and West Virginia. 
        The OCDETF National Heroin Coordinator works with the funded 
        districts and regions to ensure real-time information sharing, 
        efficient and effective use of resources, and collaboration 
        amongst nontraditional partners, such as State medical 
        examiners, coroners and State health departments.
  --Each of the 93 U.S. Attorneys and the regional offices of OCDETF's 
        Federal components have designated points of contact for all 
        heroin and opioid issues.
  --OCDETF's National Heroin Coordinator has met with top officials in 
        the Office of National Drug Control Policy, Office of National 
        Intelligence/Information Sharing Environments, Executive Staff 
        of the DEA, the DEA Research Laboratory, and the OCDETF Fusion 
        Center to discuss potential joint efforts against the heroin 
        and opioid threats to the Nation.
  --Collaboration is ongoing with Federal Bureau of Investigation 
        regarding emerging heroin threats.
  --The OCDETF Heroin Coordinator has attended or will attend Heroin/
        Opioid Summits in Missouri, Minnesota, Wisconsin, and other 
        States as invited, as well as impacted areas where best 
        practices are being employed in the heroin fight, such as 
        Minneapolis and Boston, so those practices can be memorialized 
        and disseminated for use by law enforcement and prosecutors in 
        the fight against heroin and opioid use and abuse.
  --The Coordinator has engaged in extensive briefings with the leaders 
        of New Jersey's cutting edge Drug Monitoring Initiative (DMI) 
        to explore replication of the DMI program in a national level.
  --OCDETF will host a national conference in November of 2015 for all 
        U.S. Attorney and Federal agency heroin/opioid points of 
        contact. The conference, entitled ``No Boundaries--United in 
        the Fight'' will bring stakeholders together for education, 
        sharing of successes and challenges, and exploration of 
        enhanced, proactive best practices in the fight against the 
        heroin and opioid epidemics. Additionally, OCDETF and DEA are 
        working closely to support similar efforts going forward.
    As a direct result, local and regional efforts are enhanced by the 
influx of new ideas and approaches to the common challenges.
    To enhance the work already being performed in the field and by the 
OCDETF National Heroin Coordinator, OCDETF has also dedicated a limited 
amount of operational funds to support the OCDETF National Heroin 
Initiative. This funding does not replace or supplement OCDETF's 
existing base funding that already supports OCDETF-level multi-agency, 
multi-jurisdictional cases targeting prescription drug abuse or heroin. 
Rather, OCDETF's National Heroin Initiative provides small amounts of 
operational ``seed money'' to help law enforcement agencies and 
prosecutors work collaboratively to fill existing gaps in intelligence, 
enforcement activities, and prosecutions that currently hinder the 
development of single-instance heroin overdose investigations into 
multi-agency, multi-jurisdictional cases against the criminal 
organizations with the most impact on our communities. This funding is 
intended to assist the agencies and prosecution offices with 
extraordinary expenses that cannot otherwise be funded within currently 
available resources.
    Internationally, DEA's Sensitive Investigative Unit (SIU) program 
partners with host nations to combat illegal drug trafficking at the 
source. SIUs comprise groups of host nation investigators that are 
polygraphed, trained, equipped, and guided by DEA. DEA manages 13 SIUs 
including programs in Mexico and Colombia, countries with strong links 
to the U.S. heroin trade.
    DEA's Diversion Control Program (DCP) prevents, detects, and 
investigates the diversion of pharmaceutical controlled substances and 
listed chemicals from legitimate channels using criminal, civil, and 
regulatory tools to identify, target, disrupt, and dismantle 
individuals and organizations responsible for the diversion and illegal 
distribution of pharmaceutical controlled substances. The DEA believes 
the increased heroin use is driven by many factors, including an 
increase in the misuse and abuse of prescription psychotherapeutic 
drugs, specifically opioids. Part of the DCP's mission is to identify 
and minimize the diversion of pharmaceutical controlled substance, such 
as opioids, and Tactical Diversion Squads (TDSs) are one method DEA 
employs to combat this. DEA's TDSs incorporate the enforcement, 
investigative, and regulatory skills sets of DEA Special Agents, 
Diversion Investigators, other Federal law enforcement, and State and 
local Task Force Officers. As such, the TDSs are DEA's primary method 
of criminal law enforcement in the DCP. The expansion to 66 operational 
TDS's in the U.S. has enabled DEA's Diversion Groups to concentrate on 
the regulatory aspects of the Diversion Control Program. Further, in 
order to target the most likely offenders of diversion, the DCP has 
increased the frequency of scheduled investigations registrants in 
selected business activities.
    The Harold Rogers Prescription Drug Monitoring Programs (PDMP) 
monitor prescription drug sales and also play an important role in 
identifying doctor shopping and diversion, particularly at the retail 
level where no other automated information collection system exists. 
How PDMPs are organized and operated varies among States. Each State 
determines which agency houses the PDMP; which controlled substances 
must be reported; which types of dispensers are required to submit data 
(e.g., pharmacies); how often data are collected; who may access 
information in the PDMP database (e.g., prescribers, dispensers, or law 
enforcement); the circumstances under which the information may (or 
must) be accessed; and what enforcement mechanisms are in place for 
noncompliance.
    DOJ supports more than 2,900 specialty courts that connect over 
142,000 people convicted of drug-related offenses with the services 
they need to avoid future drug use and rejoin their communities. These 
courts include adult drug courts, veterans' treatment courts, DWI 
courts and others. DOJ provides financial support, training, and 
technical assistance to many of these courts annually. DOJ is also 
urging first responders to carry naloxone, a drug which restores 
breathing during a heroin or opioid overdose. The Department has 
created an online tool kit to assist these efforts.
    DOJ continues to increase support for drug abuse education, 
prevention, and treatment through partnerships with doctors, educators, 
community leaders, and police officials. As directed by Congress, the 
Department has joined with the Office of National Drug Control Policy 
to convene an interagency Heroin Task Force to confront this challenge. 
This Task Force is co-chaired by the U.S. Attorney for the Western 
District of Pennsylvania and the Office of National Drug Control Policy 
Deputy Director for State, Local and Tribal Affairs. The Department, 
DEA, and more than 28 Federal agencies and their components are 
actively participating on the Task Force. Other participants include 
medical community, enforcement, public health, and education experts. 
The Task Force is taking an evidence-based approach to reducing the 
public health and safety consequences caused by heroin and prescription 
opioids. We expect the Task Force to submit its comprehensive Strategic 
Plan to the President and Congress by the end of 2015.
    The fiscal year 2016 President's budget would allow DEA to maintain 
and enhance valuable drug enforcement tools. The request includes 
funding to expand DEA's case management and deconfliction systems and 
enhance the IT infrastructure at the El Paso Intelligence Center 
(EPIC). EPIC's primary mission is to support the law enforcement 
community through improved information sharing. EPIC funding will 
provide Federal, State, local, tribal, and international law 
enforcement agencies with faster responses and improved access to 
investigative tools. At the request of State and local partners, DEA 
has instituted a Community of Interest site on the EPIC Web portal 
specifically for the exchange of information related to heroin. The 
fiscal year 2016 President's budget supports the creation of a new 
financial investigation unit as part of DEA's Bilateral Investigation 
Units at the Special Operations Division to enhance DEA's efforts in 
targeting the financial networks of foreign-based drug traffickers. In 
addition, the fiscal year 2016 President's budget requests funding to 
sustain and further develop the capacity and capabilities of existing 
SIUs. This funding will support training, vetting, program 
coordination, judicial wire intercept systems and other IT-related 
requirements. The fiscal year 2016 budget also includes increases for 
grants to help State and local governments develop residential 
substance abuse treatment programs and maintain community-based 
aftercare services for offenders.
                             cyber security
    Question. How does the department plan to utilize the requested 
$106.8 million increase to handle our Nation's cyber security breaches, 
especially the cyber hacking led by ISIS?
    Answer. The response to this question entails classified 
information. The Department will work with the subcommittee to answer 
this question in an appropriate manner.
                         assets forfeiture fund
    Question. Can you please explain whether you believe the Civil 
Asset Forfeiture program needs to be reformed, and if so, how? Can you 
also put Civil Asset Forfeiture into perspective for me, by telling me 
how many seizures are legitimate and how many are not? How many 
individuals have made claims for their property in comparison to how 
many have not, and would that help to indicate how many people are 
actual ``victims'' of this program?
    Lead-in information from original document.--
          I would like to talk about Civil Asset Forfeiture for a 
        minute. I hear that civil asset forfeiture is a slush fund for 
        law enforcement and that innocent individuals are being robbed 
        of their property and money. I also hear that the funds augment 
        law enforcement agencies discretionary budgets to further 
        target criminal activity. I would like to see some hard figures 
        on this issue so we may better determine how to move forward.

    Answer. Asset forfeiture is a critical legal tool that serves a 
number of compelling law enforcement purposes. The Department is 
committed to ensuring that asset forfeiture laws are used appropriately 
and effectively to deprive criminals of the proceeds of their crimes, 
break the financial backbone of organized crime syndicates and drug 
cartels, and to recover stolen property that may be used to compensate 
victims and deter crime.
    Civil forfeiture is often the only mechanism by which the 
Government can take criminally tainted assets out of circulation 
because criminals often go to great lengths to insulate themselves from 
the proceeds and instrumentalities of their criminal acts--including by 
giving those assets for safekeeping to individuals who knowingly accept 
and retain the criminally tainted property, even though they did not 
engage in the criminal activity themselves. Civil asset forfeiture is 
the only avenue to recover proceeds of crime if the criminal is dead, a 
fugitive, or where stolen artifacts are recovered but no defendant can 
be identified.
    Not only does asset forfeiture deprive criminals of their illicit 
proceeds, it also enables the Government to compensate victims of 
crime. In fact, since 2000, the Department has returned over $4 billion 
in assets to the victims of crime through asset forfeiture, of which 
$1.87 billion was recovered civilly. In addition, the Department 
expects to distribute approximately $4 billion in civilly forfeited 
assets associated with the Madoff fraud scheme. At that point, victim 
compensation from forfeited funds will far exceed the nearly $5.4 
billion of forfeited funds that have been reinvested in law enforcement 
to fight crime as part of the Equitable Sharing program.
    Federal law authorizes the Department to share federally forfeited 
property with participating State and local law enforcement agencies 
through a program known as Equitable Sharing. The Equitable Sharing 
Program was created by Congress, in part to strengthen law enforcement 
by fostering cooperation among Federal, State and local law enforcement 
agencies. Once a forfeiture is successfully completed, the Federal 
Government disposes of the assets and then pays expenses and provides 
for any applicable victim compensation in a case. Only after these 
expenses and victim payments are deducted, if there are any remaining 
proceeds, are funds available for equitable sharing with State and 
local law enforcement agencies that participated in the underlying law 
enforcement action that led to the seizure or forfeiture of the asset. 
The Department has many procedures in place and a host of prohibitions 
on how equitable sharing funds may be used to ensure that they 
supplement but do not supplant the funds allocated to law enforcement 
agencies by State and local governments.
    That said, the Department takes seriously the concerns raised about 
civil asset forfeiture and has responded with significant, carefully-
considered reforms including the prohibition on adoptions (which occur 
when a State or local law enforcement agency seizes property pursuant 
to State law and requests that a Federal agency take the seized asset 
and forfeit it under Federal law) and restrictions on the seizure of 
structured funds. We are continuing a comprehensive review of the 
entire asset forfeiture program in order to improve and strengthen it, 
while preserving the rule of law and the rights of property owners.
    Question. Can you also put Civil Asset Forfeiture into perspective 
for me, by telling me how many seizures are legitimate and how many are 
not?
    Answer. Assets can only be seized by the Government either pursuant 
to the seizure warrant issued by a judge, or pursuant to an exception 
to the warrant requirement. In either instance, however, the law 
requires that there be probable cause linking the asset directly to 
criminal activity. The probable cause requirement is a core tenet of 
our legal system and is the very same standard of proof required to 
place an individual under arrest. The forfeiture process does not allow 
for the seizure of property in the absence of probable cause.
    Question. How many individuals have made claims for their property 
in comparison to how many have not, and would that help to indicate how 
many people are actual ``victims'' of this program? I would like to see 
some hard figures on this issue so we may better determine how to move 
forward.
    Answer. Civil asset forfeiture is used to recover the ill-gotten 
proceeds of crime and, in many instances, returning the forfeited funds 
to victims of crime who have suffered financial losses at the hands of 
criminals. In the forfeiture process, it is essential that we protect 
the due process rights of innocent individuals. Recognizing this, 
Congress put safeguards in place to protect innocent property owners 
when it passed the Civil Asset Forfeiture Reform Act (CAFRA). These 
protections are essential to preserve the integrity of the Asset 
Forfeiture Program and to ensure that individual due process rights are 
preserved and protected. Even where the Government has borne its burden 
of proving that property is linked directly to crime, CAFRA allows a 
property owner to defeat a forfeiture if they can show they are an 
innocent owner. In such cases, the Government must return the seized 
assets to the innocent owner, who may also be entitled to attorney's 
fees.
    In the past decade, 1,952 claims have been filed in connection with 
48,927 (approximately four percent) assets seized for administrative or 
civil forfeiture. Of those 1,952 claims, 878 of those assets 
(approximately 45 percent) have been returned either to the owner or 
another claimant with a property interest in the asset, such as a 
lienholder.
                             ammunition ban
    Question. As the new Attorney General, will you revive this 
ammunition ban, or attempt to implement any other ammunition ban?
    Lead-in information from original document.--
          On February 13, 2015, the ATF released a framework on how 
        they proposed to apply the ``Sporting purposes'' test to exempt 
        ammunition that they state, qualifies as armor piercing. 
        Although through this proposed framework, ATF would have 
        reversed an exemption that was granted 29 years ago for target 
        shooting ammunition that is popular for use in modern sporting 
        rifles. After public outrage and multiple letters from 
        Congress, ATF withdrew the framework.

    Answer. Congress enacted the prohibition on armor piercing 
ammunition in the Law Enforcement Officer's Protection Act of 1986 
(LEOPA). LEOPA provides that all ammunition containing certain 
specified metals that may be fired from a handgun is defined to be 
``armor piercing'' and prohibits the manufacture and sale of all such 
ammunition. The statute further provides, however, that the Attorney 
General may exempt particular rounds of ammunition that otherwise meet 
the statutory definition of ``armor piercing'' upon a determination 
that the round at issue is ``primarily intended for sporting 
purposes.'' The authority to make exemption determinations has been 
delegated to ATF.
    ATF drafted the proposed framework in response to a large influx of 
new ``sporting purpose'' exemption requests and was designed to provide 
industry and the public with clear, objective guidance on the criteria 
ATF would apply to those requests. In crafting the criteria for the 
proposed framework, ATF's foremost obligation was to ensure that those 
criteria were consistent with the primary objective of LEOPA--the 
protection of law enforcement from the threat posed by ammunition used 
in handguns.
    In light of the significant number of comments received, ATF has 
decided to cease with finalizing the proposed framework. ATF is 
currently reviewing the comments to inform future steps, if any, and 
additional process--including public notice and comment--will be 
afforded prior to any further action. At this time, ATF has no plans to 
further consider reversing the standing exemption for 5.56 x 45mm 
rounds of ammunition in M855 and SS1109 cartridges. The process of 
reviewing and considering the large number of comments received will 
take time, and I look forward to working with Congress and all 
interested parties should any further action be proposed.
                       immigration court program
    Question. Your budget request includes a 40 percent increase for 
improvements to the immigration court system. Could you explain the 
justification for such a significant increase? Also, could you please 
share how many immigrant applications are in the current backlog and 
which cases would be prioritized for adjudication if this amount were 
authorized?
    Answer. The Executive Office for Immigration Review's (EOIR) fiscal 
year 2016 budget request is a 38.8 percent increase over fiscal year 
2015 enacted levels and includes $124.3 million in program increases. 
These program increases include additional funds for the following: 
additional immigration judge teams; immigration court support; legal 
representation for unaccompanied children; expansion of the legal 
orientation program; and information technology modernization. These 
program enhancements will provide EOIR funding to increase staffing to 
more rapidly address the large volume of pending cases and will 
increase the efficiency of the courts through increased representation 
and updated electronic and communication efforts. Specific information 
about each of EOIR's requested program increases follows.
  --Immigration Judge teams/Immigration Court Support.--The fiscal year 
        2016 budget request includes $60 million to add 55 Immigration 
        Judge Teams, and $1.3 million to add 15 attorneys to support 
        the agency's mission by supporting the immigration judge corps 
        and providing legal assistance with immigration matters before 
        the courts. These two program increases are necessary to 
        provide sufficient resources to adjudicate the cases before the 
        immigration courts. Cases received at EOIR are inextricably 
        tied to Department of Homeland Security (DHS) enforcement 
        efforts. As DHS places more individuals into proceedings before 
        EOIR, the number of adjudicators must increase in order to 
        address new cases as well as the pending caseload. These 
        increased funds will provide EOIR the resources to hire 
        additional immigration judges and provide those immigration 
        judges with the necessary staff support and work space to 
        adjudicate cases.
  --Legal Representation for Unaccompanied Children.--The fiscal year 
        2016 budget request includes $50 million in 2-year funding for 
        the legal representation of unaccompanied children. When 
        unaccompanied children have legal representation from the 
        beginning of their immigration court proceedings, we expect 
        that immigration courts will be able to reduce the number of 
        continuances granted for the purpose of obtaining counsel, 
        preparing any applications for relief, and gathering evidence. 
        In addition, counsel can facilitate court proceedings, 
        resulting in faster hearings and earlier identification of 
        relevant legal issues. All of these factors will assist in 
        reducing EOIR's case backlog while providing efficient 
        adjudicatory proceedings.
  --Legal Orientation Program (LOP).--The fiscal year 2016 budget 
        request includes $10 million for the expansion of the LOP. This 
        requested increase will expand the successful LOP and continue 
        to improve efficiencies in immigration court proceedings for 
        detained aliens by increasing their awareness of their rights 
        and the overall immigration proceeding process. Independent 
        research and evaluation reports have shown that LOP 
        participants complete their immigration court cases in 
        detention an average of 12 days faster than detainees who do 
        not participate in an LOP. The requested additional funding 
        will respond to elevated demand at existing DHS sites and 
        enable LOP to add additional sites.
  --Information Technology Modernization.--The fiscal year 2016 budget 
        request includes $3 million for information technology 
        modernization to provide an update to EOIR's electronic 
        systems, improving the efficiency of processing case materials 
        and other data communication efforts. This program increase 
        will go towards the planning and development of updates to 
        improve EOIR's electronic systems. The improvement of EOIR's 
        court and case management systems will enhance EOIR's ability 
        to meet core mission functions by increasing efficiencies and 
        allowing more staff time to focus on EOIR's adjudications and 
        other responsibilities. An update of EOIR's electronic systems 
        will also allow for better communications with DHS law 
        enforcement entities currently using EOIR case information.
    Regarding the pending caseload, as of September 30, 2015, EOIR had 
456,500 proceedings pending before the immigration courts. Per the June 
2014 Presidential directive to process priority cases as fairly and as 
quickly as possible, EOIR realigned its adjudicative priorities, and 
refocused EOIR's immigration court resources. In July 2014, EOIR added 
new priorities to its pre-existing priority for detained cases. EOIR's 
priority cases now include those individuals whom DHS has identified as 
recent border crossers who are unaccompanied children, adults with 
children in detention, adults with children released through 
Alternatives to Detention (ATD), and other individuals in detention.
                       legal orientation program
    Question. Is the department intending to use the LOP authorized 
funds to provide work authorization to those afforded deferred action 
by the President's executive order?
    Lead-in information from original document.--
          I understand the Legal Orientation Program operates utilizing 
        nonprofit legal service agencies to provide information to 
        immigrant detainees to assist in their removal process. Please 
        describe how this program has been successful and explain why 
        you are requesting an additional $116 million to support this 
        program.

    Answer. The fiscal year 2016 budget request includes an additional 
$10 million, not $116 million, to expand the successful Legal 
Orientation Program (LOP). EOIR has carried out the LOP since 2003 and, 
by fiscal year 2014, the LOP was able to serve roughly one-third of all 
detained aliens in immigration court proceedings. Through the LOP, 
representatives from nonprofit organizations provide comprehensive 
explanations about immigration court procedures along with other basic 
legal information to large groups of detained individuals.
    This requested increase of $10 million will expand the LOP and 
continue to improve efficiencies in immigration court proceedings for 
detained aliens by increasing their awareness of their rights and the 
overall immigration proceeding process. Research and evaluation reports 
show that LOP participants complete their immigration court cases on 
average 12 days faster and spend on average 6 fewer days in ICE 
detention than detainees who do not participate in an LOP. The LOP is 
currently in 30 locations, 28 of which are ICE detention facilities.
    LOP funds have not and will not be used to provide work 
authorization to those afforded deferred action by the President's 
executive order. The LOP does not provide legal representation, and the 
DOJ has no intention of changing this policy in the future. The LOP 
assists individuals representing themselves pro se by helping them 
understand the various legal options available to them and, where 
available, referring individuals to pro bono counsel, not funded under 
the LOP. The LOP provides information on legal options that may be 
available to detainees, it does not provide any direct assistance in 
carrying out those options. Thus, while an LOP provider may explain 
what deferred action is, and may explain what is required to gain work 
authorization, the individual would need to seek those actions on their 
own or through the use of counsel that is separate and distinct from 
the LOP contract.
                  convicted felons possessing firearms
    Question. Is that the case? Who sets the thresholds? Can you tell 
me what the threshold is for a convicted felon in possession of a 
firearm in Arkansas?
    Lead-in information from original document.--
          In my research, I have learned that prosecuting convicted 
        felons in possession of a firearm is a major factor in 
        combatting violent crime, by taking these armed criminals off 
        the street, often before they commit more acts of violent 
        crime. I also understand that the U.S. Attorney's Office across 
        the country has established certain thresholds that have to be 
        met prior to accepting these cases.

    Answer. All United States Attorneys' Offices (USAOs), including 
those for the Eastern and Western Districts of Arkansas, carefully 
review the acceptance of potential firearms cases in light of the 
guidelines set forth in the Principles of Federal Prosecution. These 
principles require USAOs to consider whether a substantial Federal 
interest would be served by prosecution and whether a potential 
defendant is subject to effective prosecution in another jurisdiction. 
The USAOs evaluate the facts and circumstances on a case by case basis. 
In Arkansas, neither United States Attorney's Office has a threshold 
for acceptance of felon in possession cases. All felons found in 
possession of firearms are potentially subject to Federal prosecution. 
Practically speaking, this usually involves a discussion among Federal, 
State, and local prosecutors and law enforcement about the most 
appropriate venue for prosecution.
    When considering these principles, USAOs assess, among other 
things, Federal law enforcement priorities; the nature and seriousness 
of the offense; the potential defendant's culpability; the strength of 
the evidence that would be admissible in court; a potential defendant's 
criminal history; the probable sentence or other consequences if the 
person is convicted federally as opposed to locally; the strength of 
the other jurisdiction's interest in prosecution; the other 
jurisdiction's ability and willingness to prosecute effectively; and 
the effectiveness of potential non-criminal sanctions.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                             border tunnels
    Question. What changes would you recommend that Congress make in 
order to strengthen this legislation and more effectively address this 
issue?
    Lead-in information from original document.--
          Since 2001, U.S. Customs and Border Protection has discovered 
        at least 170 tunnels along the Southwest Border originating in 
        Mexico and ending on the U.S. side of the Border, predominantly 
        in California and Arizona. In the last 2 months, U.S. Customs 
        and Border Protection discovered three tunnels leading from 
        Mexico to Calexio and San Diego. I authored two bills that were 
        signed into law in 2006 and 2012 to provide law enforcement and 
        prosecutors with additional tools to investigate illegal tunnel 
        activity and prosecute those responsible, including landowners 
        who allow others to construct illegal tunnels on their land. 
        However, it is my understanding that U.S. Attorneys are not 
        bringing charges against individuals under the tunnel statute 
        because they are having difficulty proving that the property 
        owner knew about the tunnel. In fact, since 2011, the San Diego 
        Tunnel Task Force has only successfully arrested and indicted 
        two individuals using this legislation.

    Answer. We appreciate your efforts to help combat crimes committed 
through the use of border tunnels. We have many available statutory 
tools depending upon the nature of crime related to a border tunnel. 
Often, the Controlled Substances Act is the best mechanism as it 
provides stiff penalties for drug crimes, which can include the use of 
border tunnels. In addition, some defendants have prior drug 
trafficking convictions and/or are career offenders, making their 
sentence exposure more significant when they are charged with crimes 
other than 18 U.S.C. Sec. 555. To the extent the Department identifies 
additional statutory tools needed to address border tunnels, we would 
welcome the opportunity to work with you and your staff.
    Question. How can we better ensure that property owners or renters 
on the U.S. side of the border who allow others to construct illegal 
tunnels on their property are brought to justice?
    Lead-in information from original document.--
          Since 2001, U.S. Customs and Border Protection has discovered 
        at least 170 tunnels along the Southwest Border originating in 
        Mexico and ending on the U.S. side of the Border, predominantly 
        in California and Arizona. In the last 2 months, U.S. Customs 
        and Border Protection discovered three tunnels leading from 
        Mexico to Calexio and San Diego. I authored two bills that were 
        signed into law in 2006 and 2012 to provide law enforcement and 
        prosecutors with additional tools to investigate illegal tunnel 
        activity and prosecute those responsible, including landowners 
        who allow others to construct illegal tunnels on their land. 
        However, it is my understanding that U.S. Attorneys are not 
        bringing charges against individuals under the tunnel statute 
        because they are having difficulty proving that the property 
        owner knew about the tunnel. In fact, since 2011, the San Diego 
        Tunnel Task Force has only successfully arrested and indicted 
        two individuals using this legislation.

    Answer. If we have evidence that property owners or renters on the 
U.S. side of the border ``knowingly'' or ``recklessly'' allow others to 
construct illegal tunnels on their property, then we can charge them 
under section (b) of 18 U.S.C. Sec. 555. However, absent some 
corroboration from a cooperator, an admission by the defendant, or 
actually finding the owner or renter at the tunnel, prosecutors often 
face evidentiary issues in criminal cases against the landowners or 
renters.
    There are no civil penalties for land owners who ``negligently'' or 
``acting in reckless disregard'' allow the rental of their commercial 
warehouses or family residences to be used for construction of tunnels. 
Many commercial warehouses in San Diego and Imperial County have 
absentee owners who use local management companies to rent their 
warehouses. Establishing civil penalties within this statute would 
place the landowners on notice and liable--in a civil setting--to make 
sure that they are renting to legitimate companies and individuals.
                           community policing
    Question. With the funding you have requested, how do you intend to 
encourage local law enforcement to engage in community policing and to 
model best practices for these communities?
    Lead-in information from original document.--
          Over the past several months, we have seen protests over the 
        deaths of unarmed men, many of them African-American. Some of 
        these protests have turned violent. It is apparent that, in 
        some communities, relationships between community members and 
        law enforcement are not strong enough, leading to suspicion and 
        mistrust by both police and residents.When protests do occur, 
        we often see a line of heavily armed officers on one side, and 
        protesters on the other. I believe that the Department of 
        Justice must use its bully pulpit and the Federal grant funding 
        it provides to local jurisdictions to reinvigorate community 
        policing nationwide.

    Answer. The Department leverages multiple programs and approaches 
to strengthen community policing and the vital trust among law 
enforcement officers and the communities they serve. When these bonds 
are strong, our crime prevention efforts are more successful; incidents 
are more likely to be reported and addressed; and police are more 
likely to have the support they need to do their jobs safely and 
effectively. The fiscal year 2016 budget includes funding to initiate 
initiatives specifically cited in the President's 21st Century Policing 
Report, like data collection and statistical analysis of crime 
incidents, and training and technical assistance for law enforcement 
and public defenders. In addition, resources are provided for the 
administration's Community Policing Initiative for programs aimed at 
promoting restorative and procedural justice, reducing implicit bias, 
and supporting racial reconciliation and outreach efforts.
Office of Community Oriented Policing Services (COPS)
    The mission of the COPS Office has always been to advance public 
safety through community policing. With the funding appropriated to the 
COPS Office in fiscal year 2015, the COPS Office funded several field-
initiated projects based on key topics and recommendations outlined in 
the final report of the President's Task Force on 21st Century 
Policing, which will continue throughout fiscal year 2016.
    The Task Force on 21st Century Policing was created to strengthen 
community policing and trust among law enforcement officers and the 
communities they serve--especially in light of recent events around the 
country that have underscored the need for and importance of lasting 
collaborative relationships between local police and the public. It was 
established by the President on December 18, 2014 and included law 
enforcement representatives, community leaders, young adults and 
notable scholars--who examined, among other issues, how to strengthen 
public trust and foster strong relationships between local law 
enforcement and the communities that they protect, while also promoting 
effective crime reduction.
    Through the President's Task Force on 21st Century Policing Field-
Initiated Projects, the COPS Office invited applicants to offer 
innovative ideas to advance a set of the recommendations of their 
choosing. Projects include demonstration sites, promising practices 
assessments, guidebook development, and training and technical 
assistance.
    Through the COPS MicroGrant Initiative for Law Enforcement, the 
COPS Office funded nine law enforcement agencies to develop 
demonstration sites or pilot projects that may focus on implementing 
specific recommendations in the report (e.g., enhancing partnership 
development, improving problem-solving activities, or supporting 
organizational changes).
    The COPS Office will support convenings on topics that advance the 
implementation of the Task Force's recommendations through its 
Community Policing Emerging Issues Forums. Each convening will result 
in a publication that provides background information on best practices 
and the state of knowledge on that topic, as well as considerations, 
recommendations, and guidance to the field as we build consensus for a 
path forward.
    The COPS Collaborative Reform Initiative for Technical Assistance 
(CRI-TA) is designed to improve trust between law enforcement agencies 
and the communities they serve by providing a means for organizational 
transformation through an analysis of policies, practices, training, 
tactics and accountability methods around specific issues, all of which 
are strongly linked to the foundational pillars of and recommendations 
within the Task Force Report. CRI-TA will be expanded to require 
procedural justice and implicit bias training for all selected sites 
and, in fiscal year 2015, an additional five sites were selected to 
participate in the Collaborative Reform process based on selection 
criteria consistent with the principles within the Task Force report. 
The experiences that those agencies go through in transforming their 
policies, procedures, training, accountability mechanisms and community 
trust building will serve as a model for the rest of the profession, 
and will be disseminated through a series of reports that will offer a 
roadmap for change for agencies interested in replicating those 
organizational change efforts.
    The COPS Hiring Program (CHP) provides funding for the hiring and 
rehiring of entry-level policing capacity and crime prevention efforts. 
In fiscal year 2015, the COPS Office gave additional consideration to 
applicant agencies that selected the category of ``Building Trust,'' 
and those agencies were encouraged to refer to the Task Force report 
for suggested actions to incorporate into their proposed community 
policing strategies. In fiscal year 2015, 83 agencies that selected 
``Trust Problems'' received funding for 365 officers. CHP is the COPS 
Office's largest grant program, and provides funding directly to State, 
local and tribal law enforcement agencies to hire and rehire career law 
enforcement officers in an effort to increase their community policing 
capacity and crime prevention efforts.
    With support from the COPS Office, law enforcement focused 
organizations will develop national-level, industry-wide projects for 
several of the pillars outlined in the Task Force report. Supported 
activities will include the creation of positive and meaningful 
engagement opportunities between law enforcement and youth, 
identification of best practices for engaging the community in the 
mutual responsibility of public safety, exploration of the 
circumstances and causality behind documented line-of-duty injuries, 
and promotion of officer safety and wellbeing.
Office of Justice Programs (OJP)
    Community Policing--Smart Policing Initiative.--Community 
engagement is a central principle of the Smart Policing Initiative 
(SPI), administered by the Office of Justice Program's Bureau of 
Justice Assistance (BJA). SPI supports law enforcement agencies and 
represents a strategic approach that brings more science into police 
operations by leveraging innovative applications of analysis, 
technology, evidence-based, data-driven practices, and improving 
performance and effectiveness while containing costs--an important 
element in today's fiscal environment. BJA currently has several 
projects underway that are testing innovative approaches to building 
such partnerships and trust between police and the communities they 
serve.
    Community Policing--Project Safe Neighborhoods.--Most of the 
Project Safe Neighborhoods (PSN) strategies submitted contain some form 
of community policing as part of their overall gun and gang violence 
reduction efforts. PSN is designed to create safer neighborhoods 
through a sustained reduction in crime associated with gang and gun 
violence. The program's effectiveness is based on the cooperation of 
local, State, and Federal agencies engaged in a unified approach led by 
the U.S. Attorney (USA) in each district. The USA is responsible for 
establishing a collaborative PSN task force of Federal, State, and 
local law enforcement and other community members to implement gang and 
gun crime enforcement, intervention, and prevention initiatives within 
the district. Through the PSN task force, the USA will implement the 
five design features of PSN--partnerships, strategic planning, 
training, outreach, and accountability--to address specific gun crime 
and gang violence, in the most violent neighborhoods. These five 
elements are essential for PSN to be successful.
    One of the strengths of PSN is the flexibility that allows PSN task 
forces to adapt the key components of PSN to the local context. The 
difference in levels and the nature of gun crime across the 50 States 
and across the Nation's cities are enormous and require local 
adaptation. The most common strategies employed by PSN task forces were 
increased Federal prosecution; joint Federal-local prosecution case 
screening; directed police patrol; community policing; chronic violent 
offender programs; street level firearms enforcement teams; offender 
notification meetings; re-entry programs; and firearms supply side 
interventions.
    Byrne Criminal Justice Innovation Program.--The Byrne Criminal 
Justice Innovation Program (BCJI) is designed to help local and tribal 
communities develop place-based, community-oriented strategies with 
coordinated Federal support to change neighborhoods of distress into 
neighborhoods of opportunity. This has consistently been done by sites 
focusing on public safety as their primary issue, and using innovative 
criminal justice strategies to address the varying public safety needs 
of each community. Because BCJI requires cross sector partnerships and 
is based on the fundamentals of collaboration within a community, 
community policing is not only encouraged but also built into the 
concept and execution of this program. The best way to articulate this 
is through a few examples of sites to date that have been implementing 
community policing strategies that have had a direct impact on the 
relationship between law enforcement and the communities they serve.
  --Alameda County, California (Fiscal Year 2014 Planning & 
        Implementation).--The Sheriff's Office in Alameda County excels 
        at community-oriented strategies to foster trust in law 
        enforcement and crime prevention. Deputies use theater and 
        other non-traditional approaches to engage residents in 
        discussion about sensitive police-community issues, while the 
        Deputy Sheriff's Activities League (DSAL) provides 
        opportunities for thousands of kids and their families to build 
        community and get to know law enforcement officers in non-
        threatening settings. More than 1,300 kids and 100 parent 
        volunteers currently participate in the DSAL's Youth Soccer 
        program, for example.
  --Providence, Rhode Island (Fiscal Year 2013 Planning & 
        Implementation).--Even as it weathers a significant reduction 
        in force due to budget constraints, the Providence Police 
        Department remains committed to community policing, and has 
        invested heavily in building partnerships with local community 
        development and service organizations which participate in 
        BCJI. In Providence, the community organized the Annual 
        Olneyville Shines Clean-up Day in May 2015, which brought out 
        120 volunteers including officers. The community also organizes 
        the Olneyville Fall Festival and, for the first time last year, 
        National Night Out, which might become an August tradition.
    --The collective efforts have spawned a robust Crime Watch group 
            led by residents in the BCJI target area, and a variety of 
            annual events that bring officers and residents together. 
            Chief Clements also invites community partners to 
            participate in Compstat and command staff meetings to 
            maintain transparency and foster cross-sector problem-
            solving.
  --Milwaukee, Wisconsin (Fiscal Year 2012 Planning & 
        Implementation).--The Milwaukee BCJI effort benefits from 
        explicit programming to foster community-police dialogue and 
        problem-solving, such as the ``STOP'' (Students Talking It Over 
        with Police) curriculum, which brings police officers together 
        with juveniles in high crime neighborhoods in structured 
        dialogue that yields greater mutual understanding, builds 
        relationships, and seeks to prevent conflict between youth and 
        police on the streets. This program earned the top honor at the 
        International Association of Chiefs of Police conference in 
        fall of 2014.
    All the BCJI sites are able to engage one another in peer-to-peer 
dialogue, which helps to develop their practices and strategies, and 
enables them to learn from one another in a meaningful way. Each site 
has developed community policing efforts in a different way, with some 
innovative approaches to building the relationships between law 
enforcement and the community. These practices and efforts are shared 
through our technical assistance provider's Web site and can be used as 
models for non-BCJI sites throughout the country.
    Procedural Justice--Building Community Trust Program.--The 
Procedural Justice--Building Community Trust Program focuses on 
enhancing procedural justice, reducing bias, and supporting racial 
reconciliation in the criminal and juvenile justice systems and 
furthers the Department's mission to ensure public safety and the fair 
and impartial administration of justice for all Americans. This 
program, which will be administered by the Office of Juvenile Justice 
and Delinquency Prevention, will provide grants and technical 
assistance to State, local, and tribal courts and juvenile and criminal 
justice agencies to support innovative efforts to improve perceptions 
of fairness in the juvenile and criminal justice systems and build 
community trust in these institutions.
Civil Rights Division
    The Civil Rights Division will continue to investigate and, when 
necessary, prosecute law enforcement officers who engage in excessive 
force or intentionally violate individual's rights. The Division's 
civil enforcement work is designed to address systemic problems in 
police departments by securing agreements with law enforcement agencies 
that provide for meaningful reform, including community policing 
requirements. As part of the investigative process, the Division 
engages with and solicits feedback from the community and works 
cooperatively with COPS and OJP in facilitating relationship-building 
between the community and law enforcement. The Division is continually 
examining its enforcement work to ensure that it is encouraging 
departments to use the best practices, such as proper use of body-worn 
cameras and data collection and reporting. To protect individual rights 
and ensure communities' trust in law enforcement, the Division will 
continue to commit substantial resources to these important cases.
Community Relations Service
    Police-community relations surrounding excessive use of force, and 
the possibility of racial violence, particularly in minority 
communities, consumes more than half of the Community Relations 
Services' work. To meet the demand for tailored services regarding the 
policing of minority communities, CRS requested 10 positions and $1.2 
million for three program increases in the fiscal year 2016 President's 
budget. The request funds local capacity building to reduce tensions 
through online resources, allowing CRS to direct its limited resources 
towards the most vulnerable, highest priority populations ($240,000 for 
the CRS Training Academy request); provides conciliation services in 
support of the President's My Brother's Keeper Initiative and the 
proposal for the National Initiative for Building Community Trust and 
Justice ($775,000 and 10 positions as part of the Collaborative 
Community Strengthening Initiative); and funds in-depth consultation 
and guidance to local law enforcement agencies who are party to 
potentially violent, public safety degrading conflicts with minority 
communities ($200,000 for the Law Enforcement Organizational Change 
Initiative).
                       lost and stolen guns rider
    Question. Do you share my view that ATF should no longer be 
prohibited from requiring gun dealers to conduct regular inventories of 
their firearms?
    Lead-in information from original document.--
          On May 2, 2015, a New York Police Department officer, Brian 
        Moore, was shot and killed by an assailant who used a gun 
        stolen 4 years ago from a pawnshop in Georgia. That pawnshop 
        had guns stolen on at least one other occasion, according to 
        press reports. The tragic shooting of Officer Moore highlights 
        a serious problem in our laws. Since 2004, a policy ``rider'' 
        included annually in appropriations bills has prohibited ATF 
        from requiring that gun dealers conduct an inventory analysis 
        to determine if any guns are lost, stolen, or missing. As a 
        result of this prohibition, guns can be stolen from stores or 
        given to criminals by unscrupulous dealers without ATF's 
        knowledge.

    Answer. Some Federal Firearms Licensees (FFLs) do not conduct 
annual inventory inspections and record reconciliation and, as such, 
are often unable to account for some of the firearms that, according to 
their records, are in their custody. Missing firearms for which no 
record of disposition exists is the most often cited violation during 
the FFL inspection process. ATF encourages FFLs to conduct annual 
inventories of their firearms, but cannot require them to do so, and 
cannot explore possible rulemaking relevant to inventories to enhance 
timely reporting of lost/stolen firearms. If Congress removed the 
appropriations restriction, and ATF intended to propose a regulation on 
this issue, it would do so through the Administrative Procedures Act 
(APA), which would include opportunity for public comment. ATF believes 
that public discourse on this issue, through the APA process, is a 
worthwhile exercise and could help it develop a regulation that would 
minimize the burden on industry while maximizing its ability to 
investigate firearms trafficking and streamline the inspection process.
                     daniel chong detention by dea
    Question. The DEA's administrator, Michele Leonhart, is stepping 
down, effective May 15th. As DEA transitions to new leadership, how 
will you ensure that the agency does not let an incident like this one 
happen ever again?
    Lead-in information from original document.--
          College student Daniel Chong was held in a detention cell at 
        the DEA's San Diego office without food or water for 5 days 
        with his hands handcuffed behind his back. He nearly died. When 
        he was found, he was suffering from dehydration and kidney 
        failure.

    Answer. What happened to Daniel Chong is unacceptable. Following 
the incident, DEA leadership took immediate steps to implement 
protocols and procedures regarding the monitoring of holding cells and 
detainees. Furthermore, DEA instituted the recommendations made by the 
Office of the Inspector General (OIG) in its investigation report 
before the OIG report was even finalized. DEA took action within 60 
days of the incident to ensure that nothing like this ever happens 
again.
    Additionally, as a result of the OIG review, the head of the 
Department of Justice's (DOJ) Office of Professional Responsibility is 
examining DEA's processes and procedures for investigating allegations 
of misconduct as well as its processes for determining and 
administering disciplinary action when appropriate. Following 
completion of this review, DOJ will work with DEA to enhance its 
policies and procedures to ensure that all allegations are thoroughly 
investigated and that any substantial findings of misconduct are 
properly addressed.
    Question. Will you ensure that DEA responds to congressional 
inquiries, particularly following such tragedies, in a timely manner?
    Lead-in information from original document.--
          Last summer, I sent Administrator Leonhart two letters, 
        expressing my outrage at Mr. Chong's treatment and requesting 
        answers as to how DEA intended to remedy what an Inspector 
        General's report called ``systemic deficiencies'' that led to 
        Mr. Chong's detention. I have not received any response to my 
        two letters.

    Answer. It is important that the Department respond to 
congressional inquiries in a timely manner. I understand that DEA 
responded to your letters on June 9, 2015.
    Question. Are you confident that DEA has sufficient funding to 
remedy the deficiencies identified by the Inspector General?
    Lead-in information from original document.--
          Last summer, I sent Administrator Leonhart two letters, 
        expressing my outrage at Mr. Chong's treatment and requesting 
        answers as to how DEA intended to remedy what an Inspector 
        General's report called ``systemic deficiencies'' that led to 
        Mr. Chong's detention. I have not received any response to my 
        two letters.

    Answer. Yes. As previously stated, all of the OIG recommendations 
were in place before the OIG finalized its report. DEA took action 
within 60 days of the incident to ensure that nothing like this ever 
happens again. DEA responded to your letters on June 9, 2015.
                  restitution for trafficking victims
    Question. What training do prosecutors receive on mandatory 
criminal restitution for trafficking victims?
    Lead-in information from original document.--
          In a letter dated April 20, 2015, Assistant Attorney General 
        Peter Kadzik responded to a letter Senator Portman and I had 
        written to then-Attorney General Eric Holder, urging him to 
        seek restitution for all victims of human trafficking. The 
        Trafficking Victims Protection Act of 2000 (codified at 18 
        U.S.C. ss 1593) provides that the Federal courts ``shall order 
        restitution for any offense'' committed under Federal laws that 
        prohibit human trafficking. That law requires the court to 
        order the greater of the calculation of wages owed under the 
        Fair Labor Standards Act or the value of the victim's services 
        to the trafficker. As discussed in the letter Senator Portman 
        and I sent to Attorney General Holder, a recent report by The 
        Human Trafficking Pro Bono Legal Center found that Federal 
        prosecutors did not request restitution in 37 percent of 
        qualifying human trafficking cases that were brought between 
        2009 and 2012, despite the requirement in Federal law that 
        restitution is mandatory in these cases. Mr. Kadzik stated 
        that, in some instances, there may be ``insufficient evidence'' 
        to support a claim for restitution, noting that restitution 
        requires ``proof that specific harms were caused as a result of 
        an offense'' and ``evidence establishing the amount of losses 
        incurred or projected to be incurred. ``It is clear that many 
        trafficking victims are essentially sold and exploited for 
        profit, and many have significant healthcare needs resulting 
        from their trafficking. One paper produced by the U.S. 
        Department of Health and Human Services stated that a ``number 
        of studies have identified the serious and often complex mental 
        health needs of victims of human trafficking.'' As an example, 
        in one Federal case in which restitution was ordered (United 
        States v. Shelby, Memorandum Opinion, 09-213 (D. D.C. June 13, 
        2011)), the Guardian Ad Litem appointed to represent the four 
        minor victims in that case concluded that each victim suffered 
        from Post-Traumatic Stress Disorder specifically relating to 
        the victim's experience with the defendant. The statute 
        provides for how losses should be calculated. In addition, to 
        address physical and mental healthcare needs, victims incur 
        costs, either now or in the future, and traffickers must pay 
        for those costs.

    Answer. Securing restitution for victims is an essential part of 
the Department's victim-centered approach to trafficking investigations 
and prosecutions. The Department provides in-person training and 
written guidance for United States Attorneys' Offices throughout the 
country on seeking restitution for victims of trafficking. Restitution 
is a component of almost all Project Safe Childhood trainings at the 
National Advocacy Center, and restitution training is presented at 
national conferences such as the Internet Crimes Against Children Task 
Force national training for law enforcement and prosecutors. In 2014, 
for the first time, the Human Trafficking Prosecution course for 
Federal prosecutors at the National Advocacy Center included a 
specialized, stand-alone segment on restitution.
    The Department has also already issued guidance to the field 
regarding the new restitution provisions in the Justice for Victims of 
Trafficking Act, and the Department is currently planning additional 
trainings for prosecutors on the new enforcement and restitution 
provisions in the law. The Department's human trafficking prosecutors 
are also increasingly collaborating with their counterparts in the 
Asset Forfeiture and Money Laundering Section to more effectively 
anticipate and address complex issues arising in restitution and 
forfeiture proceedings.
    Question. Are prosecutors instructed that they must seek 
restitution?
    Lead-in information from original document.--
          In a letter dated April 20, 2015, Assistant Attorney General 
        Peter Kadzik responded to a letter Senator Portman and I had 
        written to then-Attorney General Eric Holder, urging him to 
        seek restitution for all victims of human trafficking. The 
        Trafficking Victims Protection Act of 2000 (codified at 18 
        U.S.C. ss 1593) provides that the Federal courts ``shall order 
        restitution for any offense'' committed under Federal laws that 
        prohibit human trafficking. That law requires the court to 
        order the greater of the calculation of wages owed under the 
        Fair Labor Standards Act or the value of the victim's services 
        to the trafficker. As discussed in the letter Senator Portman 
        and I sent to Attorney General Holder, a recent report by The 
        Human Trafficking Pro Bono Legal Center found that Federal 
        prosecutors did not request restitution in 37 percent of 
        qualifying human trafficking cases that were brought between 
        2009 and 2012, despite the requirement in Federal law that 
        restitution is mandatory in these cases. Mr. Kadzik stated 
        that, in some instances, there may be ``insufficient evidence'' 
        to support a claim for restitution, noting that restitution 
        requires ``proof that specific harms were caused as a result of 
        an offense'' and ``evidence establishing the amount of losses 
        incurred or projected to be incurred. ``It is clear that many 
        trafficking victims are essentially sold and exploited for 
        profit, and many have significant healthcare needs resulting 
        from their trafficking. One paper produced by the U.S. 
        Department of Health and Human Services stated that a ``number 
        of studies have identified the serious and often complex mental 
        health needs of victims of human trafficking.'' As an example, 
        in one Federal case in which restitution was ordered (United 
        States v. Shelby, Memorandum Opinion, 09-213 (D. D.C. June 13, 
        2011)), the Guardian Ad Litem appointed to represent the four 
        minor victims in that case concluded that each victim suffered 
        from Post-Traumatic Stress Disorder specifically relating to 
        the victim's experience with the defendant. The statute 
        provides for how losses should be calculated. In addition, to 
        address physical and mental healthcare needs, victims incur 
        costs, either now or in the future, and traffickers must pay 
        for those costs.

    Answer. Prosecutors are instructed to seek restitution in every 
case where there is an identifiable victim that suffered a compensable 
loss, as defined by applicable statutes, as a result of the offense of 
conviction and where there is available, admissible evidence to support 
such a request. Securing restitution for victims is an essential part 
of the Department's victim-centered approach to trafficking 
investigations and prosecutions.
    As indicated in the April 20, 2015 letter from Assistant Attorney 
General Peter J. Kadzik, there are a number of factors which may impact 
whether restitution may be ordered. For instance, if victims indicate 
that they do not wish to obtain restitution from defendants or 
participate in sentencing or restitution proceedings, the Department 
respects their decisions. Further, the Department can only proceed 
where there is sufficient evidence to support a loss calculation for 
restitution purposes, including evidence establishing actual losses as 
statutorily defined. If necessary evidence is unavailable, there may be 
no factual basis to support a restitution order.
    Question. Has the U.S. Attorneys' Manual been updated to include 
instructions for seeking restitution under 18 U.S.C. ss 1593?
    Lead-in information from original document.--
          In a letter dated April 20, 2015, Assistant Attorney General 
        Peter Kadzik responded to a letter Senator Portman and I had 
        written to then-Attorney General Eric Holder, urging him to 
        seek restitution for all victims of human trafficking. The 
        Trafficking Victims Protection Act of 2000 (codified at 18 
        U.S.C. ss 1593) provides that the Federal courts ``shall order 
        restitution for any offense'' committed under Federal laws that 
        prohibit human trafficking. That law requires the court to 
        order the greater of the calculation of wages owed under the 
        Fair Labor Standards Act or the value of the victim's services 
        to the trafficker. As discussed in the letter Senator Portman 
        and I sent to Attorney General Holder, a recent report by The 
        Human Trafficking Pro Bono Legal Center found that Federal 
        prosecutors did not request restitution in 37 percent of 
        qualifying human trafficking cases that were brought between 
        2009 and 2012, despite the requirement in Federal law that 
        restitution is mandatory in these cases. Mr. Kadzik stated 
        that, in some instances, there may be ``insufficient evidence'' 
        to support a claim for restitution, noting that restitution 
        requires ``proof that specific harms were caused as a result of 
        an offense'' and ``evidence establishing the amount of losses 
        incurred or projected to be incurred. ''It is clear that many 
        trafficking victims are essentially sold and exploited for 
        profit, and many have significant healthcare needs resulting 
        from their trafficking. One paper produced by the U.S. 
        Department of Health and Human Services stated that a ``number 
        of studies have identified the serious and often complex mental 
        health needs of victims of human trafficking.'' As an example, 
        in one Federal case in which restitution was ordered (United 
        States v. Shelby, Memorandum Opinion, 09-213 (D. D.C. June 13, 
        2011)), the Guardian Ad Litem appointed to represent the four 
        minor victims in that case concluded that each victim suffered 
        from Post-Traumatic Stress Disorder specifically relating to 
        the victim's experience with the defendant. The statute 
        provides for how losses should be calculated. In addition, to 
        address physical and mental healthcare needs, victims incur 
        costs, either now or in the future, and traffickers must pay 
        for those costs.

    Answer. The United States Attorneys' Manual (USAM) directs U.S. 
Attorneys to seek restitution where appropriate. For example, section 
9-16.320 discusses restitution--particularly mandatory restitution--in 
the context of plea agreements. Section 9-75.500 of the USAM and 
section 1977 of the Criminal Resource Manual discuss mandatory 
restitution in the context of sexual exploitation offenses, directing 
Assistant U.S. Attorneys (AUSAs) that issuance of a restitution order 
is mandatory. Section 9-27 of the USAM contains the Principles of 
Federal Prosecution, and directs AUSAs to consider whether restitution 
has been paid when considering the serious nature of the offense. The 
USAM does not, and cannot, specifically address restitution for each 
individual statute in which restitution can be obtained. Nevertheless, 
the Executive Office for U.S. Attorneys is in the process of drafting 
guidance addressing Sec. 1593's mandatory restitution provision.
    Question. If a victim wishes to obtain restitution from a 
defendant, what specific problems does the Department face in proving 
the victim's amount of losses?
    Lead-in information from original document.--
          In a letter dated April 20, 2015, Assistant Attorney General 
        Peter Kadzik responded to a letter Senator Portman and I had 
        written to then-Attorney General Eric Holder, urging him to 
        seek restitution for all victims of human trafficking. The 
        Trafficking Victims Protection Act of 2000 (codified at 18 
        U.S.C. ss 1593) provides that the Federal courts ``shall order 
        restitution for any offense'' committed under Federal laws that 
        prohibit human trafficking. That law requires the court to 
        order the greater of the calculation of wages owed under the 
        Fair Labor Standards Act or the value of the victim's services 
        to the trafficker. As discussed in the letter Senator Portman 
        and I sent to Attorney General Holder, a recent report by The 
        Human Trafficking Pro Bono Legal Center found that Federal 
        prosecutors did not request restitution in 37 percent of 
        qualifying human trafficking cases that were brought between 
        2009 and 2012, despite the requirement in Federal law that 
        restitution is mandatory in these cases. Mr. Kadzik stated 
        that, in some instances, there may be ``insufficient evidence'' 
        to support a claim for restitution, noting that restitution 
        requires ``proof that specific harms were caused as a result of 
        an offense'' and ``evidence establishing the amount of losses 
        incurred or projected to be incurred. ``It is clear that many 
        trafficking victims are essentially sold and exploited for 
        profit, and many have significant healthcare needs resulting 
        from their trafficking. One paper produced by the U.S. 
        Department of Health and Human Services stated that a ``number 
        of studies have identified the serious and often complex mental 
        health needs of victims of human trafficking.'' As an example, 
        in one Federal case in which restitution was ordered (United 
        States v. Shelby, Memorandum Opinion, 09-213 (D. D.C. June 13, 
        2011)), the Guardian Ad Litem appointed to represent the four 
        minor victims in that case concluded that each victim suffered 
        from Post-Traumatic Stress Disorder specifically relating to 
        the victim's experience with the defendant. The statute 
        provides for how losses should be calculated. In addition, to 
        address physical and mental healthcare needs, victims incur 
        costs, either now or in the future, and traffickers must pay 
        for those costs.

    Answer. In addition to ``the full amount of the victim's losses,'' 
the Trafficking Victims Protection Act (TVPA) restitution provisions 
require the court to order the greater of the wages under the Fair 
Labor Standards Act or the value of the victim's services to the 
trafficker. This requires proof of prevailing wages and hours worked, 
or alternatively of proceeds generated by a victim for the trafficker's 
benefit. Other restitution provisions allow recompense for out-of-
pocket expenses, such as healthcare costs, if there is adequate 
documentation. In many instances, there are few if any written records, 
and victims' recollections can be imprecise due to isolation, trauma 
responses, the long duration of the offense, and other factors. In 
addition, a victim may not have been employed (or his or her employment 
may not have been affected by the offense conduct), and the victim may 
not have been able to receive medical, therapeutic or rehabilitative 
services (or may not provide any records reflecting any such services). 
Other difficulties include victim unavailability and losses 
attributable to prior trauma.
    Question. How do Federal prosecutors have difficulty finding 
``evidence establishing the amount of losses incurred or projected to 
be incurred'' by trafficking victims?
    Lead-in information from original document.--
          In a letter dated April 20, 2015, Assistant Attorney General 
        Peter Kadzik responded to a letter Senator Portman and I had 
        written to then-Attorney General Eric Holder, urging him to 
        seek restitution for all victims of human trafficking. The 
        Trafficking Victims Protection Act of 2000 (codified at 18 
        U.S.C. ss 1593) provides that the Federal courts ``shall order 
        restitution for any offense'' committed under Federal laws that 
        prohibit human trafficking. That law requires the court to 
        order the greater of the calculation of wages owed under the 
        Fair Labor Standards Act or the value of the victim's services 
        to the trafficker. As discussed in the letter Senator Portman 
        and I sent to Attorney General Holder, a recent report by The 
        Human Trafficking Pro Bono Legal Center found that Federal 
        prosecutors did not request restitution in 37 percent of 
        qualifying human trafficking cases that were brought between 
        2009 and 2012, despite the requirement in Federal law that 
        restitution is mandatory in these cases. Mr. Kadzik stated 
        that, in some instances, there may be ``insufficient evidence'' 
        to support a claim for restitution, noting that restitution 
        requires ``proof that specific harms were caused as a result of 
        an offense'' and ``evidence establishing the amount of losses 
        incurred or projected to be incurred. ``It is clear that many 
        trafficking victims are essentially sold and exploited for 
        profit, and many have significant healthcare needs resulting 
        from their trafficking. One paper produced by the U.S. 
        Department of Health and Human Services stated that a ``number 
        of studies have identified the serious and often complex mental 
        health needs of victims of human trafficking.'' As an example, 
        in one Federal case in which restitution was ordered (United 
        States v. Shelby, Memorandum Opinion, 09-213 (D. D.C. June 13, 
        2011)), the Guardian Ad Litem appointed to represent the four 
        minor victims in that case concluded that each victim suffered 
        from Post-Traumatic Stress Disorder specifically relating to 
        the victim's experience with the defendant. The statute 
        provides for how losses should be calculated. In addition, to 
        address physical and mental healthcare needs, victims incur 
        costs, either now or in the future, and traffickers must pay 
        for those costs.

    Answer. Victims may not remain involved post-trial, and may become 
unavailable, which may adversely affect the Government's ability to 
estimate the victim's actual losses with reasonable certainty, and may 
adversely affect a judge's consideration of a restitution request that 
is made. In addition, while restitution is sometimes sought for medical 
or psychiatric care, defense counsel and courts may question whether 
the loss can be proven to be causally related to the offense, as 
opposed to prior or subsequent traumas that are common in the lives of 
many trafficking victims.
    Under the TVPA, a victim of labor or sex trafficking is entitled 
to, among recompense for other losses, ``the greater of the gross 
income or value to the defendant of the victim's services or labor or 
the value of the victim's labor as guaranteed under the minimum wage 
and overtime guarantees of the Fair Labor Standards Act.'' However, 
where the underlying nature of the work is illegal, such as 
prostitution, victims are unable to benefit from a prevailing wage 
standard. To remedy this issue, the Department has argued that victims 
should be compensated based on a theory of unjust enrichment, granting 
an award in the amount that the defendant(s) profited from exploiting 
the victim, whether for labor or for illegal commercial sex acts. Under 
this method, the Department has argued that a victim is entitled to 
recover the ill-gotten gains the trafficker derived, but not all courts 
have accepted this legal theory.
    Question. Would the Department recommend any legislative changes to 
Section 1593 to improve its usefulness for trafficking victims?
    Lead-in information from original document.--
          In a letter dated April 20, 2015, Assistant Attorney General 
        Peter Kadzik responded to a letter Senator Portman and I had 
        written to then-Attorney General Eric Holder, urging him to 
        seek restitution for all victims of human trafficking. The 
        Trafficking Victims Protection Act of 2000 (codified at 18 
        U.S.C. ss 1593) provides that the Federal courts ``shall order 
        restitution for any offense'' committed under Federal laws that 
        prohibit human trafficking. That law requires the court to 
        order the greater of the calculation of wages owed under the 
        Fair Labor Standards Act or the value of the victim's services 
        to the trafficker. As discussed in the letter Senator Portman 
        and I sent to Attorney General Holder, a recent report by The 
        Human Trafficking Pro Bono Legal Center found that Federal 
        prosecutors did not request restitution in 37 percent of 
        qualifying human trafficking cases that were brought between 
        2009 and 2012, despite the requirement in Federal law that 
        restitution is mandatory in these cases. Mr. Kadzik stated 
        that, in some instances, there may be ``insufficient evidence'' 
        to support a claim for restitution, noting that restitution 
        requires ``proof that specific harms were caused as a result of 
        an offense'' and ``evidence establishing the amount of losses 
        incurred or projected to be incurred. ``It is clear that many 
        trafficking victims are essentially sold and exploited for 
        profit, and many have significant healthcare needs resulting 
        from their trafficking. One paper produced by the U.S. 
        Department of Health and Human Services stated that a ``number 
        of studies have identified the serious and often complex mental 
        health needs of victims of human trafficking.'' As an example, 
        in one Federal case in which restitution was ordered (United 
        States v. Shelby, Memorandum Opinion, 09-213 (D. D.C. June 13, 
        2011)), the Guardian Ad Litem appointed to represent the four 
        minor victims in that case concluded that each victim suffered 
        from Post-Traumatic Stress Disorder specifically relating to 
        the victim's experience with the defendant. The statute 
        provides for how losses should be calculated. In addition, to 
        address physical and mental healthcare needs, victims incur 
        costs, either now or in the future, and traffickers must pay 
        for those costs.

    Answer. The Department is examining this section to see what 
legislative changes may help improve 18 U.S.C. Sec. 1593's efficacy in 
helping trafficking victims.
    Question. What steps is the Department taking to ensure that, when 
restitution is ordered, any assets the defendant forfeited may be used 
to pay restitution?
    Lead-in information from original document.--
          In a letter dated April 20, 2015, Assistant Attorney General 
        Peter Kadzik responded to a letter Senator Portman and I had 
        written to then-Attorney General Eric Holder, urging him to 
        seek restitution for all victims of human trafficking. The 
        Trafficking Victims Protection Act of 2000 (codified at 18 
        U.S.C. ss 1593) provides that the Federal courts ``shall order 
        restitution for any offense'' committed under Federal laws that 
        prohibit human trafficking. That law requires the court to 
        order the greater of the calculation of wages owed under the 
        Fair Labor Standards Act or the value of the victim's services 
        to the trafficker. As discussed in the letter Senator Portman 
        and I sent to Attorney General Holder, a recent report by The 
        Human Trafficking Pro Bono Legal Center found that Federal 
        prosecutors did not request restitution in 37 percent of 
        qualifying human trafficking cases that were brought between 
        2009 and 2012, despite the requirement in Federal law that 
        restitution is mandatory in these cases. Mr. Kadzik stated 
        that, in some instances, there may be ``insufficient evidence'' 
        to support a claim for restitution, noting that restitution 
        requires ``proof that specific harms were caused as a result of 
        an offense'' and ``evidence establishing the amount of losses 
        incurred or projected to be incurred. ``It is clear that many 
        trafficking victims are essentially sold and exploited for 
        profit, and many have significant healthcare needs resulting 
        from their trafficking. One paper produced by the U.S. 
        Department of Health and Human Services stated that a ``number 
        of studies have identified the serious and often complex mental 
        health needs of victims of human trafficking.'' As an example, 
        in one Federal case in which restitution was ordered (United 
        States v. Shelby, Memorandum Opinion, 09-213 (D. D.C. June 13, 
        2011)), the Guardian Ad Litem appointed to represent the four 
        minor victims in that case concluded that each victim suffered 
        from Post-Traumatic Stress Disorder specifically relating to 
        the victim's experience with the defendant. The statute 
        provides for how losses should be calculated. In addition, to 
        address physical and mental healthcare needs, victims incur 
        costs, either now or in the future, and traffickers must pay 
        for those costs.

    Answer. Returning assets to victims of crime is a priority in the 
Department of Justice's Asset Forfeiture Program. The Department has 
returned more than $4 billion in civilly and criminally forfeited funds 
to crime victims since 2002, with $723 million paid to over 150,000 
victims in the last 3 years alone. The Department's human trafficking 
prosecutors are also increasingly collaborating with their counterparts 
in the Asset Forfeiture and Money Laundering Section to more 
effectively anticipate and address complex issues arising in 
restitution and forfeiture proceedings. The Department also looks 
forward to employing the new tools provided in the Justice for Victims 
of Trafficking Act to ensure that forfeited assets of traffickers are/
will be used for restitution.
                                 ______
                                 
          Questions Submitted by Senator Christopher A. Coons
                             fbi testimony
    Question. What is the DOJ doing to complete its analysis of cases 
in which the FBI provided hair analysis testimony, including in those 
cases where local jurisdictions have not been working cooperatively?
    Answer. In 2012, the FBI initiated a comprehensive review of 
microscopic hair comparison analysis or testimony provided in more than 
20,000 cases prior to December 31, 1999, when mitochondrial DNA testing 
became routine at the FBI Lab. The FBI has completed the review of 98 
percent of these cases. The review determines whether the FBI 
Laboratory analysis revealed a positive association between hair 
evidence and a known sample. To accomplish this process, which includes 
identifying cases, locating transcripts, and reviewing and evaluating 
transcripts and reports, the FBI has used the services of 5 FBI 
employees full-time, more than 18 FBI employees part-time, and 3 
contractors full-time. The Department has been working in cooperation 
with the Innocence Project (IP) and National Association of Criminal 
Defense Lawyers (NACDL) in this review.
    The FBI reached out nationwide to U.S. Attorneys' Offices, State 
and local District Attorney Offices and last known defense counsel to 
obtain transcripts of FBI Hair Examiner trial testimony. The IP and 
NACDL have also reached out to their contacts to obtain transcripts, 
which they will provide DOJ and FBI. The FBI anticipates completing its 
review of all received case transcripts by the end of 2015.
    The FBI, IP, and NACDL are developing additional measures to secure 
transcripts from jurisdictions that have not been responsive to the 
requests including enlisting the assistance of the State and local 
prosecutor associations or contracting for the preparation of 
transcripts of previously un-transcribed testimony.
                     inaccurate forensic testimony
    Question. What is the DOJ doing to provide meaningful relief to 
those convicted on the strength of misstated and inaccurate forensic 
testimony?
    Answer. DOJ reviews requests for relief on a case-by-case basis 
based on an individual review of all case information. In the event 
that the prosecuting office determines that further testing is 
appropriate or necessary, or the court orders such testing, the FBI is 
available to provide mitochondrial DNA testing of the relevant hair 
evidence or short tandem repeat (STR) testing of related biological 
evidence if the testing of hair evidence is no longer possible, if (1) 
the evidence to be tested is in the Government's possession or control, 
and (2) the chain of custody for the evidence can be established. In 
the cases with a positive association, the FBI determines whether the 
hair examiner involved exceeded the scope of science when the evidence 
was introduced at trial or to support a plea. In all convictions where 
a positive FBI hair analysis was used, DOJ will notify the appropriate 
prosecutor, the defendant, his/her attorney when possible, the 
Innocence Project (IP), and the National Association of Criminal 
Defense Lawyers (NACDL)--whether or not there was a prior error. For 
example, the FBI reached out nationwide to U.S. Attorneys' Offices, 
State and local District Attorney Offices and last known defense 
counsel to obtain transcripts of FBI Hair Examiner trial testimony. The 
IP and NACDL have also reached out to their contacts to obtain 
transcripts, which they will provide to DOJ and FBI. The FBI 
anticipates completing its review of all received case transcripts by 
the end of 2015.

                         CONCLUSION OF HEARINGS

    Senator Shelby. Now, the subcommittee stands in recess 
subject to the call of the chair. The subcommittee is 
adjourned.
    Attorney General Lynch. Thank you, Mr. Chairman.
    [Whereupon, at 12:12 p.m., Thursday, May 7, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]
</pre></body></html>
